APPENDIX

1a
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
————
No. 19-56320
D.C. No. 2:19-cv-04352-R-PLA
————
ADIR INTERNATIONAL, LLC, DBA Curacao,
FKA La Curacao, a Delaware Limited Liability
Company; RON AZARKMAN, an individual,
Plaintiffs-Counter-Defendants-Appellants,
v.
STARR INDEMNITY AND LIABILITY COMPANY,
a Texas Corporation,
Defendant-Counter-Claimant-Appellee.
————
Appeal from the United States District Court
for the Central District of California
Gary Klausner, District Judge, Presiding
————
Argued and Submitted December 11, 2020
Pasadena, California
Filed April 15, 2021
————
OPINION
————

2a
Before: N. Randy Smith and Kenneth K. Lee, Circuit
Judges, and Matthew F. Kennelly,* District Judge.
Opinion by Judge Lee
————
SUMMARY**
————
California Insurance Law
The panel affirmed the district court’s summary
judgment in favor of Starr Indemnity and Liability
Company in a diversity insurance-coverage action.
California’s Attorney General sued Adir International, LLC for violating state consumer protection
laws. After initially agreeing to provide coverage,
Adir’s insurer, Starr Indemnity, said it would no
longer pay for Adir’s defense pursuant to California
Insurance Code § 533.5(b), which forbids insurer
coverage in certain consumer protection cases brought
by the state.
The panel held Cal. Ins. Code § 533.5(b) did not
facially violate the due process right of insurance
holders to fund and retain the counsel of their choice
in the civil context. The panel also rejected Adir’s
statutory argument that section 533.5 applied to
actions involving only monetary relief. The panel
further held that under the plain text of the statute, it
applied to actions that seek injunctive relief along with
monetary relief.
*

The Honorable Matthew F. Kennelly, sitting by designation
from the Northern District of Illinois
**

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

3a
Because Starr Indemnity had no duty to defend nor
to indemnify, the panel affirmed the district court’s
determination that Starr Indemnity was entitled to
reimbursement of defense costs under the explicit
language of the insurance policy.
COUNSEL
Joseph S. Klapach (argued), Klapach & Klapach
P.C., Sherman Oaks, California, for PlaintiffsCounter-Defendants-Appellees.
Kevin F. Kieffer (argued) and Ryan C. Tuley,
Troutman Sanders LLP, Irvine, California, for
Defendant-Counter-Claimant-Appellee.
David L. Abney, Ahwatukee Legal Office P.C.,
Phoenix, Arizona, for Amicus Curiae United Policyholders.
Xavier Becerra, Attorney General; Nicklas A. Akers,
Senior Assistant Attorney General; Michele Van
Gelderen, Supervising Deputy Attorney General;
Michael Reynolds and Rachel A. Foodman, Deputy
Attorneys General; Office of the Attorney General,
San Francisco, California; for Amicus Curiae State of
California.
OPINION
LEE, Circuit Judge:
This case raises the question of whether a party has
a due process right to retain and fund counsel through
insurance proceeds. California’s Attorney General sued
Adir International for violating state consumer protection laws. To defend itself, Adir asked its insurance
carrier to pay its legal fees. The insurer agreed, but
the Attorney General warned that California Insurance Code § 533.5(b) forbids it from providing cover-

4a
age in certain consumer protection cases brought by
the state. The insurer reversed itself and said it would
no longer pay for Adir’s legal defense. Adir challenged
the law’s constitutionality, arguing that the state
unfairly stripped it of insurance defense coverage
based on unproven allegations in the complaint.
We affirm the district court’s dismissal of Adir’s
challenge. California Insurance Code § 533.5(b) — which
nullifies an insurance company’s duty to defend —
does not facially violate a party’s due process right
to retain counsel. In civil cases, courts have recognized
a denial of due process only if the government actively
thwarts a party from obtaining a lawyer or prevents
it from communicating with counsel. Adir has made
no such allegation. While it cannot tap into its insurance coverage, Adir has managed to obtain and communicate with counsel. We also reject Adir’s statutory
argument that section 533.5 applies to actions involving only monetary relief. Under the plain text of the
statute, it applies to actions that seek injunctive relief
along with monetary relief.
BACKGROUND
I. Factual Background
Adir operates a retail chain called Curacao with
stores in California, Nevada, and Arizona. In 2017,
the California Attorney General sued Adir and its
Chief Executive Officer, Ron Azarkman,1 for unfair
and misleading business tactics that allegedly exploit
Curacao’s mainly low-income, Spanish-speaking
customer base. The complaint alleged violations of
1

Technically, both Adir and Azarkman are appellants, but
this Opinion will refer to both appellants as “Adir” for the sake of
simplicity.

5a
California’s Unfair Competition Law (UCL) and False
Advertising Law (FAL), and sought restitution, civil
penalties, costs of suit, and other equitable relief. Relevant for this appeal, the complaint sought injunctive
relief permanently enjoining Adir from making any
false or misleading statements in violation of the
FAL and engaging in unfair competition in violation of
the UCL.
Meanwhile, Adir had bought an insurance policy
from Starr Indemnity. The policy provided that Starr
would defend and indemnify Adir and its executives
for losses arising from certain claims alleging wrongful acts. When the California Attorney General sued,
Adir tendered the complaint to Starr and asked it to
defend Adir against the lawsuit. Starr acknowledged
that it would defend the action under a reservation of
rights, and then became actively involved in the
defense of that action.
This all halted in March 2019 when Starr received a
written warning from the California Attorney General’s Office. In the letter, the Attorney General’s
Office explained that Starr violated California Insurance Code § 533.5. (Adir also apparently received a
copy of the same letter.) Section 533.5 provides:
(a) No policy of insurance shall provide, or
be construed to provide, any coverage or
indemnity for the payment of any fine, penalty, or restitution in any criminal action or
proceeding or in any action or proceeding
brought pursuant to [the UCL or FAL] by
the Attorney General . . . notwithstanding
whether the exclusion or exception regarding
this type of coverage or indemnity is expressly
stated in the policy.

6a
(b) No policy of insurance shall provide, or
be construed to provide, any duty to defend,
as defined in subdivision (c), any claim in
any criminal action or proceeding or in any
action or proceeding brought pursuant to [the
UCL or FAL] in which the recovery of a fine,
penalty, or restitution is sought by the Attorney General . . . notwithstanding whether the
exclusion or exception regarding the duty to
defend this type of claim is expressly stated
in the policy.
(c) For the purpose of this section, “duty to
defend” means the insurer’s right or obligation to investigate, contest, defend, control
the defense of, compromise, settle, negotiate
the compromise or settlement of, or indemnify
for the cost of any aspect of defending any
claim in any criminal action or proceeding or
in any action or proceeding brought pursuant
to [the UCL or FAL] in which the insured
expects or contends that (1) the insurer is
liable or is potentially liable to make any payment on behalf of the insured or (2) the
insurer will provide a defense for a claim even
though the insurer is precluded by law from
indemnifying that claim.
(d) Any provision in a policy of insurance
which is in violation of subdivision (a) or (b)
is contrary to public policy and void.
Cal. Ins. Code § 533.5.
A few weeks after receiving the letter from the
Attorney General’s Office, Starr informed Adir that it
would “stop making any payments for defense costs”

7a
and reserved “its rights to seek reimbursement of all
amounts paid to date.”
II. Procedural Background
After several rounds of correspondence about
whether section 533.5 applied, Adir sued Starr in state
court, and Starr removed to federal court under 28
U.S.C. § 1332. In August 2019, Starr filed a motion for
summary judgment, while Adir cross-moved for
partial summary judgment.
In September 2019, the district court granted
Starr’s motion for summary judgment and denied
Adir’s motion for partial summary judgment. The district court did not address Adir’s constitutional challenge to the statute’s defense prohibition, and instead
focused on the statutory construction issue. Addressing first the duty to defend, the district court explained
that subsection (b) — the defense provision — “clearly
and explicitly establishes that there was no potential
for coverage and, consequently, no duty to defend in
the underlying action.” Specifically, the district court
noted that subsection (b) “unambiguously precludes
an insurer’s duty to defend not only a UCL or FAL
claim for the recovery of a fine, penalty, or restitution,
but also any claim brought pursuant to the UCL or
FAL in an action in which the Attorney General or
another state prosecuting authority seeks such fine,
penalty, or restitution.”
As for the duty to indemnify under subsection (a),
the district court held that because “there is no duty
to defend, there can be no duty to indemnify.” The
district court also noted that subsection (a) “explicitly
precludes indemnification for any fine, penalty, or restitution in any action brought under the UCL or FAL
by the Attorney General or another state prosecuting

8a
authority.” Finally, the district court held that Starr
was entitled to reimbursement of defense costs because
the insurance policy itself explicitly provided for a
right to reimbursement. Later that month, the district
court amended the final judgment to specify that Adir
owed Starr over $2 million in restitution. This appeal
followed.
STANDARD OF REVIEW
We review de novo the district court’s grant of summary judgment. Baker v. Liberty Mut. Ins. Co., 143
F.3d 1260, 1263 (9th Cir. 1998). The court “must
determine, viewing the evidence in the light most
favorable to the nonmoving party, whether there are
any genuine issues of material fact and whether the
district court correctly applied the relevant substantive law.” Id. Similarly, we review de novo a challenge
to the constitutionality of a statute. Gray v. First
Winthrop Corp., 989 F.2d 1564, 1567 (9th Cir. 1993).
The same applies to the district court’s interpretation
of a state statute. Wetzel v. Lou Ehlers Cadillac Grp.
Long Term Disability Ins. Program, 222 F.3d 643, 646
(9th Cir. 2000).
ANALYSIS
On appeal, Adir challenges both the indemnification
and the defense provisions of California Insurance
Code § 533.5. (As a reminder, subsection (a) is the
indemnity provision, while subsection (b) is the defense
provision). Adir challenges subsection (b) on the basis
that it violates an insurance holder’s due process right
to retain and fund the counsel of its choice. Adir also
asserts statutory challenges to both subsection (a) and
subsection (b), arguing that the district court went
beyond the bounds of the statute by interpreting both
subsections to prohibit coverage of the injunctive relief

9a
(rather than monetary relief) portion of the underlying
action. To Adir’s way of thinking, the provisions
cover only “fines, penalties, and restitution” and thus
do not apply to injunctive relief. Finally, Adir challenges the district court’s ruling on Starr’s right to
reimbursement. We affirm the grant of summary
judgment for Starr.
I. California Insurance Code § 533.5(b) does not
facially violate the due process right of insurance holders to fund and retain the counsel of
their choice in the civil context.
Adir challenges the constitutionality of California
Insurance Code § 533.5(b), which bars insurance companies from paying legal defense fees for certain consumer protection lawsuits brought by the state. Adir
argues that it violates the Due Process Clauses of the
Fifth and Fourteenth Amendments because it interferes with an insured’s ability to fund and retain the
counsel of its choice. As Adir points out, California has
stacked the deck against defendants facing these
lawsuits filed by the state: Although the Attorney
General has yet to prove any of the allegations in his
lawsuit, he has invoked the power of the state to deny
insurance coverage that Adir paid for to defend itself.
In the civil context, courts have limited the reach of
the Due Process Clause to cases in which the government has actively prevented hiring or communicating
with counsel. Adir has not alleged such impingements
by the state. There is also no allegation that Adir
cannot afford competent counsel absent coverage under

10a
the policy. We thus reject Adir’s facial constitutional
challenge to California Insurance Code § 533.5(b).2
A. Courts have recognized a very limited due
process right to retain and fund counsel in
the civil context.
To start, this court has long held that there is “no
constitutional right to counsel in a civil case.” United
States v. 30.64 Acres of Land, More or Less, Situated
in Klickitat Cty., Washington, 795 F.2d 796, 801 (9th
Cir. 1986) (cleaned up). Unlike in criminal cases that
implicate the Sixth Amendment right to counsel, civil
litigants who cannot afford counsel are not constitutionally guaranteed the appointment of a lawyer.
Adir, though, correctly points out that courts have
generally acknowledged a civil litigant’s Fifth Amendment due process right to retain and fund the counsel
of their choice. See Potashnick v. Port City Const. Co.,
609 F.2d 1101, 1117 (5th Cir. 1980) (explaining that
“the right to retain counsel in civil litigation is implicit
in the concept of fifth amendment due process”). “If in
any case, civil or criminal, a state or federal court
were arbitrarily to refuse to hear a party by counsel,
employed by and appearing for him, it reasonably may
not be doubted that such a refusal would be a denial of
a hearing, and, therefore, of due process in the
constitutional sense.” Powell v. Alabama, 287 U.S. 45,
68 (1932). Put another way, “there is no right of subsidized access” in civil cases like there is in the Sixth
Amendment context, but if a civil litigant “hires a
2

The district court did not address Adir’s constitutional
arguments, even though Adir raised it in its briefing. We can
affirm the district court’s ruling on any ground in the record. Atel
Fin. Corp. v. Quaker Coal Co., 321 F.3d 924, 926 (9th Cir. 2003)
(per curiam).

11a
lawyer,” then certain protections kick in. GuajardoPalma v. Martinson, 622 F.3d 801, 803 (7th Cir. 2010)
(cleaned up).
So, what are the contours of a civil litigant’s due
process right to retain counsel? For one, a court “may
not refuse to accept filings” from a civil litigant’s
retained lawyer. Id. In addition, the right to retain
counsel might be violated if a trial court prohibits a
civil litigant from communicating with his or her
retained counsel during breaks and recesses during a
trial. Potashnick, 609 F.2d at 1119. A civil litigant also
probably cannot be denied the opportunity to consult
with retained counsel about settlement terms. Mosley
v. St. Louis Sw. Ry., 634 F.2d 942, 946 (5th Cir. 1981).
And one sister circuit held that a trial court erred in
refusing to give a civil litigant extra time to retain new
counsel after the original counsel withdrew before
trial. Anderson v. Sheppard, 856 F.2d 741, 748 (6th
Cir. 1988).
Beyond that, though, courts have construed the due
process right to retain counsel very narrowly. For
example, our court has suggested that the right to
retain counsel does not require the release of frozen
assets so that a civil defendant can hire an attorney
or otherwise defend his claim. See CFTC v. Noble
Metals Int’l, Inc., 67 F.3d 766, 775 (9th Cir. 1995). “A
district court may . . . forbid or limit payment of
attorney fees out of frozen assets.” Id. (recognizing,
however, that a district court must still exercise
“discretion”).
Other circuits have similarly refused to adopt an
expansive reading of the due process right to retain
counsel. The Third Circuit, for instance, has held that
the right appears to go “no further than preventing
arbitrary dismissal of a chosen attorney.” Kentucky W.

12a
Virginia Gas Co. v. Pennsylvania Pub. Util. Comm’n,
837 F.2d 600, 618 (3d Cir. 1988) (cleaned up). Along
those lines, the First Circuit has suggested that as
long as a trial court does not affirmatively prevent a
civil litigant from retaining counsel, no constitutional
violation occurs, even if the civil litigant still cannot
hire a lawyer. Gray v. New England Tel. & Tel. Co.,
792 F.2d 251, 257 (1st Cir. 1986) (no violation of due
process right where court postponed trial to give civil
litigant time to retain counsel, but litigant was unable
to do so).
In sum, the due process right to retain counsel in
civil cases appears to apply only in extreme scenarios
where the government substantially interferes with a
party’s ability to communicate with his or her lawyer
or actively prevents a party who is willing and able to
obtain counsel from doing so. This narrow scope of
the due process right to retain counsel — as opposed
to the much more robust Sixth Amendment right to
counsel — finds support in the original public meaning
of the term “due process.” As the Supreme Court long
ago explained, the Fifth Amendment Due Process
Clause is rooted in the Magna Carta. Murray’s Lessee
v. Hoboken Land & Improvement Co., 59 U.S. 272, 276
(1856). See also Edward J. Eberle, Procedural Due Process: The Original Understanding, 4 Const. Comment.
339 (1987). At the time of the Fifth Amendment’s ratification, the framers construed “due process of law” to
mean the same thing as “the law of the land,” which
was traditionally understood to impose a “restraint on
the legislative as well as on the executive and judicial
powers of the government.”3 Murray’s Lessee, 59 U.S.
3

The Magna Carta provides that: “No freeman shall be taken,
or imprisoned, or be disseized of his freehold, or liberties, or free
customs, or be outlawed, or exiled, or any otherwise destroyed;

13a
at 276. See also Daniels v. Williams, 474 U.S. 327,
331–32 (1986) (discussing the “traditional and commonsense notion that the Due Process Clause, like its forebear in the Magna Carta, was ‘intended to secure the
individual from the arbitrary exercise of the powers
of government.’” (cleaned up)).
Meanwhile, the Supreme Court has characterized
“the law of the land” as “a law which hears before it
condemns.” Powell, 287 U.S. at 68 (cleaned up). That
makes sense because “[t]he fundamental requisite of
due process of law is the opportunity to be heard.”
Grannis v. Ordean, 234 U.S. 385, 394 (1914). This is
where the right to counsel comes into play. “Historically and in practice, [a hearing] has always included
the right to the aid of counsel when desired and
provided by the party asserting the right.” Powell, 287
U.S. at 68 (emphasis added).4 Thus, due process historically did not establish a broad or unfettered right
to counsel in civil cases, but rather provided limited
protection against the government preventing a party
from being heard in court. And as a practical matter,
that means due process bars the government from
nor will we not pass upon him, nor condemn him, but by lawful
judgment of his peers or by the law of the land.” See 1 Edward
Coke, The Second Part of the Institutes of the Laws of England 45
(1797).
4

Indeed, as the Potashnick court noted, the English system
had long “recognized the right to retain civil counsel,” and it was
only because the English practice was to deny representation to
felony defendants that the framers “specifically provided for a
right to retain counsel in criminal prosecutions” by way of the
Sixth Amendment. Potashnick, 609 F.2d at 1117 (cleaned up). See
also Powell, 287 U.S. at 60 (“Originally, in England, a person
charged with treason or felony was denied the aid of counsel . . . .
At the same time parties in civil cases and persons accused of
misdemeanors were entitled to the full assistance of counsel.”).

14a
actively preventing a party from obtaining counsel or
communicating with his or her lawyer in civil cases.
B. The limited right to retain counsel does not
include the indirect right to fund and retain
counsel through an insurance policy.
With this framework in mind, the question then
becomes: Is there any way to fit Adir’s proposed
right — which really boils down to an indirect right
to fund and retain the counsel through an insurance
contract — into the existing due process right? We
see no reason to enlarge the limited due process right
to retain counsel to include a constitutional right to
use insurance proceeds to pay for legal fees. While Adir
complains that California Insurance Code § 533.5(b) is
unfair, the statute does not actively prevent Adir from
obtaining counsel or communicating with its lawyers.
Adir relies heavily on United States v. Stein, 541
F.3d 130 (2d Cir. 2008) and Luis v. United States, 136
S. Ct. 1083 (2016). In Stein, the Second Circuit held
that prosecutors violated the criminal defendants’
Sixth Amendment right to counsel — which encompasses a “right to use wholly legitimate funds to hire
the attorney of his choice” — when they pressured the
defendants’ lawyers to stop paying their legal fees.
Stein, 541 F.3d at 155 (cleaned up). Similarly, in Luis,
the Supreme Court articulated that “the pretrial
restraint of legitimate, untainted assets needed to
retain counsel of choice violates the Sixth Amendment.” Luis, 136 S. Ct. at 1088.
But Stein and Luis were both criminal cases interpreting the Sixth Amendment right to counsel. Adir,
for its part, argues that the Sixth Amendment at least
offers “guidance” for the scope of a civil litigant’s due
process right to counsel. But “guidance” does not mean

15a
that the two rights are equivalent. The Sixth Amendment’s explicit guarantee of counsel in criminal cases
is broader than the judicially constructed right under
the Due Process Clause. And for good reason: While a
civil lawsuit may implicate large sums of money or
restrictions on business practices, a criminal case may
lead to the loss of liberty or life. See Potashnick, 609
F.2d at 1118 (stating that “an analogy can be drawn
between the criminal and civil litigants’ respective
rights to counsel” but also emphasizing that “[a] criminal defendant faced with a potential loss of his personal liberty has much more at stake than a civil
litigant asserting or contesting a claim for damages,
and for this reason the law affords greater protection
to the criminal defendant's rights”).
At the end of the day, California’s law only makes it
harder, though not necessarily impossible, for a civil
litigant to retain the counsel of their choice. Adir has
not alleged that the government actively thwarted it
from obtaining counsel, or that the law precluded it
from communicating with counsel. Indeed, Adir
appears to have obtained an able and competent
counsel — without the use of insurance proceeds — for
this appeal.5 We thus rule that California Insurance
Code § 533.5(b) does not impinge on a due process
right to retain counsel.

5

Adir stated at oral argument that it was bringing both a
facial challenge and an as-applied challenge. But the briefing
appears to set forth a facial challenge only because Adir has not
alleged how the law has impaired its ability to retain counsel. We
thus need not address whether Adir can raise an as-applied
challenge.

16a
II. California Insurance Code § 533.5(b) prohibits a
duty to defend in an underlying action even if
the attorney general seeks injunctive relief.
We next address Adir’s statutory challenge to
California Insurance Code § 533.5(b). Adir argues that
the statutory language bars defense coverage for
actions seeking damages only and does not extend to
claims seeking injunctive relief. It maintains that
district court adopted a too-broad interpretation in
ruling that the statute prohibits Starr from defending
the injunctive relief portion of the underlying action.
We reject Adir’s strained reading of subsection (b).
A. The text of subsection (b) forecloses a duty
to defend for actions in which monetary
relief is sought, even if injunctive relief is
also sought.
We start, as we must, with the statutory text. Mt.
Hawley Ins. Co. v. Lopez, 156 Cal. Rptr. 3d 771, 779
(Ct. App. 2013). Section 533.5(b) states that there can
be no “duty to defend . . . any claim . . . in any action
or proceeding brought pursuant to [the UCL or FAL]
in which the recovery of a fine, penalty, or restitution
is sought by the Attorney General . . . .” Cal. Ins. Code
§ 533.5(b). To begin, the parties appear to agree that
the phrase “duty to defend” attaches to “any claim.”
The key question posed here is whether “any claim”
encompasses (1) claims that only seek monetary relief
or (2) all claims that seek monetary relief, even if it
also demands injunctive relief.
Adir argues the former, contending that “any claim”
only encompasses claims for monetary relief alone. To
arrive at that conclusion, Adir necessarily makes two
unwarranted assumptions about the text of the statute. First, Adir assumes that the phrase “in which the

17a
recovery of a fine, penalty, or restitution is sought”
must be read to mean “in which only the recovery of a
fine, penalty, or restitution is sought.” Second, Adir
assumes that “any claim” can be bifurcated into a
claim for monetary relief and a claim for injunctive
relief. We disagree with both assumptions.
1. The phrase “any claim . . . in which the
recovery of a fine, penalty, or restitution
is sought” is not limited to claims in
which only monetary relief is sought.
To start, there are plenty of textual clues that the
phrase “any claim . . . in which the recovery of a fine,
penalty, or restitution is sought” does not mean the
same thing as the phrase “any claim . . . in which
only the recovery of a fine, penalty, or restitution is
sought.” Most obviously, the word “only” is absent
from this section of the statute. Adir’s interpretation
would require the court to impermissibly read that
extra word into the statute. See Lamie v. U.S. Trustee,
540 U.S. 526, 538 (2004) (declining to “read an absent
word into the statute”). Along those same lines, the
phrase “in which” merely communicates that the claim
seeks monetary relief, but beyond that, “in which” does
not at all imply that only monetary relief is sought. As
Starr points out, Adir’s interpretation essentially
replaces “in which the recovery of a fine, penalty, or
restitution is sought” with the more restrictive modifier “for the recovery of a fine, penalty, or restitution.”
That reading goes against the plain text of the
statute.6

6

Additionally, the phrase “in which the recovery of a fine,
penalty, or restitution is sought,” also modifies “any criminal
action or proceeding.” Mt. Hawley, 156 Cal. Rptr. 3d at 794. Thus,
an interpretation limiting a claim to monetary relief would create

18a
2. A “claim” cannot be bifurcated into a
“claim” for monetary relief and a “claim”
for injunctive relief for insurance defense
purposes.
Adir reads “claim” to mean “relief” or “remedy” to
contrive a UCL or FAL “claim” for monetary relief as
distinct from a UCL or FAL “claim” for injunctive
relief. But Adir does not offer any authority for that
reading of the word “claim.” Nor does Adir’s reading
make sense given the statute’s inclusion of the phrase
“in any action or proceeding,” which seems to refer to
the entire lawsuit as a whole. If “action or proceeding”
refers to the entire lawsuit, then it would follow that
the word “claim” refers to the individual causes of
action within the lawsuit, which, in this case, would
be the UCL claim and the FAL claim. With that
framework in mind, the statute’s reference to “duty to
defend . . . any claim” seems to most naturally refer
to coverage (or not) for particular causes of action
within a larger “action or proceeding.”
Further supporting this conclusion is the definition
of “duty to defend,” which precludes an insurer from
“indemnify[ing] for the cost of any aspect of defending
any claim . . . in any action or proceeding brought
pursuant the [UCL or FAL].” Cal. Ins. Code § 533.5(b),
(c) (emphases added). Subsection (c) makes it clear
that an insurer is precluded from defending any action
brought under the UCL or FAL regardless of the relief
sought.

an absurd result. Jarman v. HCR ManorCare, Inc., 471 P.3d
1001, 1004 (Cal. 2020) (“If the language is clear, courts must generally follow its plain meaning unless a literal interpretation
would result in absurd consequences the Legislature did not
intend.”).

19a
But even so, Adir argues for bifurcating the UCL or
FAL claim into monetary and injunctive relief components. Adir cites Broughton v. Cigna Healthplans of
California, 988 P.2d 67 (Cal. 1999) for the proposition
that the injunctive relief “claim” can be severed from
the broader UCL or FAL claim. But Broughton’s
holding is much more limited than Adir makes it out
to be. In that case, the California Supreme Court
explained that it was “concerned not with distinct
arbitrable and inarbitrable claims, but with arbitrable
and inarbitrable remedies derived from the same statutory claim.” Broughton, 21 Cal. 4th at 1088 (emphases added). The court then concluded that the damages action should be sent to arbitration, while the
injunctive relief action could proceed in a judicial
forum, citing “the strong policy in both federal and
state law for arbitrating private disputes, and given
the inherent unsuitability of arbitration as a means of
resolving plaintiffs’ action for injunctive relief under
the CLRA.” Id.
There is nothing in Broughton’s reasoning to suggest that UCL and FAL claims should likewise be
bifurcated by remedy for insurability purposes. Unlike
in the arbitration context, the “strong policy” in this
case arguably cuts the other way — that is, against
insurability for UCL and FAL claims. And even if the
UCL or FAL claim could somehow be severed into
the injunctive relief and the monetary relief components to determine insurability, the text does not
support doing so here; the statute refers only to “any
claim,” rather than “the portion of any claim.”
Further, the statutory framework does not support
a bifurcation of injunctive relief and civil penalties.
Government officials may “seek redress through
the bringing of civil law enforcement cases seeking

20a
equitable relief and civil penalties” for violations of the
UCL and FAL. Mt. Hawley, 156 Cal. Rptr. 3d at 794;
see also Cal. Bus. & Professions Code § 17206. Equitable remedies (injunctive relief, restitution, and civil
penalties) are the only remedies available under
California Business and Professions Code §§ 17200–
17210. See Nationwide Biweekly Admin., Inc. v. Superior Ct. of Alameda Cty., 462 P.3d 461, 469 (Cal. 2020);
see also In re Tobacco II Cases, 207 P.3d 20, 29 (Cal.
2009) (“To achieve its goal of deterring unfair business
practices in an expeditious manner, the Legislature
limited the scope of the remedies available under the
UCL” to “equitable” damages such as “injunctive
relief and restitution.”). “The primary form of relief
available under the UCL to protect consumers from
unfair business practices is an injunction.” McGill v.
Citibank, N.A., 9 393 P.3d 85, 89 (Cal. 2017) (cleaned
up).
In light of the statutory framework as a whole, it
would be illogical to conclude that the legislature
intended to carve out an exception to allow for the
defense for the primary form of equitable relief
(injunctions) but not the others (fine, restitution, or
civil penalty). See Los Angeles Cty. Metro. Transportation Auth. v. Alameda Produce Mkt., LLC, 264 P.3d
579, 583 (Cal. 2011) (“We must harmonize the statute’s various parts by considering it in the context of
the statutory framework as a whole.”).
B. Our interpretation of subsection (b) does
not render the duty to defend narrower than
the duty to indemnify.
Alternatively, Adir urges the court to interpret subsection (b) with an eye toward subsection (a), which
prohibits “coverage or indemnity for the payment of
any fine, penalty, or restitution . . . in any action or

21a
proceeding brought pursuant to [the UCL or FAL].”
Cal. Ins. Code § 533.5(a). The relationship between
the two provisions matters, Adir reminds us, because
it is “well settled” under California law that “the duty
to defend is broader than the duty to indemnify.”
Certain Underwriters at Lloyd's of London v. Superior
Court, 16 P.3d 94, 103 (Cal. 2001). Adir asserts that
because subsection (a) does not bar indemnity for the
payment of injunctive relief costs, then it would make
no sense to read subsection (b) to prohibit defense
coverage in the same context. That would improperly
render the duty to indemnify broader than the duty to
defend.
We disagree. The insurance policy does not cover
the costs of injunctive relief in the first place. Nor do
there appear to be any real costs7 associated with the
injunctive relief sought here.
The text of the policy defines “claim” to encompass
a “written demand for monetary, non-monetary, or
injunctive relief.” But “claim” is not the same thing
as “coverage.” We know this because the policy also
states that the insurer shall pay “the Loss arising from
a Claim . . . .” The word “Loss” is in turn defined to
include “damages” but to exclude “any amounts paid
or incurred in complying with a judgment or settlement for non-monetary or injunctive relief, but solely
as respects the Company.” This indicates no coverage
for the costs of injunctive relief under the policy. To
be fair, this could still leave open the possibility of
coverage for any costs that Azarkman incurs in his
individual capacity in complying with the injunctive
relief in this case. But it is not clear what costs those

7

Any defense costs would be precluded under section 533.5(c).

22a
would be, given the injunctive relief being requested
by the Attorney General.
Even if the insurance policy did cover the costs of
complying with injunctive relief, the injunctive relief
sought does not appear to impose any monetary costs.
The California Attorney General appears to seek only
(1) an order permanently enjoining Adir and its agents
“from making any false or misleading statements in
violation of” the FAL, and (2) an order enjoining Adir
and its agents from engaging in unfair competition in
violation of the UCL. Adir does not articulate how it
will incur monetary costs to comply with an order to
make truthful representations.
Thus, it is unnecessary to resolve on appeal whether
subsection (a) prohibits Starr from indemnifying the
costs of injunctive relief in the underlying action
here. The insurance policy itself makes clear that the
answer is no. We are also not persuaded that there
even are any actual monetary costs attached to the
injunctive relief sought in this case. So we leave the
interpretation of subsection (a) for another day.
In any event, given (1) the premise in California law
that the duty to defend is always broader than the
duty to indemnify and (2) because there is no duty to
defend any criminal or civil proceeding under the UCL
or FAL (including this action), there would be no
reason to suggest a duty to indemnify in this action
under subsection (a) of the statute.
Lastly, because indemnity for restitution and indemnity for an injunction are both equitable relief, there
is no reason for this court to construe the statute
differently for one type of equitable relief. As the
California Court of Appeal held,

23a
When the law requires a wrongdoer to disgorge money or property acquired through a
violation of the law, to permit the wrongdoer
to transfer the cost of disgorgement to an
insurer would eliminate the incentive for
obeying the law. Otherwise, the wrongdoer
would retain the proceeds of his illegal acts,
merely shifting his loss to an insurer.
Bank of the W. v. Superior Ct., 833 P.2d 545 (Cal.
1992).
* * * *
To sum up, the plain meaning of the statutory text
of California Insurance Code § 533.5(b) forecloses
defense coverage for any claim in an UCL or FAL
action in which the state seeks monetary relief. Here,
the state seeks (among other things) monetary relief
against Adir under the UCL and FAL. The statute
thus bars defense coverage for Adir.
III. The text of the insurance policy explicitly provides for a right to reimbursement of defense
costs.
Finally, Adir challenges the district court’s ruling
that Starr has a right to the reimbursement of the
defense costs advanced in the underlying action.
Unfortunately for Adir, the insurance contract appears
to contain an express reservation of rights: “In the
event and to the extent that the Insureds shall not be
entitled to payment of such Loss under the terms and
conditions of this policy, such payments by the Insurer
shall be repaid to the Insurer by the Insureds . . . .”
And the word “Loss” in turn includes defense
costs. Because it turns out that there is no duty to
defend nor to indemnify, we affirm the district court’s

24a
determination that Starr is entitled to reimbursement
under the explicit language of the insurance policy.
Adir makes several arguments in response, but none
of them can overcome this express contractual language. For instance, Adir relies on Buss, but that
case only says that an implied right of reimbursement
must be explicitly reserved. Buss, 939 P.2d at 776 n.13.
Buss does not apply when there is already an express
in-policy right to reimbursement; the express language controls. Adir also argues that Starr, “acting
under a reservation of rights,” is entitled to reimbursement only if it “prophylactically financed the defense
of claims as to which it owed no duty of defense.” But
all that requires is that an insurer continue to finance
a defense while acting under a reservation of rights.
See Scottsdale Ins. Co. v. MV Transp., 115 P.3d 460,
470 (Cal. 2005) (“The insurer should be free, in an
abundance of caution, to afford the insured a defense
under a reservation of rights, with the understanding
that reimbursement is available if it is later established, as a matter of law, that no duty to defend ever
arose.”). There does not seem to be any requirement,
as Adir suggests, that the insurer do anything extra
on top of acting under a reservation of rights. Indeed,
the whole idea seems to be to incentivize insurers to
be generous with the duty to defend. Id.
Lastly, Adir’s estoppel argument also fails. The
standard here is whether Adir reasonably relied on
Starr’s conduct to Adir’s detriment. Chase v. Blue
Cross of California, 50 Cal. Rptr. 2d 178, 188 (Ct. App.
1996). But “failure to retain separate counsel does not
by itself show any detriment.” State Farm Fire & Cas.
Co. v. Jioras, 29 Cal. Rptr. 2d 840, 845 (Ct. App. 1994).
More importantly, Adir does not explain how its reliance could have been reasonable given the insurance

25a
policy’s express reservation of rights, not to mention
the fact that Starr signaled its doubts about coverage
from the very beginning, when it at first denied
coverage in November 2017, before agreeing to provide
coverage under a reservation of rights. Thus, we affirm
the district court’s ruling that Starr is entitled to a
reimbursement of defense costs.
CONCLUSION
The district court’s order granting summary judgment for Starr is AFFIRMED.

26a
APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
[Filed September 10, 2019]
————
Case No. 2:19-cv-04352-R-PLA
————
ADIR INTERNATIONAL, LLC, et al.
v.
STARR INDEMNITY AND LIABILITY COMPANY, et al.
————
CIVIL MINUTES – GENERAL
————
Present: The Honorable R. GARY KLAUSNER,
United States District Judge
————
Christine Chung,

Deputy Clerk

Court Reporter / Recorder:

Not Reported

Attorneys Present for Plaintiff:

Not Present

Attorneys Present for Defendant: Not Present
Proceedings: (IN CHAMBERS) Order re: Defendant’s
Motion for Summary Judgment (DE 19) and Plaintiffs’
Motion for Partial Summary Judgment (DE 24)
I. INTRODUCTION
On June 14, 2019, Plaintiffs Adir International,
LLC and Adir’s CEO, Ron Azarkman, (“Plaintiffs”)
filed the operative First Amended Complaint (“FAC”)
against Defendant Starr Indemnity and Liability

27a
Company (“Defendant”) asserting claims for (1)
declaratory judgment—duty to defend, (2) breach of
contract—duty to defend, (3) declaratory judgment—
duty to indemnify, and (4) breach of contract—duty
to indemnify. On May 24, 2019, in response to the
original complaint, Defendant filed a Counterclaim
for (1) declaratory relief—no duty to defend pursuant
to California Insurance Code Section 533.5; (2) declaratory relief—no duty to indemnify pursuant to Section
533.5; (3) declaratory relief—no duty to defend pursuant to the terms, conditions, and exclusions of the
Policy; (4) declaratory relief—no duty to indemnify
pursuant to the terms, conditions, and exclusions of
the Policy; (5) declaratory relief—reimbursement under
the Policy; and (6) reimbursement—restitution/unjust
enrichment.
Presently before the Court are Defendant’s Motion
for Summary Judgment (DE 19) and Plaintiffs’ Motion
for Partial Summary Judgment (DE 24). Defendant’s
Motion seeks Summary Judgment on Plaintiff’s entire
FAC and partial Summary Judgment on Defendant’s
Counterclaim. Plaintiff’s Motion seeks Summary Judgment on the first and second claims in the FAC and on
the first, third, fifth, and sixth counts in Defendant’s
Counterclaim.
For the following reasons, the Court GRANTS
Defendant’s Motion for Summary Judgment and
DENIES Plaintiffs’ Motion for Partial Summary
Judgment.
II. FACTUAL BACKGROUND
Plaintiff issued Insurance Policy No. 1000620507171
(the “Policy”), which provides Directors’ and Officers’
liability coverage to Plaintiff for the period running
from October 1, 2017 through October 1, 2018. The

28a
Policy provides defense and indemnity coverage for
non-employment “Wrongful Acts” alleged against individual directors and officers of the “Company,” (Adir)
as well as “Wrongful Acts” alleged against the “Company,” so long as the “Claim” is made and reported
to Defendant during the policy period or within 60
days after the Policy’s expiration. The Policy imposes
a duty on Defendant to defend “Insured Persons”
(including Azarkman) and/or the “Company” against
“Claims” that are reported to Defendant during the
Policy’s coverage period. In general, both Plaintiffs
qualify for coverage under the Policy.
On October 19, 2017, during the Policy’s coverage
period, the California Attorney General, on behalf
of the People of the State of California, filed a complaint against Plaintiffs in Los Angeles County Superior Court (the “underlying action”) asserting claims
under California’s Unfair Competition Law (“UCL”)
and False Advertising Law (“FAL”) and seeking (1)
orders permanently enjoining Plaintiffs from conduct
in violation of the UCL and FAL, (2) restitution of
money or other property acquired by such conduct, (3)
civil penalties for each violation, and (4) any further
relief the court deems just and proper. Plaintiffs
provided notice to Defendant of the underlying action
on October 26, 2017.
Initially, Defendant denied coverage in the underlying action on November 20, 2017. However, in
response to a letter from Plaintiffs, Defendant withdrew the denial and, by letter dated December 15,
2017, agreed to provide a defense to Plaintiffs in the
underlying action, subject to a full reservation of “all
rights and defenses under the Policy, at law and/or
in equity, whether or not specifically referenced.”

29a
By letter dated March 8, 2019, the California
Attorney General’s Office (“AGO”) advised Defendant
that California Insurance Code Section 533.5 prohibited coverage for Plaintiffs in the underlying action.
Section 533.5 provides:
(a) No policy of insurance shall provide, or
be construed to provide, any coverage or
indemnity for the payment of any fine,
penalty, or restitution in any criminal action
or proceeding or in any action or proceeding
brought pursuant to [the UCL or FAL] by the
Attorney General, any district attorney, any
city prosecutor, or any county counsel, notwithstanding whether the exclusion or exception regarding this type of coverage or indemnity is expressly stated in the policy.
(b) No policy of insurance shall provide, or
be construed to provide, any duty to defend,
as defined in subdivision (c), any claim in any
criminal action or proceeding or in any action
or proceeding brought pursuant to [the UCL
or FAL] in which the recovery of a fine,
penalty, or restitution is sought by the
Attorney General, any district attorney, any
city prosecutor, or any county counsel, notwithstanding whether the exclusion or
exception regarding the duty to defend this
type of claim is expressly stated in the policy.
(c) For the purpose of this section, “duty to
defend” means the insurer’s right or obligation to investigate, contest, defend, control
the defense of, compromise, settle, negotiate
the compromise or settlement of, or indemnify
for the cost of any aspect of defending any
claim in any criminal action or proceeding or

30a
in any action or proceeding brought pursuant
to [the UCL or FAL] in which the insured
expects or contends that (1) the insurer is
liable or is potentially liable to make any
payment on behalf of the insured or (2) the
insurer will provide a defense for a claim even
though the insurer is precluded by law from
indemnifying that claim.
(d) Any provision in a policy of insurance
which is in violation of subdivision (a) or (b) is
contrary to public policy and void.
On March 29, 2019, Defendant emailed Plaintiff’s
counsel in the underlying action, stating that based
on the March 8 letter from the AGO, Defendant would
stop paying defense costs for Plaintiff and that Defendant continued to reserve its express right under the
Policy to seek reimbursement of all amounts already
paid. On April 5, 2019, Plaintiff responded by letter to
Defendant arguing that Section 533.5 does not apply
to the underlying action because (1) the AGO seeks
injunctive relief in the underlying action in addition to
“a fine, penalty, or restitution,” (2) the purpose and
public policy behind Section 533.5 is not implicated by
the underlying action, and (3) the UCL cause of action
includes allegations that statutes other than the UCL
and FAL were violated. The first argument is the
primary basis for Plaintiffs’ Motion for Partial Summary Judgment.
On April 12, 2019, Defendant’s counsel sent a letter
to the AGO seeking clarification regarding the AGO’s
position as to the application of Section 533.5 to the
underlying action. On April 17, the instant action
against Defendant was initiated in state court. On
May 13, 2019, the AGO issued a letter confirming
and clarifying its position that Section 533.5 “clearly

31a
prohibits any defense or indemnity coverage for [the
underlying action], even though injunctive relief is
sought and even though the complaint alleges other
statutory violations as predicate unlawful acts under
the UCL cause of action.” Subsequently, on May 17,
2019, Defendant, through counsel, issued a letter to
Plaintiff advising that it agreed with the AGO’s
determination that Section 533.5 precluded Defendant
from providing a defense or indemnification to Plaintiff in the underlying action and further advising
that Defendant would seek a judicial determination
confirming the accuracy of its position. On May 20,
2019, Defendant removed the case to this Court, and
on May 24, 2019, Defendant filed its Counterclaim.
III. JUDICIAL STANDARD
Under Federal Rule of Civil Procedure 56(a), a court
may grant summary judgment only where “there is
no genuine issue as to any material fact and . . . the
movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). The court may grant summary
judgment on all or part of the claim, as appropriate.
See id. Facts are “material” only if dispute about them
may affect the outcome of the case under applicable
substantive law. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). A dispute about a material fact
is “genuine” if the evidence is such that a reasonable
jury could return a verdict for the nonmovant. Id.
“[T]he plain language of Rule 56(c) mandates the
entry of summary judgment, after adequate time for
discovery and upon motion, against a party who fails
to make a showing sufficient to establish the existence
of an element essential to that party’s case, and on
which that party will bear the burden of proof at trial.”
Celotex Corp., 477 U.S. at 322. To defeat a summary
judgment motion, the nonmovant must affirmatively

32a
present specific admissible evidence sufficient to
create a genuine issue of material fact for trial. Id. at
323-24. The nonmovant may not merely rely on its
pleadings or on conclusory statements. Id. at 324.
In ruling on a summary judgment motion, the court
should accept the nonmovant’s evidence as true and
draw all justifiable inferences in the nonmovant’s
favor. Tolan v. Cotton, 134 S. Ct. 1861, 1863 (2014).
The court may not determine credibility of witnesses
or weigh the evidence. Anderson, 477 U.S. at 255. To
grant summary judgment, the court should find the
evidence “so one-sided that [the movant] must prevail
as a matter of law.” Anderson, 477 U.S. at 252.
IV. DISCUSSION
The parties agree that California substantive law
governs each of their respective claims and counterclaims. California law prescribes a three-step approach
to statutory interpretation, starting with the plain
meaning of the statutory language, then looking at
its legislative history and finally the reasonableness
of a party’s proposed construction. Mt. Hawley Ins. Co.
v. Lopez, 215 Cal. App. 4th 1385, 1396 (2013).
A. Duty to Defend
Under California law, to trigger the duty to defend,
“the insured need only show that the underlying claim
may fall within policy coverage; the insurer must
prove it cannot.” Montrose Chem. Corp. v. Superior
Court, 6 Cal. 4th 287, 300 (1993) (emphasis in original). As a result, “[i]f any facts stated or fairly inferable in the complaint, or otherwise known or discovered by the insurer, suggest a claim potentially
covered by the policy, the insurer’s duty to defend
arises and is not extinguished until the insurer

33a
negates all facts suggesting potential coverage.”
Scottsdale Ins. Co. v. MV Transp., 36 Cal. 4th 643, 655
(2005). Where the potential for coverage exists, the
insurer’s duty to defend continues until the underlying
litigation concludes “unless the insurer sooner proves,
by facts subsequently developed, that the potential
for coverage which previously appeared cannot possibly materialize, or no longer exists.” Id. at 657.
Here, the language of California Insurance Code
Section 533.5(b) clearly and explicitly establishes that
there was no potential for coverage and, consequently,
no duty to defend in the underlying action. The evidence indicates that Defendant chose to advance
defense costs for Plaintiff in the underlying action
until the applicability of Section 533.5 to the entire
underlying action became clear. The AGO’s March 8
and May 13, 2019 letters to Plaintiff resolved any
remaining uncertainty regarding the potential for coverage and, therefore, gave Plaintiff adequate grounds
to terminate its defense of Defendant in the underlying action and to later seek reimbursement of all
amounts already paid.
Section 533.5(b) provides: “No policy of insurance
shall provide, or be construed to provide, any duty to
defend, as defined in subdivision (c), any claim . . .
in any action or proceeding brought pursuant to [the
UCL or FAL] in which the recovery of a fine, penalty,
or restitution is sought by the Attorney General . . . .”
Cal. Ins. Code § 533.5(b) (emphasis added). Subdivision (c) defines the “duty to defend” as “the insurer’s
right or obligation to investigate, contest, defend,
control the defense of, compromise, settle, negotiate
the compromise or settlement of, or indemnify for the
cost of any aspect of defending any claim in any criminal action or proceeding or in any action or proceeding

34a
brought pursuant to [the UCL or FAL] in which the
insured expects or contends that (1) the insurer is
liable or is potentially liable to make any payment on
behalf of the insured or (2) the insurer will provide a
defense for a claim even though the insurer is precluded by law from indemnifying that claim.” Id.
§ 533.5(c) (emphasis added). Subdivision (b), relying
on the definition in subdivision (c), unambiguously
precludes an insurer’s duty to defend not only a UCL
or FAL claim for the recovery of a fine, penalty, or
restitution, but also any claim brought pursuant to
the UCL or FAL in an action in which the Attorney
General or another state prosecuting authority seeks
such fine, penalty, or restitution. In other words, the
existence of a claim under the UCL or FAL for the
recovery of a fine, penalty, or restitution precludes the
duty to defend with respect to any such claim no
matter what form of relief is sought.
Plaintiff essentially concedes that there would be
no duty to defend if the AGO sought only fines, penalties, and/or restitution under the UCL or FAL. Plaintiff argues, however, that there is coverage, or at the
very least potential coverage, in the underlying action
because the AGO also seeks injunctive relief. Neither
the plain meaning of the statutory language nor case
law interpreting that language provides any support
for this position. Moreover, even if the statutory language did not unambiguously establish that there is
no duty to defend in any case in which a fine, penalty,
or restitution is sought under the UCL or FAL, the
legislative history shows that Plaintiff’s proposed
interpretation is unreasonable. Section 533.5 was
enacted with several goals in mind, including (1) alleviating the problem of public entities being forced to
litigate against insurance companies rather than the
business or individual whose conduct violated the law;

35a
(2) facilitating the settlement of UCL and FAL claims,
which was virtually “impossible” before the statute;
and (3) “hold[ing] individuals personally accountable
for behavior [that] constitutes an unfair business practice or false and misleading advertising.” Lopez, 215
Cal. App. 4th at 1402-03 (citations omitted). Allowing
insurance coverage to extend a duty to defend to the
injunctive relief component of a UCL or FAL claim
while precluding such coverage to the extent a fine,
penalty, or restitution is sought under the same cause
of action would clearly undermine these legislative
goals.
In sum, there is no genuine issue with respect to
whether Defendant has or ever had a duty to defend
Plaintiffs in the underlying action, and Defendant is
entitled to judgment as a matter of law on the first and
second claims of Plaintiff’s FAC and the first count of
Defendant’s Counterclaim.
B. Duty to Indemnify
“The insurer’s duty to indemnify runs to claims that
are actually covered, in light of the facts proved. It
arises only after liability is established.” Buss v.
Superior Court, 16 Cal. 4th 35, 46 (1997). Where there
is no duty to defend, there can be no duty to indemnify.
“It is . . . well settled that because the duty to defend
is broader than the duty to indemnify,’ a determination that ‘there is no duty to defend automatically
means there is no duty to indemnify.’” Certain Underwriters at Lloyd’s of London v. Superior Court, 16 P.3d
94 (Cal. 2001) (quoting State of N.Y. v. Blank, 745 F.
Supp. 841, 844, aff’d, 27 F.3d 783 (2d Cir. 1994).
As discussed above, Defendant had no duty to
defend Plaintiff in the underlying action. Accordingly,
there can be no duty to indemnify. Moreover, Section

36a
533.5 explicitly precludes indemnification for any fine,
penalty, or restitution in any action brought under the
UCL or FAL by the Attorney General or another state
prosecuting authority. Thus, Defendant is entitled to
judgment as a matter of law on the third and fourth
claims of Plaintiff’s FAC and the second count of
Defendant’s Counterclaim.
C. Right to Reimbursement
“Where there is not even the potential for coverage
because the claims do ‘not even possibly embrace any
triggering harm of the specified sort with the policy
period caused by an included occurrence,’ then the
insurance company does not have a duty to defend,
and any costs advanced may be recouped.” Millennium
Labs., Inc. v. Allied World Assur. Co. (U.S.), Inc., 165
F. Supp. 3d 931, 936 (S.D. Cal. 2016) (quoting
Scottsdale Ins. Co. v. MV Transp., 36 Cal. 4th 643, 655
(2005)), aff’d, 726 F. App’x 571 (9th Cir. 2018).
Plaintiff contends that even if Defendant had no
duty to defend in the underlying action, Defendant has
no right to reimbursement of defense costs already
paid because Defendant’s December 15, 2017 reservation of rights letter did not specifically reserve its right
to seek reimbursement under the Policy and because
the letter did not mention Section 533.5’s applicability
to the underlying action. However, Plaintiff ignores
the fact that the Policy itself expressly provides that
“[i]n the event and to the extent that [Plaintiff] shall
not be entitled to payment of [] Loss under the terms
and conditions of this policy, such payments by
[Defendant] shall be repaid to [Defendant] by
[Plaintiff].” (DE 1-2, at 24). “Loss” is defined by the
Policy to include “Defense Costs” (DE 1-2, at 32),
which in turn are defined as, among other things,
“reasonable and necessary fees, costs, charges or

37a
expenses resulting from the investigation, defense or
appeal of a Claim.” (DE 1-2, at 20).
As discussed in detail above, Defendant never had a
duty to defend or indemnify Plaintiff in the underlying
action. Defendant nevertheless accepted Plaintiff’s
defense subject to a reservation of rights and paid
Plaintiff’s defense costs, as defined under the Policy,
in the underlying action. Because Plaintiff was not
entitled to payment of any defense costs, Defendant is
entitled to reimbursement pursuant to the explicit
language of the Policy.
Buss v. Superior Court, 16 Cal. 4th 35 (1997), cited
by Plaintiffs, does not change this conclusion since
that case concerned an “implied” right of reimbursement, which must be explicitly reserved. Id. at 61 n.27.
Although Defendant’s December 15, 2017 letter did
not explicitly reserve the right to reimbursement, that
right was already explicit in the policy; it is not merely
implied. In fact, the Buss court itself acknowledged
the distinction between an implied-in-law right and an
express-in policy right, noting that “[t]he former renders the latter unnecessary.” Id. at 51 n.13.
Plaintiffs also argue that Defendant has no right to
reimbursement since Plaintiff relied to its detriment
on Defendant’s tender of defense without an explicit
reservation of Defendant’s right to reimbursement.
“An insurer is estopped from asserting a right, even
though it did not intend to mislead, as long as the
insured reasonably relied to its detriment upon the
insurer’s action.” Chase v. Blue Cross of California, 42
Cal. App. 4th 1142, 1157 (1996). However, any such
reliance by Plaintiff would not have been reasonable
given that (1) the express language of Section 533.5

38a
precludes coverage in the underlying action,1 (2) the
Policy explicitly provides a right of reimbursement for
uncovered Loss, and (3) Defendant made its doubts
regarding coverage clear as early as November 20,
2017, when it initially denied coverage.
In sum, there is no genuine issue with respect to
whether Defendant is entitled to reimbursement
under the Policy of defense costs paid in the underlying action. Defendant is entitled to judgment as a
matter of law on the fifth and sixth counts of Defendant’s Counterclaim.
V. CONCLUSION
In light of the foregoing, the Court GRANTS Defendant’s Motion for Summary Judgment (DE 19) and
DENIES Plaintiffs’ Motion for Partial Summary
Judgment (DE 24).
IT IS SO ORDERED.

1

“As a general rule of construction, the parties are presumed
to know and to have had in mind all applicable laws extant when
an agreement is made. These existing laws are considered part of
the contract just as if they were expressly referred to and incorporated.” Pilimai v. Farmers Ins. Exch. Co., 137 P.3d 939, 942 (Cal.
2006) (citation omitted).

39a
APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
[Filed September 10, 2019]
————
Case No.: 2:19-cv-4352-R-PLA
————
ADIR INTERNATIONAL, LLC, a Delaware Limited
Liability Company, DBA CURACAO (formerly known
as La Curacao); and RON AZARKMAN, an individual,
v.

Plaintiffs,

STARR INDEMNITY & LIABILITY COMPANY and
DOES 1 through 100, inclusive,
Defendants.
STARR INDEMNITY & LIABILITY COMPANY and
DOES 1 through 100, inclusive,
Counter-Claimant,
v.
ADIR INTERNATIONAL, LLC, a Delaware Limited
Liability Company, DBA CURACAO (formerly known
as La Curacao); and RON AZARKMAN, an individual,
Counter-Defendants.
————
JUDGMENT
Upon consideration of Defendant Starr Indemnity &
Liability Company’s (“Starr”) Motion for Summary
Judgment as to Plaintiffs Adir International and Ron
Azarkman’s (collectively, “Adir”) First Amended Complaint and as to Starr’s Counterclaim, the concur-

40a
rently filed Starr’s Separate Statement of Uncontroverted Facts and Conclusions of Law, and all other
documents and materials before the Court, and because
the Court finds there is no genuine dispute as to any
material fact and that Starr is entitled to judgment
as a matter of law, it is hereby ORDERED that Starr’s
Motion is GRANTED.
The Court finds that, under California Insurance
Code § 533.5, Starr does not have and never had a duty
to defend or to indemnify Adir in connection with the
underlying action under the Resolute Portfolio for
Private Companies Policy No. 1000620507171 (the
“Policy”). The Court additionally finds that, because
the Policy expressly provides Starr a right to reimbursement by Adir for payments of uncovered loss,
Starr is entitled to reimbursement from Adir for
amounts paid in connection with defending the underlying action.
Accordingly, the Court grants Summary Judgment
in favor of Starr as to Adir’s FAC and Starr’s Counterclaim. As the prevailing party, Starr is entitled to its
costs pursuant to Federal Rule of Civil Procedure 54.
This 10th day of September, 2019.
/s/ Gary Klausner
UNITED STATES DISTRICT JUDGE

41a
APPENDIX D
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
[Filed November 8, 2019]
————
Case No.: 2:19-cv-4352-R-PLA
————
ADIR INTERNATIONAL, LLC, a Delaware Limited
Liability Company, DBA CURACAO (formerly known
as La Curacao); and RON AZARKMAN, an individual,
Plaintiffs,
v.
STARR INDEMNITY & LIABILITY COMPANY and
DOES 1 through 100, inclusive,
Defendants.
STARR INDEMNITY & LIABILITY COMPANY and
DOES 1 through 100, inclusive,
Counter-Claimant,
v.
ADIR INTERNATIONAL, LLC, et al.,
Counter-Defendants.
————
Hon. Manuel L. Real
————
AMENDED JUDGMENT
————

42a
TROUTMAN SANDERS LLP
Kevin F. Kieffer, Bar No. 192193
kevin.kieffer@troutman.com
Ryan C. Tuley, Bar No. 198249
ryan.tuley@troutman.com
5 Park Plaza, Suite 1400
Irvine, CA 92614-2545
Telephone: 949.622.2700
Facsimile: 949.622.2739
Michael L. Huggins, Bar No. 305562
michael.huggins@troutman.com
580 California Street, Suite 1100
San Francisco, CA 94104
Telephone: 415.477.5700
Facsimile: 415.477.5710
Attorneys for Defendant and Counter-Claimant
STARR INDEMNITY & LIABILITY COMPANY
————
AMENDED JUDGMENT
Upon consideration of Defendant Starr Indemnity
& Liability Company’s (“Stan”) Motion for Summary
Judgment as to Plaintiffs Adir International, LLC and
Ron Azarkman’s (collectively, “Adir”) First Amended
Complaint and as to Starr’s Counterclaim, the concurrently filed Stan’s Separate Statement of Uncontroverted Facts and Conclusions of Law, and all other
documents and materials before the Court, and
because the Court finds there is no genuine dispute
as to any material fact and that Starr is entitled to
judgment as a matter of law, it is hereby ORDERED
that Starr’s Motion is GRANTED.
The Court finds that, under California Insurance
Code § 533.5, Starr does not have and never had a

43a
duty to defend or to indemnify Adir in connection with
the underlying action under the Resolute Portfolio for
Private Companies Policy No. 1000620507171 (the
“Policy”). The Court additionally finds that, because
the Policy expressly provides Stan a right to reimbursement by Adir for payments of uncovered loss,
Stan is entitled to reimbursement from Adir for the
$2,085,364.53 Starr paid in connection with defending
the underlying action.
Accordingly, the Court grants summary judgment
in favor of Starr as to the Adir’s FAG and Starr’s
Counterclaim. The amount of the judgment in Stan’s
favor on its Counterclaim is $2,085,364.53. As the prevailing party, Stan is entitled to its costs pursuant
to Federal Rule of Civil Procedure 54.
This 8th day of November, 2019.
/s/ Gary Klausner
UNITED STATES DISTRICT JUDGE

44a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed May 28, 2021]
————
No. 19-56320
D.C. No. 2:19-cv-04352-R-PLA
————
ADIR INTERNATIONAL,
v.

Plaintiff-Appellant,

STARR INDEMNITY,
Defendant-Appellee.
————
ORDER
Before: N.R. SMITH and LEE, Circuit Judges, and
KENNELLY,* District Judge.
The panel has voted to deny the petition for panel
rehearing filed by the appellant. Judge Lee has voted
to deny the petition for rehearing en banc filed by the
appellant, while Judges Smith and Kennelly have
recommended denying the petition. The full court has
been advised of the petitions for rehearing en banc and
no judge has requested a vote on whether to rehear the
matter en banc. Fed. R. App. P. 35. The petition for
panel rehearing and the petition for rehearing en banc
are DENIED.
*

The Honorable Matthew F. Kennelly, sitting by designation
from the Northern District of Illinois.

45a
APPENDIX F
STARR INDEMNITY & LIABILITY COMPANY
399 Park Avenue, New York, NY 10022 •
Tel. (646) 227-6377
RESOLUTE PORTFOLIOSM
For Private Companies
POLICY NUMBER: 1000620507171
RENEWAL OF: 1000056959161
NOTICE (Applicable to all Coverage Sections Other
Than the Crime and Fidelity Coverage Section):
EXCEPT TO SUCH EXTENT AS MAY OTHERWISE
BE PROVIDED HEREIN, THE COVERAGE OF THIS
POLICY IS GENERALLY LIMITED TO LIABILITY
FOR ONLY THOSE CLAIMS THAT ARE FIRST
MADE AGAINST THE INSUREDS DURING THE
POLICY PERIOD AND REPORTED IN WRITING TO
THE INSURER PURSUANT TO THE TERMS
HEREIN.
NOTICE (Applicable to all Coverage Sections Other
Than the Crime and Fidelity Coverage Section): THE
LIMIT OF LIABILITY AVAILABLE TO PAY
JUDGMENTS OR SETTLEMENTS SHALL BE
REDUCED BY AMOUNTS INCURRED FOR
DEFENSE COSTS. AMOUNTS INCURRED FOR
DEFENSE COSTS SHALL BE APPLIED AGAINST
THE RETENTION AMOUNT.
NOTICE (Applicable to all Coverage Sections Other
Than the Crime and Fidelity Coverage Section): THE
INSURER HAS NO DUTY TO DEFEND ANY CLAIM
UNDER THIS POLICY EXCEPT WITH RESPECT
TO ANY CLAIM FOR WHICH THE POLICY
SPECIFICALLY STATES THAT DUTY TO DEFEND
COVERAGE IS PROVIDED.

46a
NOTICE (Applicable to All Coverage Sections):
PLEASE READ THIS POLICY CAREFULLY AND
DISCUSS THE COVERAGE HEREUNDER WITH
YOUR INSURANCE AGENT OR BROKER.
DECLARATIONS
ITEM 1:

PARENT COMPANY:
ADIR International, LLC dba La Curacao

ADDRESS: 1605 Olympic Blvd., Suite 600
Los Angeles, CA 90015
ITEM 2: POLICY PERIOD:
From: October 01, 2017 To: October 01, 2018
(12:01 a.m. Standard Time at the address stated in
Item 1)
ITEM 3: COVERAGE SECTIONS
This policy provides coverage only for the following
Coverage Sections if purchased by the Insured and
indicated by an X.
Directors & Officers Liability Coverage Section Yes  No 
Derivative Demand Coverage
Employment Practices Liability Coverage
Section
Third-Party Liability Coverage
Fiduciary Liability Coverage Section
Voluntary Compliance Program Coverage
HIPAA Claim Coverage
Crime and Fidelity Coverage Section

Yes  No 

47a
ITEM 4: LIMITS OF LIABILITY
The Limits of Liability of this policy apply solely to
the Coverage Section(s) for which a corresponding
limit of liability amount is set forth below.
A. AGGREGATE LIMIT OF LIABILITY FOR EACH
SEPARATE COVERAGE SECTION OTHER
THAN THE CRIME AND FIDELITY COVERAGE
SECTION
(i)
Separate Coverage Section: Directors & Officers
Liability

N/A

Sublimit of Liability for Derivative Demand
Coverage

N/A

(ii)
Separate Coverage Section: Employment Practices
Liability
Sublimit of Liability for Third-Party Liability
Coverage

(iii)
Separate Coverage Section: Fiduciary Liability
Sublimit of Liability for Voluntary Compliance
Program Coverage
Sublimit of Liability for HIPAA Claim
Coverage

Each Sublimit of Liability set forth in Item 4 A.
above is part of, and not in addition to, the Limit of
Liability for the corresponding Separate Coverage
Section.

48a
B. AGGREGATE LIMIT OF LIABILITY FOR EACH
COMBINED COVERAGE SECTION OTHER
THAN THE CRIME AND FIDELITY COVERAGE
SECTION
(i)
Combined Coverage Section: Directors &
Officers Liability / Employment Practices
Liability / Fiduciary Liability

$10,000,000

Sublimit of Liability for Derivative Demand
Coverage

$150,000

Sublimit of Liability for Third-Party Liability
Coverage

$10 000 000

Sublimit of Liability for Voluntary
Compliance Program Coverage
Sublimit of Liability for HIPAA Claim
Coverage

(ii)
Combined Coverage Section: Directors & Officers
Liability / Employment Practices Liability / Fiduciary
Liability

N/A

Sublimit of Liability for Derivative Demand Coverage

N/A

Sublimit of Liability for Third-Party Liability Coverage

N/A

(iii)
Combined Coverage Section:

N/A

Directors & Officers Liability / Fiduciary Liability

N/A

Sublimit of Liability for Derivative Demand Coverage

N/A

Sublimit of Liability for Voluntary Compliance
Program Coverage

N/A

49a
(iv)
Combined Coverage Section: Employment Practices
Liability / Fiduciary Liability
Sublimit of Liability for Third-Party Liability
Coverage
Sublimit of Liability for Voluntary Compliance
Program Coverage
Sublimit of Liability for HIPAA Claim Coverage

Each Sublimit of Liability set forth in Item 4 B.
above is part of, and not in addition to, the Limit of
Liability for the corresponding Combined Coverage
Section.
The Limits of Liability set forth in Item 4 A. and B.
above are the maximum limits of liability for all Loss
including Defense Costs, under the applicable
Coverage Section(s).
C. AGGREGATE POLICY LIMIT OF LIABILITY
$10,000,000
The above Limit of Liability set forth in Item 4 C.
above is the maximum limit of liability for all Loss,
including Defense Costs, for all Coverage Sections
purchased other than the Crime and Fidelity Coverage
Section.
D. PER OCCURRENCE LIMIT OF LIABILITYCRIME AND FIDELITY COVERAGE SECTION
The Limits of Liability of this policy apply solely to
the Crime and Fidelity Coverage Section(s) for which
a corresponding limit of liability amount is set forth
below.

50a
Crime and Fidelity Coverage Section:
(i) Insuring Agreement A, Employee
Theft
(ii) Insuring Agreement B, Forgery or
Alteration
(iii) Insuring Agreement C, Inside the
Premises — Loss of Money and
Securities
(iv) Insuring Agreement D, Inside the
Premises - Robbery or Safe Burglary of
Other Property
(v) Insuring Agreement E, Outside the
Premises
(vi) Insuring Agreement F, Computer
Fraud
(vii) Insuring Agreement G, Funds
Transfer
(viii) Insuring Agreement H, Money
Orders and Counterfeit Money
(ix) Insuring Agreement I, Credit, Debit,
Charge Card Forgery
(x) Insuring Agreement J, Clients’
Property
(xi) Insuring

ITEM 5: RETENTION OR DEDUCTIBLE AMOUNTS
RETENTION AMOUNTS
A. Directors & Officers Liability Coverage Section:
(i) Insuring Agreement A.

$0

(ii) Insuring Agreement B, and C.

$100,000

(iii) Insuring Agreement D.

$0

B. Employment Practices Liability Coverage Section:
(i) Insuring Agreement A. - Employment
Practices Liability Coverage
(ii) Insuring Agreement B. - Third-Party
Liability Coverage

51a
C. Fiduciary Liability Coverage Section:
(i)Insuring Agreement A. - Fiduciary
Liability Coverage All Claims, except
HIPAA Claims HIPAA Claims
(ii) (ii) Insuring Agreement B. Voluntary Compliance Program
Coverage

DEDUCTIBLE AMOUNTS
D. Crime and Fidelity Coverage Section:
(i) Insuring Agreement A,
Employee Theft
(ii) Insuring Agreement B, Forgery or
Alteration
(iii) Insuring Agreement C,
Inside the Premises — Loss of Money
and Securities
(iv) Insuring Agreement D, Inside the
Premises - Robbery or Safe Burglary of
Other Property
(v) Insuring Agreement E, Outside the
Premises
(vi) Insuring Agreement F, Computer
Fraud
(vii) Insuring Agreement G, Funds
Transfer
(viii) Insuring Agreement H, Money
Orders and Counterfeit Money
(ix) Insuring Agreement I, Credit, Debit,
Charge Card Forgery
(x) Insuring Agreement J, Clients’
Property
(xi) Insuring

ITEM 6:

52a
PENDING OR PRIOR DATE

A. Directors & Officers Liability Coverage Section:
(i) Insuring Agreement A

October 01, 2005

(ii) Insuring Agreement B. and C.

October 01, 2005

B. Employment Practices Liability Coverage Section:
(i) Insuring Agreement A - Employment
Practices Liability Coverage
(ii) Insuring Agreement B. - Third-Party
Liability Coverage

C. Fiduciary Liability Coverage Section
(i) Fiduciary Liability Coverage
D. Crime and Fidelity Coverage Section: xxxxxxxxx
ITEM 7: Premium
A. Directors & Officers Liability
coverage section:

$37,720

B. Employment Practices Liability
Coverage Section:
C. Fiduciary Liability Coverage Section:
D. Crime and Fidelity Coverage Section:
E. Total Policy Premium:

ITEM 8: DISCOVERY PERIOD (APPLICABLE TO
ALL COVERAGE SECTIONS OTHER THAN CRIME
AND FIDELITY)
A. One Year: 100% of the applicable premium
B. Two to Six Years: Premium to be determined

53a
ITEM 9: ADDRESS OF INSURER AND ITS
AUTHORIZED CLAIMS AGENT FOR NOTICES
UNDER THIS POLICY
A. Claims-Related Notices
STARR ADJUSTMENT SERVICES, INC.
399 PARK AVENUE, 9TH FLOOR
NEW YORK, NY 10022
e-mail: StarrFLPLClaims@starrcompanies.com
B. All Other Notices To The Insurer:
STARR
INDEMNITY
&
LIABILITY
COMPANY
ATTN: FINANCIAL LINES DEPARTMENT
399 PARK AVE. 8TH FLOOR
NEW YORK, NY 10022
In Witness Whereof, the Insurer has caused this
policy to be executed and attest. This policy shall not
be valid unless countersigned by a duly authorized
representative of the Insurer.
/s/ Charles H. Dangelo
Charles H. Dangelo, President
/s/ Nehemiah E. Ginsburg
Nehemiah E. Ginsburg, General Counsel
/s/ [Illegible]
Authorized Representative

54a
STARR INDEMNITY AND LIABILITY COMPANY
RESOLUTE PORTFOLIOSM
For Private Companies
General Terms & Conditions Section
In consideration of the payment of the premium and
in reliance upon the Application, as applicable to
each Coverage Section, which shall be deemed to be
attached to, incorporated into, and made a part of this
policy, and subject to this General Terms & Conditions
Section and any applicable Coverage Section(s), if
purchased by the Insured as indicated in Item 3 of the
Declarations, STARR INDEMNITY AND LIABILITY
COMPANY (the “Insurer”) and the Parent Company,
on behalf of all Insureds, agree as follows:
1. TERMS & CONDITIONS
The terms and conditions set forth in this General
Terms & Conditions Section shall apply to all applicable Coverage Sections of this policy. The terms appearing
in this General Terms & Conditions Section, which are
defined in a Coverage Section, shall have the meaning
provided for such terms in such Coverage Section for
purposes of coverage under such Coverage Section.
All defined terms used in this Policy, whether defined
in Clause 2, below, or in a Coverage Section, appear
in this Policy in boldface and initial-capitalized. The
terms and conditions of each Coverage Section apply
only to that particular Coverage Section. If any term
or condition in this General Terms & Conditions
Section is inconsistent or in conflict with the terms and
conditions of any Coverage Section, the terms and
conditions of such Coverage Section shall control.

55a
2. GENERAL DEFINITIONS
(a) “Application” means all signed applications,
including any attachments and other materials provided therewith or incorporated therein, submitted in
connection with the underwriting of this policy or for
any other policy of which this policy is a renewal,
replacement or which it succeeds in time. Application
shall also include, and incorporate, all publicly available documents.
(b) “Cleanup Costs” means expenses (including but
not limited to legal and professional fees) incurred in
testing for, monitoring, cleaning up, removing, containing, treating, neutralizing, detoxifying or assessing
the effects of Pollutants.
(c) “Company” means:
(1) the Parent Company;
(2) any Subsidiary of the Parent Company; and
(3) the Parent Company or any Subsidiary as a
debtor, a debtor-in-possession or equivalent status;
provided, however, that this Definition (c) (3) shall
not apply to the Fiduciary Liability Coverage
Section.
(d) “Defense Costs” means:
(1) reasonable and necessary fees, costs, charges
or expenses resulting from the investigation,
defense or appeal of a Claim;
(2) premium for an appeal, attachment or similar
bond, but without any obligation to apply for and
obtain such bond;
(3) reasonable and necessary fees, costs, charges
or expenses incurred in response to any extradition

56a
or similar proceeding brought against an Insured in
connection with a Claim; and
(4) any fees, costs, charges or expenses incurred
by the Insured at the specific request of the Insurer
to assist the Insurer in the investigation, defense or
appeal of a Claim.
“Defense Costs” does not include: (i) amounts
incurred prior to the date a Claim is first made and
reported to the Insurer, pursuant to the terms of the
applicable Coverage Section; and (ii) compensation
or benefits of any Insured Person or any overhead
expenses of the Company.
(e) “Financial Impairment” means the Company
becoming a debtor-in-possession, or the appointment
of a receiver, conservator, liquidator, trustee, rehabilitator or similar official to control, supervise, manage
or liquidate the Company.
(f) “Management Control” means: (1) owning
interests representing more than 50% of the voting,
appointment or designation power for the selection of
a majority of: the board of directors of a corporation;
the management committee members of a joint
venture; or the Members of the management board of
a limited liability company; or (2) having the right,
pursuant to written contract or the by-laws, charter,
operating agreement or similar documents of a
Company, to elect, appoint or designate a majority of:
the board of directors of a corporation; the management committee of a joint venture; or the management
board of a limited liability company.
(g) “Manager” means a person serving in a
directorial capacity for a limited liability company.

57a
(h) “Member” means an owner of a limited liability
company represented by its membership interest, who
also may serve as a Manager.
(i) “Parent Company” means the entity named in
Item 1 of the Declarations.
(j) “Policy Period” means the period from the
inception date shown in Item 2 of the Declarations to
the earlier of the expiration date shown in Item 2 of
the Declarations or the effective date of cancellation of
this policy. If one or more Coverage Sections have
different inception, expiration or cancellation dates
from those shown in Item 2 of the Declarations, the
Policy Period for those Coverage Sections shall be set
forth in an endorsement to this Policy.
(k) “Pollutants” means any substance located
anywhere in the world exhibiting any hazardous
characteristics as defined by, or identified on, any list
of hazardous substances issued by the United States
Environmental Protection Agency or any foreign,
state, county, municipality, or locality counterpart
thereof. Such substances shall include, without limitation, nuclear material or waste, any solid, liquid,
gaseous or thermal irritant or contaminant, or smoke,
vapor, soot, fumes, acids, alkalis, chemicals or waste
materials. Pollutants shall also mean any other air
emission, odor, waste water, oil or oil products, infectious or medical waste, asbestos or asbestos products
and any noise.
(l) “Pollution” means the actual, alleged or threatened discharge, dispersal, release, escape, seepage,
transportation, emission, treatment, removal or disposal of Pollutants into or on real or personal property,
water or the atmosphere. Pollution also means any
Cleanup Costs.

58a
3. LIMITS OF LIABILITY
The Aggregate Limit of Liability For Each Separate
Coverage Section, as set forth in Item 4 A. of the
Declarations, is the maximum limit of liability of the
Insurer for all Loss, including Defense Costs, from
all Claims first made during the Policy Period (or
Discovery Period, if applicable) and reported to the
Insurer in accordance with the terms of this policy, for
each applicable Separate Coverage Section.
The Aggregate Limit of Liability For Each Combined Coverage Section, as set forth in Item 4 B. of the
Declarations, is the maximum limit of liability of the
Insurer for all Loss, including Defense Costs, from all
Claims first made during the Policy Period (or Discovery Period, if applicable) and reported to the Insurer
in accordance with the terms of this policy, for all of
the Coverage Sections that comprise the applicable
Combined Coverage Section. Any Loss paid under one
of the Coverage Sections that comprises a Combined
Coverage Section will reduce, and may exhaust, the
limit of liability available under the other Coverage
Section(s) that comprise(s) such Combined Coverage
Section.
Any Sublimit(s) of Liability, whether set forth in
Item 4 of the Declarations or as otherwise provided
under the terms of this policy, shall be part of, and
not in addition to, the applicable Aggregate Limit of
Liability set forth in Item 4 A. or 4 B. of the Declarations. Each Sublimit of Liability is the maximum
limit of liability of the Insurer for all Loss, including
Defense Costs, from all Claims first made during the
Policy Period (or Discovery Period, if applicable) and
reported to the Insurer in accordance with the terms
of this policy, to which the Sublimit(s) of Liability
applies.

59a
The Aggregate Policy Limit of Liability, as set forth
in Item 4 C. of the Declarations, is the maximum limit
of liability of the Insurer for all Loss, including
Defense Costs, from all Claims first made during the
Policy Period (or Discovery Period, if applicable) and
reported to the Insurer in accordance with the terms
of this policy, for all Coverage Section(s) combined.
If any Aggregate Limit of Liability as set forth in
Item 4 A. or 4 B. of the Declarations is exhausted by
the payment of Loss, all obligations of the Insurer
under this policy as respects the applicable Coverage
Section(s) will be completely fulfilled and the Insurer
will have no further obligations under this policy of
any kind as respects the applicable Coverage Section(s)
and the premium as respects the applicable Coverage
Section(s) as set forth in Item 7 of the Declarations will
be fully earned.
Any payment of Loss under any Aggregate Limit of
Liability as set forth in Item 4 A. or 4 B. of the
Declarations shall reduce and may exhaust the Aggregate Policy Limit of Liability as set forth in Item 4 C.
of the Declarations. If the Aggregate Policy Limit of
Liability is exhausted by the payment of such Loss, the
Insurer will have no further obligations of any kind as
respects this policy and the applicable premium set
forth in Item 7 of the Declarations will be fully earned.
Defense Costs are part of, and not in addition to, the
Aggregate Limit of Liability as set forth in Item 4 of
the Declarations for each applicable Coverage Section,
other than the Crime and Fidelity Coverage Section,
and payment by the Insurer of Defense Costs shall
reduce and may exhaust such Aggregate Limit(s) of
Liability. Defense Costs are subject to the Aggregate
Policy Limit of Liability set forth in Item 4 C. of the
Declarations.

60a
If a Discovery Period is purchased by the Insured
pursuant to Clause 8 of this General Terms &
Conditions Section, the Limit of Liability for the
Discovery Period shall be part of, and not in addition
to, the applicable Limits of Liability as set forth in
Item 4 of the Declarations.
The Limit of Liability applicable to the Crime and
Fidelity Coverage Section is set forth in Clause 4 of
that Coverage Section.
4. RETENTION CLAUSE
Subject to all other terms and conditions of this
policy, the Insurer shall only be liable for the amount
of Loss arising from a Claim which is in excess of the
applicable Retention amount as set forth in Item 5 of
the Declarations for each Insuring Agreement of the
applicable Coverage Section(s). A single Retention
amount shall apply to all Loss alleging the same or
related Wrongful Acts. The Retention amount shall be
borne by the Insureds and remain uninsured.
The application of a Retention to Loss under one
Insuring Agreement shall not reduce the Retention
that applies to Loss under any other Insuring Agreement. If different Retention amounts apply to different
parts of a single Loss, the applicable Retention shall
be applied separately to each part of the Loss and the
sum of such Retention amounts shall not exceed the
largest of the applicable Retention amounts as set
forth in Item 5 of the Declarations.
If the Company is required or permitted to indemnify an Insured Person for any Loss pursuant to law,
contract or the charter, bylaws, operating agreement
or similar documents of a Company and does not do so
for any reason, the Insurer shall not require payment
of the applicable Retention by the Insured Person.

61a
However, the Company hereby agrees to reimburse
the Insurer for the full amount of such applicable
Retention, unless the Company is unable to do so
because of Financial Impairment.
Provided, however that this Clause No. 4, shall not
apply to the Crime and Fidelity Coverage Section.
5. NOTICE OF CLAIM
The Insureds) shall, as a condition precedent to
the obligations of the Insurer under this policy, give
written notice of a Claim made against an Insured or
an Occurrence, as applicable under the appropriate
Coverage Section, to the Insurer at the address set
forth in Item 9 of the Declarations. If mailed, the date
of mailing shall constitute the date that such notice
was given and proof of mailing shall be sufficient proof
of notice.
With respect to the Directors & Officers Liability
Coverage Section, the Insured(s) shall, as a condition
precedent to the obligations of the Insurer under this
policy, give written notice to the Insurer pursuant to
this Clause 5, of a Claim made against an Insured as
soon as practicable after the Company’s general counsel or risk manager (or individuals with equivalent
responsibilities) becomes aware of the Claim; however,
in no event shall such notice be provided later than
sixty (60) days after the expiration of the Policy Period
(or Discovery Period, if applicable).
With respect to the Employment Practices Liability
Coverage Section and the Fiduciary Liability Coverage
Section, the Insured(s) shall, as a condition precedent
to the obligations of the Insurer under this policy, give
written notice to the Insurer pursuant to this Clause
5, of a Claim made against an Insured as soon as
practicable after any Insured Person becomes aware of

62a
the Claim; however, in no event shall such notice be
provided later than thirty (30) days after the expiration of the Policy Period (or Discovery Period, if
applicable).
With respect to all Coverage Sections, except the
Crime and Fidelity Coverage Section, if written notice
of a Claim has been given to the Insurer pursuant to
this Clause 5, then a Claim which is subsequently
made against an Insured and reported to the Insurer
pursuant to this Clause 5, alleging, arising out of,
based upon or attributable to the facts alleged in the
previously noticed Claim, or alleging the same or
related Wrongful Act alleged in the previously noticed
Claim, shall be considered related to the previously
noticed Claim and shall be deemed to have been made
at the time notice of the previously noticed Claim was
provided to the Insurer.
With respect to all Coverage Sections, except the
Crime and Fidelity Coverage Section, if during the
Policy Period (or Discovery Period, if applicable) an
Insured becomes aware of any circumstances which
may reasonably be expected to give rise to a Claim
being made against an Insured, the Insured may provide written notice to the Insurer’s authorized agent of
such circumstances. This written notice shall include
the Wrongful Act allegations anticipated and the
reasons for anticipating a Claim, with full particulars
as to dates, persons and entities involved. If a Claim is
subsequently made against such Insured and reported
to the Insurer arising out of, based upon or attributable to the previously noticed circumstances, such
Claim shall be considered first made at the time notice
of such circumstances was provided to the Insurer.

63a
6. DEFENSE OF CLAIM AND SETTLEMENT
The Insurer has the right and duty to defend any
Claim against any Insured covered under this policy,
even if such Claim is false, fraudulent or groundless;
however, the Insurer shall not have the right or duty
to defend any Claim under: (1) Insuring Agreement D.:
Derivative Demand Coverage of the Directors &
Officers Liability Coverage Section; or (2) Insuring
Agreement B: Voluntary Compliance Program Coverage of the Fiduciary Liability Coverage Section.
With respect to Insuring Agreement D.: Derivative
Demand Coverage of the Directors & Officers Liability
Coverage Section, the Company, and not the Insurer,
has the duty to investigate and evaluate the Derivative Demand. The Insurer shall have the right to
effectively associate with the Company in such process.
With respect to Insuring Agreement B: Voluntary
Compliance Program Coverage of the Fiduciary Liability
Coverage Section, the Company, and not the Insurer,
has the duty to investigate and evaluate the Voluntary
Compliance Program Loss. The Insurer shall have the
right to effectively associate with the Company in such
process, including the negotiation of any settlement as
respects the Voluntary Compliance Program Loss.
The Insureds) shall not admit or assume any liability,
incur any Defense Costs, enter into any settlement
agreement or stipulate to any judgment without the
prior written consent of the Insurer. Any Loss incurred
by the Insured(s) and/or any settlements or judgments
agreed to by the Insured(s) without such consent shall
not be covered by this policy. However, the Insurer’s
consent is not required for the Insured to settle a
Claim for a Loss amount within the applicable
Retention.

64a
Each and every Insured shall give the Insurer full
cooperation and such information as it may reasonably
require relating to the defense and settlement of any
Claim and the prosecution of any counterclaim, crossclaim or third-party claim, including without limitation the assertion of an Insured’s indemnification or
contribution rights.
The Insurer shall have the right to investigate and
conduct negotiations and, with the Insured’s consent,
which shall not be unreasonably withheld, enter into
the settlement of any Claim that the Insurer deems
appropriate. In the event the Insured refuses to
consent to a settlement acceptable to the claimant in
accordance with the Insurer’s recommendation, the
Insurer’s liability for Loss on account of such Claim
shall not exceed: (1) the amount for which the Insurer
could have settled the Claim; plus (2) any Defense
Costs incurred up to the date the Insured refused to
settle such Claim; plus (3) eighty percent (80%) of
covered Loss, other than Defense Costs, in excess of
the amount for which the Insurer could have settled
the Claim. However, in no event shall the Insurer’s
liability exceed the applicable Limit of Liability as set
forth in Item 4 of the Declarations.
The Insurer shall pay Defense Costs prior to the
final disposition of any Claim, excess of the applicable
retention and subject to all other terms and conditions
of this policy. In the event and to the extent that the
Insureds shall not be entitled to payment of such Loss
under the terms and conditions of this policy, such
payments by the Insurer shall be repaid to the Insurer
by the Insureds, severally according to their respective
interests.

65a
7. ALLOCATION
In the event the Insured(s) incurs Loss that is both
covered and not covered by this policy, either because
the Claim includes both covered and uncovered
matters or because the Claim includes both insured
and uninsured parties, the Insured and the Insurer
agree to use their best efforts to determine a fair and
appropriate allocation between covered and uncovered
Loss based upon the relative legal and financial
exposures of the parties to such matters. In the event
of a settlement of such Claim, the allocation shall also
be based upon the relative benefits to the Insureds
from such a settlement.
If an allocation of Loss cannot be agreed to by
the Insurer and the Insured: (1) the Insurer shall
pay those amounts which it believes to be fair and
equitable until an amount shall be agreed upon or
determined pursuant to the provisions of this policy;
and (2) there will be no presumption of allocation of
Loss in any arbitration, suit or other proceeding.
8. DISCOVERY CLAUSE
With respect to all Coverage Sections, except the
Crime and Fidelity Coverage Section, if the Company
or the Insurer refuses to renew one or more Coverage
Sections of this policy, or if this policy is terminated by
the Insurer for any reason (except for non-payment of
premium), or if an Organizational Change as defined
in Clause 13 occurs, the Insured(s) shall have the
right to purchase a Discovery Period of up to six years
following the effective date of such non-renewal, termination or Organizational Change. In the event of
the non-renewal of one or more Coverage Sections of
this policy, the Insured may purchase a Discovery

66a
Period solely as respects the Coverage Section(s) that
has been non-renewed.
The Insured’s right to purchase a Discovery Period
shall lapse unless written notice of election to purchase such Discovery Period and the additional
premium for such Discovery Period is received by the
Insurer or its authorized agent within sixty days after
such non-renewal, termination or Organizational Change.
The additional premium for a Discovery Period of one
or two years is set forth in Item 8 of the Declarations
and shall be determined by multiplying the applicable
percentage set forth in Item 8 of the Declarations by
the premium for each applicable Coverage Section(s)
as set forth in Item 7 of the Declarations. The
additional premium for a Discovery Period of more
than two years shall be determined by the Insurer.
During such Discovery Period, the Insured may
provide the Insurer with written notice, pursuant to
Clause 5 of this policy, of Claims made against an
Insured solely with respect to Wrongful Acts occurring
prior to the effective date of the non-renewal or
termination of the policy or the effective date of the
Organizational Change and otherwise covered by this
policy.
The Limit of Liability for the Discovery Period shall
be part of, and not in addition to, the applicable Limits
of Liability set forth in Item 4 of the Declarations.
The Discovery Period premium shall be fully earned
at the inception of the Discovery Period. The Discovery
Period is non-cancellable.
9. OTHER INSURANCE
The insurance provided by this policy shall apply
only as excess over any other valid and collectible

67a
insurance whether such other insurance is stated to be
primary, contributory, excess, contingent or otherwise,
unless such other insurance is written specifically as
excess insurance over the applicable Limit of Liability
provided by this policy. This policy shall specifically be
excess of any other valid and collectible insurance
pursuant to which any other insurer has a duty to
defend a Claim for which this policy may be obligated
to pay Loss. This policy shall not be subject to the
terms and conditions of any other insurance policy.
In connection with any covered Claim made against
an Outside Entity Insured Person, a leased employee,
or an Independent Contractor, and subject to all other
terms and conditions herein, this policy shall apply
specifically excess of any indemnification and any other
insurance coverage available to an Outside Entity
Insured Person, a leased employee or an Independent
Contractor. In the event such other insurance coverage available to an Outside Entity Insured Person, a
leased employee or an Independent Contractor is provided by the Insurer (or would be provided except for
the application of any retention, exhaustion of a limit
of liability or failure to submit notice of a claim) then
the Insurer’s maximum aggregate limit of liability for
all Loss combined in connection with a Claim covered,
in whole or in part, by this policy and such other
insurance policy, shall be the greater of (1) the Limit
of Liability of the applicable Coverage Section(s) of
this policy; or (2) the limit of liability of such other
insurance policy.
10. REPRESENTATIONS AND SEVERABILITY
It is agreed that the Insurer has relied upon the
information contained in the Application, as applicable to each Coverage Section, in issuing this policy. In
regard to the statements, warranties, representations

68a
and information contained in the Application, no
knowledge of any Insured shall be imputed to any
other Insured for the purpose of determining whether
coverage is available under this policy for any Claim
made against such Insured. However, the knowledge
possessed by any Insured Person who is a past or
current chairman of the board, chief executive officer,
president or chief financial officer of the Company
shall be imputed to the Company.
11. COVERAGE EXTENSIONS
This policy shall cover Loss arising from any Claims
made against the estates, heirs, or legal representatives of any deceased person who was an Insured
Person at the time the Wrongful Acts upon which such
Claims are based were committed; provided, however,
that this extension shall not afford coverage for any
Claim for any actual or alleged Wrongful Act by or on
the part of any such estates, heirs, or legal representatives, but shall apply only to Claims arising out of any
actual or alleged Wrongful Acts of an Insured Person.
This policy shall also cover Loss arising from any
Claims made against the legal representatives of any
incompetent, insolvent or bankrupt person who was
an Insured Person at the time the Wrongful Acts upon
which such Claims are based were committed; provided, however, that this extension shall not afford
coverage for any Claim for any actual or alleged
Wrongful Act by or on the part of any such legal
representatives, but shall apply only to Claims arising
out of any actual or alleged Wrongful Acts of an
Insured Person.
This policy shall also cover Loss arising from any
Claims made against the lawful spouse or domestic
partner (whether such status is derived by reason of

69a
statutory law, common law or otherwise of any applicable jurisdiction in the world or any formal program
established by the
Company) of an Insured Person for all Claims
arising solely out of his or her status as the spouse or
domestic partner of an Insured Person, including a
Claim that seeks damages recoverable from marital
community property, property jointly held by the
Insured Person and the spouse or domestic partner, or
property transferred from the Insured Person to the
spouse or domestic partner; provided, however, that
this extension shall not afford coverage for any Claim
for any actual or alleged Wrongful Act by or on the part
of the spouse or domestic partner, but shall apply only
to Claims arising out of any actual or alleged Wrongful
Acts of an Insured Person.
The coverage extensions set forth in this Clause 11
are subject to all other terms and conditions of this
policy.
12. CANCELLATION AND NON RENEWAL CLAUSE
This policy, or any applicable Coverage Section(s),
may be cancelled by the Parent Company by sending
written prior notice to the Insurer or its authorized
agent as set forth in Item 9 of the Declarations stating
when thereafter the cancellation of the policy, or the
applicable Coverage Section(s), shall be effective. The
policy, or the applicable Coverage Section(s), terminates at the date and hour specified in such notice.
This policy may also be cancelled by the Parent
Company by surrender of this policy to the Insurer or
its authorized agent as set forth in Item 9 of the
Declarations. The policy terminates as of the date
and time of surrender. The Insurer shall retain the

70a
customary short rate proportion of the premium,
unless stated otherwise herein.
This policy, or any applicable Coverage Section(s),
shall not be cancelled by or on behalf of the Insurer
except by reason of non-payment of the premium set
forth in Item 7 of the Declarations. The Insurer may
cancel the policy by delivering to the Parent Company
or by mailing to the Parent Company, by registered
mail, or by courier at the Parent Company’s address
set forth in the Declarations, written notice stating
when, not less than twenty (20) days thereafter, the
cancellation shall be effective. The mailing of such
notice as aforesaid shall be sufficient proof of notice.
In the event of such cancellation, the policy will be
deemed terminated as of the date indicated in the
Insurer’s written notice of cancellation to the Parent
Company.
Payment or tender of any unearned premium by the
Insurer shall not be a condition precedent to the
effectiveness of cancellation, but such payment shall
be made as soon as practicable. If the period of
limitation relating to the giving of notice is prohibited
or made void by any law controlling the construction
thereof, such period shall be deemed to be amended so
as to be equal to the minimum period of limitation
permitted by such law.
The Insurer shall have no obligation to renew this
policy or any applicable Coverage Section. In the event
the Insurer decides to non-renew this policy or any
applicable Coverage Section, it shall deliver or mail to
the Parent Company, as identified in Item 1 of the
Declarations, written notice of such decision at least
sixty (60) days prior to the expiration of the Policy
Period.

71a
13. ORGANIZATIONAL CHANGES
If during the Policy Period:
(1) the Parent Company shall consolidate with,
merge into, or sell all or substantially all of its assets
to any other person or entity or group of persons or
entities acting in concert; or
(2) any person or entity or group of persons or
entities acting in concert shall acquire more than 50%
of the Parent Company,
(any events described in (1) or (2) are referred to
herein as an “Organizational Change”) then this policy
shall continue in full force and effect as to Wrongful
Acts occurring prior to the effective time of an
Organizational Change. However, there shall be no
coverage afforded by this policy for any actual or
alleged Wrongful Act occurring after the effective time
of the Organizational Change. This policy shall be
non-cancellable and the entire premium shall be
deemed fully earned upon the effective time of the
Organizational Change. The Insureds) shall also have
the right to purchase a Discovery Period described in
Clause 8 in the event of an Organizational Change.
The Parent Company shall give the Insurer written
notice of the Organizational Change as soon as practicable, but no later than thirty days after the effective
date of the Organizational Change.
14. AUTHORIZATION AND NOTICES
The Parent Company shall act on behalf of all
Insureds with respect to all matters as respects this
policy including: (1) giving of notice of Claim; (2) giving
and receiving of all correspondence and information;
(3) giving and receiving notice of cancellation; (4) payment of premiums; (5) receiving of any return

72a
premiums; (6) receiving and accepting of any
endorsements issued to form a part of this policy; and
(7) the exercising of any right to a Discovery Period.
15. VALUATION AND CURRENCY
All amounts stated in this policy are expressed in
United States dollars and all amounts payable under
this policy are payable in United States dollars. If a
judgment rendered or settlement entered into under
this policy are stated in a currency other than United
States dollars, then payment under this policy shall be
made in United States dollars at the rate of exchange
published in the Wall Street Journal on the date the
final judgment is rendered or the settlement payment
is established.
16. TERRITORY
This policy extends to Wrongful Acts taking place,
Occurrences, or Claims made anywhere in the world
to the extent permitted by law.
17. ASSIGNMENT
POLICY

AND

CHANGES

TO

THE

This policy and any and all rights hereunder are not
assignable without the prior written consent of the
Insurer.
Notice to any agent or knowledge possessed by any
agent or person acting on behalf of the Insurer, other
than the Insurer’s authorized agent as identified in
Item 9 of the Declarations, will not result in a waiver
or change in any part of this policy or prevent the
Insurer from asserting any right under the terms and
conditions of this policy. The terms and conditions of
this policy may only be waived or changed by written
endorsement signed by the Insurer or its authorized
agent.

73a
18. BANKRUPTCY
Bankruptcy or insolvency of any Insured shall not
relieve the Insurer of any of its obligations hereunder.
It is understood and agreed that the coverage
provided under this policy is intended to protect and
benefit the Insured Persons. Further, if a liquidation
or reorganization proceeding involving the Company
is commenced (whether voluntarily or involuntarily)
under Title 11 of the United States Code (as amended),
or any similar state, local or foreign law (collectively
“Bankruptcy Law”) then, in regard to a covered Claim
under this policy, the Insureds shall:
a. waive and release any automatic stay or injunction to the extent it may apply in such proceeding to
the policy or its proceeds under such Bankruptcy Law;
and
b. agree not to oppose or object to any efforts by the
Company, the Insurer or any Insured Person to obtain
relief from any such stay or injunction.
In the event the Company becomes a debtor-inpossession or equivalent status under such Bankruptcy
Law, and the total covered Loss under this policy
exceeds the available applicable Limit of Liability, the
Insurer shall:
a. first pay the Loss allocable to Wrongful Acts
that are actually or allegedly caused, committed, or
attempted prior to the Company becoming a debtor-inpossession or some equivalent status, then
b. pay any remaining Loss allocable to Wrongful
Acts that are actually or allegedly caused, committed,
or attempted after the Company became a debtor-inpossession or some equivalent status.

74a
19. SUBROGATION
In addition to any right of subrogation existing at
law, in equity or otherwise, in the event of any
payment by the Insurer under this policy, the Insurer
shall be subrogated to the extent of such payment to
all of the Insured(s)’ rights of recovery. The Insureds)
shall execute all papers required (including those
documents necessary for the Insurer to bring suit or
other form of proceeding in their name) and do
everything that may be necessary to pursue and
secure such rights.
20. ACTION AGAINST THE INSURER
No action may be taken against the Insurer unless,
as a condition precedent thereto, there shall have been
full compliance with all material terms of this policy
and the amount of the Insured’s obligation has been
fully determined either by judgment against the
Insured after actual trial, or by written agreement of
the Insured, the claimant and the Insurer.
No person or entity shall have any right under this
policy to join the Insurer as a party to any action
against any Insured to determine such Insured’s liability nor shall the Insurer be impleaded by such
Insured or legal representatives of such Insured.
21. CONFORMITY TO STATUTE
Any terms of this policy which are in conflict with
the terms of any applicable laws construing this policy,
including any endorsement to this policy which is
required by any state Department of Insurance, or
equivalent authority (“State Amendatory Endorsement”),
are hereby amended to conform to such laws. Nothing
herein shall be construed to restrict the terms of any
State Amendatory Endorsement.

75a
In the event any portion of this policy shall be
declared or deemed invalid or unenforceable under
applicable law, such invalidity or unenforceability
shall not affect the validity or enforceability of any
other portion of this policy.
22. HEADINGS
The descriptions in the headings and any subheading of this policy (including any titles given to any
endorsement attached hereto) are inserted solely for
convenience and do not constitute any part of this
policy’s terms or conditions.

76a
STARR INDEMNITY AND LIABILITY COMPANY
RESOLUTE PORTFOLIOSM
For Private Companies
Directors & Officers Liability Coverage Section
In consideration of the payment of the premium and
in reliance upon the Application, which shall be
deemed to be attached to, incorporated into, and made
a part of this policy, and subject to the General Terms
& Conditions Section and this Coverage Section, if
purchased by the Insured as indicated in Item 3 of the
Declarations, STARR INDEMNITY AND LIABILITY
COMPANY (the “Insurer”) and the Parent Company,
on behalf of all Insureds, agree as follows:
1. INSURING AGREEMENTS
A. The Insurer shall pay on behalf of any Insured
Person the Loss arising from a Claim first made
during the Policy Period (or Discovery Period, if
applicable) against such Insured Person for any Wrongful
Act, and reported to the Insurer in accordance with the
terms of this policy, except if the Company has
indemnified the Insured Person for such Loss.
B. The Insurer shall pay on behalf of the Company
the Loss arising from a Claim first made during the
Policy Period (or Discovery Period, if applicable)
against any Insured Person for any Wrongful Act, and
reported to the Insurer in accordance with the terms
of this policy, if the Company has indemnified the
Insured Person for such Loss.
C. The Insurer shall pay on behalf of the Company
the Loss arising from a Claim first made during the
Policy Period (or Discovery Period, if applicable)
against the Company for any Wrongful Act, and

77a
reported to the Insurer in accordance with the terms
of this policy.
D. The Insurer shall reimburse the Company for
the Derivative Costs incurred by the Company in
response to a Derivative Demand first made during
the Policy Period (or Discovery Period, if applicable)
for any Wrongful Act of any Executive, and reported to
the Insurer in accordance with the terms of this policy.
This Insuring Agreement D. shall apply only if purchased by the Insured as indicated in Item 3 of the
Declarations and is subject to the Sublimit of Liability
set forth in Item 4 of the Declarations which is the
Insurer’s maximum limit of liability under this Insuring Agreement D. for all Derivative Costs arising from
all Derivative Demands. The Sublimit of Liability for
Derivative Costs shall be part of, and not in addition
to, the Limit of Liability applicable to this Coverage
Section. This Insuring Agreement D. shall not provide
coverage for any civil proceeding that is based upon or
arises from a Derivative Demand.
2. DEFINITIONS
(a) “Claim” means any:
(1) written demand for monetary, non-monetary
or injunctive relief made against an Insured;
(2) judicial,
administrative
or
regulatory
proceeding, whether civil or criminal, for monetary,
non-monetary or injunctive relief commenced
against an Insured, including any appeal therefrom,
which is commenced by:
(i) service of a complaint or similar pleading;
(ii) return of an indictment, information or
similar document (in the case of a criminal
proceeding); or

78a
(iii) receipt or filing of a notice of charges;
(3) arbitration proceeding commenced against an
Insured by service of a demand for arbitration;
(4) formal civil, criminal, administrative or
regulatory investigation of an Insured Person,
which is commenced by the filing or issuance of a
notice of charges, formal investigative order or
similar document identifying such Insured Person
as a person against whom a proceeding identified in
(2) or (3) above may be commenced;
(5) written request to toll or waive the applicable
statute of limitations relating to a potential Claim
against an Insured for a Wrongful Act; or
(6) Derivative Demand, solely under Insuring
Agreement D. if purchased by the Insured.
(b) “Derivative Costs” means the reasonable and
necessary fees, costs, charges, or expenses incurred by
the Company, its board of directors or any committee
of its board of directors, solely in response to a
Derivative Demand and do not include any settlements, judgments or damages, nor any compensation
or benefits of any Insured Persons, or any overhead
expenses of the Company. Derivative Costs shall be
reimbursed by the Insurer sixty (60) days after the
Company provides written notice to the Insurer of its
final decision not to bring a civil proceeding against an
Executive.
(c) “Derivative Demand” means a written demand
by one or more shareholders of the Company upon the
Company’s board of directors to bring a civil proceeding on behalf of the Company against any Executive
for a Wrongful Act.

79a
(d) “Employee” means:
(1) any person who was, now is, or shall become a
full-time, part-time, seasonal, or temporary employee
of the Company, other than an Executive, but only
while that person is acting in the capacity as such;
(2) any person leased to the Company so long as
this person is working solely for the Company and
only for conduct within his or her duties as such, but
only if the Company indemnifies such leased person
in the same manner as the Company’s employees;
and
(3) any volunteer whose labor and service is
engaged and directed by the Company, but only
while that person is acting in the capacity as such.
(e) “Executive” means any:
(1) past, present or future duly elected or
appointed director, officer, trustee, governor,
management committee Member or Member of the
board of managers;
(2) past, present or future person in a duly elected
or appointed position in an entity which is organized
and operated in a foreign jurisdiction that is
equivalent to an executive position listed in item (1)
above; or
(3) past, present or future general counsel and
risk manager (or equivalent position) of the
Company.
(f) “Insured” means the Company and any Insured
Person.
(g) “Insured Person(s)” means any:
(1) Executive;

80a
(2) Employee; or
(3) Outside Entity Insured Person.
(h) “Loss” means:
(1) damages, settlements or judgments;
(2) pre judgment or post judgment interest;
(3) costs or fees awarded in favor of the claimant;
(4) punitive, exemplary or the multiplied portion
of any multiple damages awards, but only to the
extent that such damages are insurable under the
applicable law most favorable to the insurability of
such damages;
(5) Derivative Costs, solely under Insuring
Agreement D. if purchased by the Insured; and
(6) Defense Costs.
“Loss” does not include:
(i) any amounts for which the Insureds are not
legally liable;
(ii) any amounts which are without legal
recourse to the Insureds;
(iii) taxes;
(iv) fines and penalties, except as provided for
in Definition (h) (4) above;
(v) matters which may be deemed uninsurable
under applicable law; or
(vi) any amounts paid or incurred in complying
with a judgment or settlement for non-monetary
or injunctive relief, but solely as respects the
Company.

81a
(i) “Outside Entity” means: (1) any not-for-profit
entity which is exempt from taxation under Section
501(c)(3), (4) or (10) of the IRS Code, as amended, or
any rule or regulation promulgated thereunder; or
(2) any other entity listed as such by endorsement to
this policy, for which an Executive acts as a director,
officer, trustee or governor (or the equivalent thereof)
at the written request of the Company. Any such
person shall be referred to herein as an “Outside
Entity Insured Person”, but only while that person is
acting in the capacity as a director, officer, trustee or
governor (or the equivalent thereof) of an Outside
Entity.
(j) “Securities Claim” means a Claim, other than an
administrative or regulatory proceeding against the
Company or an investigation of the Company, made
against any Insured:
(1) alleging a violation of any foreign, federal,
state or local regulation, rule or statute regulating
securities, including, but not limited to, the
purchase or sale, or offer or solicitation of an offer to
purchase or sell securities which is:
(i) brought by any person or entity alleging,
arising out of, based upon or attributable to the
purchase or sale, or offer or solicitation of an offer
to purchase or sell, any securities of the Company;
or
(ii) brought by a security holder of the
Company with respect to such security holder’s
interest in securities of such Company; or
(2) brought derivatively on behalf of the Company
by a security holder of such Company.

82a
Notwithstanding the foregoing, Securities Claim
shall include any formal administrative or regulatory proceeding against the Company, but only if
and only during the time that such proceeding also
constitutes a Securities Claim commenced and continuously maintained against an Insured Person.
The Insurer shall not assert that a Loss incurred
in a Securities Claim alleging violations of Section
11 or 12 of the Securities Act of 1933, as amended,
constitutes uninsurable loss and, subject to all other
terms and conditions of this policy, shall deem that
portion of such Loss as constituting Loss under this
policy.
(k) “Subsidiary” means any privately-held for-profit
entity (except a partnership) of which the Parent
Company:
(1) has Management Control (“Controlled
Entity”) before the inception of the Policy Period,
either directly or indirectly through one or more
other Controlled Entities;
(2) first acquires Management Control during the
Policy Period, either directly or indirectly through
one or more other Controlled Entities, if such
entity’s annual revenue totals less than 25% of the
consolidated revenue of the Parent Company as of
its latest fiscal year; or
(3) first acquires Management Control during the
Policy Period, either directly or indirectly through
one or more other Controlled Entities, if such
entity’s annual revenue totals 25% or more of the
consolidated revenue of the Parent Company as of
its latest fiscal year, but only if the Parent Company
provides the Insurer with full particulars of the new
Subsidiary within ninety (90) days after its creation

83a
or acquisition and pays any additional premium
with respect to such entity within thirty (30) days
after being requested to do so by the Insurer;
provided, however, that Subsidiary as defined in
items (2) and (3) above shall not mean any entity
which is a financial institution, including but not
limited to a bank, insurance company, insurance
agent/broker, securities broker/dealer, investment
advisor, mutual fund or hedge fund, unless such entity
is included in the definition of Subsidiary by specific
written endorsement attached to this policy.
“Subsidiary” also means any not-for-profit entity
which is under the exclusive control of the Company.
With respect to a Claim made against any
Subsidiary or any Insured Person thereof, this policy
shall only apply to Wrongful Acts committed or
allegedly committed after the effective time such
entity becomes a Subsidiary and prior to the effective
time that such entity ceases to be a Subsidiary.
(l) “Wrongful Act(s)” means:
(1) with respect to an Insured Person, any actual
or alleged act, error, omission, neglect, breach of
duty, breach of trust, misstatement, or misleading
statement by an Insured Person in his or her capacity as such or any matter claimed against an Insured
Person by reason of such capacity;
(2) with respect to an Outside Entity Insured
Person, any actual or alleged act, error, omission,
neglect, breach of duty, breach of trust, misstatement, or misleading statement by a person in his or
her capacity as an Outside Entity Insured Person or
any matter claimed against such Outside Entity
Insured Person by reason of such capacity; or

84a
(3) with respect to the Company, any actual or
alleged breach of duty, neglect, error, misstatement,
misleading statement, omission or act by the
Company.
3. EXCLUSIONS
This policy shall not cover any Loss in connection
with any Claim:
(a) arising out of, based upon or attributable to the
gaining of any profit or advantage or improper or
illegal remuneration if a final judgment or adjudication establishes that such Insured was not legally
entitled to such profit or advantage or that such
remuneration was improper or illegal;
(b) arising out of, based upon or attributable to any
deliberate fraudulent act or any willful violation of law
by an Insured if a final judgment or adjudication
establishes that such act or violation occurred;
(c) arising out of, based upon or attributable to the
purchase or sale by an Insured of securities of the
Company within the meaning of Section 16(b) of the
Securities Exchange Act of 1934 and any amendments
thereto or similar provisions of any state statutory law
if a final judgment or adjudication establishes that a
violation of Section 16(b) occurred;
In determining the applicability of Exclusions (a),
(b) and (c), the facts pertaining to, the knowledge
possessed by, or any Wrongful Act committed by, any
Insured shall not be imputed to any other Insured;
however, the facts pertaining to, the knowledge
possessed by, or any Wrongful Act committed by, an
Insured Person who is a past or current chairman of
the board, chief executive officer, president or chief

85a
financial officer of the Company shall be imputed to
the Company.
(d) alleging, arising out of, based upon or
attributable to any facts or circumstances of which an
Insured Person had actual knowledge or information
of, as of the Pending or Prior Date set forth in Item 6
of the Declarations as respects this Coverage Section,
and that he or she reasonably believed may give rise
to a Claim under this policy;
(e) based upon, arising from, or in consequence of
any actual or alleged liability of any Insured under any
express contract or agreement, except to the extent
that such Insured would have been liable in the absence
of such contract or agreement; provided, however, that
this exclusion shall apply only to any Claim under
Insuring Agreement C.;
(f) alleging, arising out of, based upon or attributable to, as of the Pending or Prior Date set forth
in Item 6 of the Declarations as respects this
Coverage Section, any pending or prior: (1) litigation;
or (2) administrative or regulatory proceeding or
investigation of which an Insured had notice, including any Claim alleging or derived from the same or
essentially the same facts, or the same or related
Wrongful Act(s), as alleged in such pending or prior
litigation or administrative or regulatory proceeding
or investigation;
(g) alleging, arising out of, based upon or attributable to the same or essentially the same facts alleged,
or to the same or related Wrongful Act(s) alleged or
contained in any Claim which has been reported, or in
any circumstances of which notice has been given,
before the inception date of this policy as set forth in
Item 2 of the Declarations, under any policy, whether

86a
excess or underlying, of which this policy is a renewal
or replacement or which it may succeed in time;
(h) alleging, arising out of, based upon or attributable to any actual or alleged act or omission of any
Insured Person serving in any capacity other than as
an Executive or an Employee or an Outside Entity
Insured Person:
(i) brought by or on behalf of any Insured, other
than an Employee; provided, however, that this
exclusion shall not apply to:
(i) any Claim brought by an Insured Person that
is in the form of a cross-claim or third-party claim
for contribution or indemnity which is part of, and
results directly from, a Claim which is not otherwise
excluded under the terms of this Coverage Section;
(ii) a shareholder derivative action, but only if
such action is brought and maintained without the
solicitation, approval, assistance, active participation or intervention of any Insured;
(iii) any Claim brought by any Executive who
has not served in such capacity, nor has acted as
a consultant to the Company, for at least three (3)
years prior to the Claim being first made;
(iv) any Claim brought against an Insured Person
arising out of or based upon any protected activity
specified in any “whistleblower” protection pursuant
to any foreign, federal, state or local law;
(v) any Claim brought by any Executive of a
Company formed and operating in a foreign jurisdiction against such Company and any Insured Person
thereof, provided that such Claim is brought and
maintained outside the United States, Canada or

87a
any other common law country (including any
territories thereof); or
(vi) any Claim brought or maintained by or on
behalf of a bankruptcy or insolvency trustee, examiner,
receiver or similar official for the Company or any
assignee of such trustee, examiner, receiver or
similar official.
(j) alleging, arising out of, based upon, attributable
to, directly or indirectly resulting from, or in consequence of, or in any way involving, Pollution; provided,
however, that this exclusion shall not apply to any
Claim under Insuring Agreement A. or any Securities
Claim, except for Loss constituting Cleanup Costs;
(k) alleging, arising out of, based upon or attributable to any actual or alleged violation of the Employee
Retirement Income Security Act of 1974, the Fair
Labor Standards Act, the National Labor Relations
Act, the Worker Adjustment and Retraining Notification
Act, the Consolidated Omnibus Budget Reconciliation
Act, the Occupational Safety and Health Act, any rules
or regulations of the foregoing promulgated thereunder, and any amendments thereto, or any similar
foreign, federal, state or statutory law or common law;
(l) alleging, arising out of, based upon, attributable
to, or in any way involving, directly or indirectly any
public offering of securities by the Company or an
Outside Entity, or alleging a purchase or sale of such
securities subsequent to such public offering; provided, however, that this exclusion shall not apply to:
(i) any purchase or sale of securities exempted
pursuant to Section 3(b) of the Securities Act of
1933. Coverage for such purchase or sale transaction shall be conditioned solely upon the Company
giving the Insurer written notice of any such public

88a
offering, including all details thereof, as soon as
practicable, but not later than thirty days after the
effective date of such offering; or
(ii) any public offering of securities, other than an
offering described in paragraph (i) above, as well as
any purchase or sale of securities subsequent to
such public offering. Coverage for such transaction
shall be conditioned upon, within thirty days prior
to the effective time of such public offering, the
Company: (a) giving the Insurer written notice of
such offering, including all details thereof, and any
underwriting information required by the Insurer;
and (b) accepting such terms, conditions and additional premium required by the Insurer for such
coverage. Coverage provided pursuant to this
paragraph is also subject to the Company paying
such additional premium when due. The Insurer
shall provide the Company with a quote for such
coverage if the Company gives written notice of the
offering as required in this paragraph.
(m) for any Wrongful Act arising out of any Insured
Person serving as a director, officer, trustee or
governor of an Outside Entity if such Claim is brought
by the Outside Entity or by any director, officer,
trustee or governor thereof; or which is brought by
any securities holder of the Outside Entity, whether
directly or derivatively, unless such securities holder’s
Claim is instigated and continued totally independent
of, and totally without the solicitation of, or assistance
of, or active participation of, or intervention of, the
Outside Entity, any director, officer, trustee or governor thereof, an Executive or the Company; provided,
however, that this exclusion shall not apply to:
(i) any Claim brought by any director, officer,
trustee or governor of an Outside Entity in the form

89a
of a cross-claim or third-party claim for contribution
or indemnity which is part of, and results directly
from, a Claim which is not otherwise excluded under
the terms of this Coverage Section;
(ii) any Claim brought or maintained by or on
behalf of a bankruptcy or insolvency trustee,
examiner, receiver or similar official for the Outside
Entity or any assignee of such trustee, examiner,
receiver or similar official;
(iii) any Claim brought by any director, officer,
trustee or governor of an Outside Entity who has not
served in such capacity, nor acted as a consultant to
the Outside Entity, for at least three (3) years prior
to such Claim being first made; or
(iv) any Claim brought by any director, officer,
trustee or governor of an Outside Entity, formed
and operating in a foreign jurisdiction against any
Outside Entity Insured Person of such Outside
Entity, provided that such Claim is brought and
maintained outside the United States, Canada or
any other common law country (including any
territories thereof);
(n) for bodily injury, sickness, mental anguish,
emotional distress, libel, slander, oral or written
publication of defamatory or disparaging material,
violation of any right of privacy, disease or death of
any person, or damage to or destruction of any tangible
property, including the loss of use thereof; provided,
however, that this exclusion shall not apply to any
Securities Claim;
(o) alleging, arising out of, based upon, or attributable to any actual or alleged: (i) violation of the
Foreign Corrupt Practices Act, any rules or
regulations of the foregoing promulgated thereunder,

90a
and any amendments thereto, or any similar foreign,
federal, state or statutory law or common law; (ii)
payments, commissions, gratuities, benefits or other
favors for the direct or indirect benefit of any officials,
directors, agents, partners, representatives, principal
shareholders, or owners of the Company or employees
of any customers of the Company; or (iii) political
contributions;
(p) alleging, arising out of, based upon, or attributable to any actual or alleged discrimination, harassment, retaliation, wrongful discharge, termination or
any other employment-related or employment practice
claim, including but not limited to any wage-hour
claim or any third-party discrimination or harassment
claim; provided, however, that this exclusion shall not
apply to any Securities Claim;
(q) alleging, arising out of, based upon, or attributable to the ownership, management, maintenance,
operation and/or control by the Company of any
captive insurance company or entity, including but not
limited to any Claim alleging the insolvency or bankruptcy of the Company as a result of such ownership,
management, maintenance, operation and/or control;
(r) alleging, arising out of, based upon, or attributable to based upon, arising from, or in consequence of
any actual or alleged plagiarism, infringement or violation of any copyright, patent, trademark or service
mark or the misappropriation of intellectual property,
ideas or trade secrets; provided, however, that this
exclusion shall apply only to any Claim under Insuring
Agreement C.;
(s) alleging, arising out of, based upon or attributable to the rendering or failure to render any
professional service to a customer or client of the

91a
Insured; provided, however, that this exclusion shall
not apply to any Securities Claim, but only if such
Securities Claim is instigated and continued totally
independent of, and totally without the solicitation of,
or assistance of, or active participation of, or
intervention of, the Company or any Insured Person.
4. ORDER OF PAYMENTS
In the event of Loss arising from a covered Claim for
which payment is due under the provisions of this
Coverage Section, the Insurer shall in all events:
(1) first, pay Loss for which coverage is provided
under this Coverage Section for any Insured Person
under Insuring Agreement A.;
(2) second, only after payment of Loss has been
made pursuant to item (1) above, with respect to
whatever remaining amount of any Limit of Liability
applicable to this Coverage Section is available, pay
the Loss for which coverage is provided under this
Coverage Section for the Company under Insuring
Agreement B.; and
(3) third, only after payment of Loss has been made
pursuant to items (1) and (2) above, with respect to
whatever remaining amount of any Limit of Liability
applicable to this Coverage Section is available, pay
the Loss for which coverage is provided under this
Coverage Section for the Company under Insuring
Agreement C. and D.
5. NON-RESCINDABLE CLAUSE
The Insurer irrevocably waives any right it may
have to rescind coverage available under Insuring
Agreement A. of this Coverage Section, in whole or in
part, on any grounds.

92a
REDACTED

93a
Endorsement No.: 1
This endorsement, effective: October 01, 2017
(at 12:01 a.m. Standard Time at the address of the
Named Insured as shown in Item 1 of the
Declarations)
Forms a part of Policy No.: 1000620507171
Issued to: ADIR International, LLC dba La Curacao
By: Starr Indemnity & Liability Company
CALIFORNIA AMENDATORY ENDORSEMENT
This endorsement modifies insurance coverage
provided under the RESOLUTE PORTFOLIO FOR
PRIVATE COMPANIES INSURANCE POLICY.
COVERAGE PART: GENERAL TERMS AND
CONDITIONS SECTION
It is understood and agreed:
A. The second paragraph of Clause 12. CANCELLATION AND NON RENEWAL CLAUSE is amended
by the addition of the following:
Notice of cancellation shall also be sent to the
producer of record, if applicable, provided that the
producer of record is not an employee of the Insurer.
B. The last paragraph of Clause 12. CANCELLATION AND NON RENEWAL CLAUSE is deleted and
replaced by the following:
The Insurer shall have no obligation to renew this
policy or any applicable Coverage Section. In the event
the Insurer decides to non-renew this policy or any
applicable Coverage Section, or to condition renewal
upon a reduction of the Policy’s Limit of liability, an
elimination of coverage or an increase of more than
twenty-five percent (25%) of the current policy’s premium, the Insurer shall deliver or mail to the Parent
Company, as identified in Item 1 of the Declarations,

94a
written notice of such decision at least sixty (60) days,
but not more than one hundred twenty (120) days,
prior to the expiration of the Policy Period. The notice
shall state the reason for non-renewal.
C. Notwithstanding anything to the contrary in the
definition of Loss in any liability Coverage Section
purchased by the Insured, punitive damages are not
insurable in California.
ALL OTHER TERMS AND CONDITIONS REMAIN
UNCHANGED.
/s/ [Illegible]
Authorized Representative
CVS FL 10107 PV (02-09)

95a
Endorsement No.: 2
This endorsement, effective: October 01, 2017
(at 12:01 a.m. Standard Time at the address of the
Named Insured as shown in Item 1 of the
Declarations)
Forms a part of Policy No.: 1000620507171
Issued to: ADIR International, LLC dba La Curacao
By: Starr Indemnity & Liability Company
OFAC EXCLUSION
(all Coverage Sections)
It is understood and agreed that Clause 3,
EXCLUSIONS, of all applicable Coverage Sections is
amended by adding the following exclusion:
This policy shall not cover any Loss in connection
with any Claim in the event that such coverage would
not be in compliance with any United States of America
economic or trade sanctions, laws or regulations, including but not limited to the U.S. Treasury Department’s
Office of Foreign Assets Control, or any similar
foreign, federal, state or statutory law or common law.
ALL OTHER TERMS AND CONDITIONS REMAIN
UNCHANGED.
/s/ [Illegible]
Authorized Representative
CVS FL 10005 PPVNP (07/08)

96a
Endorsement No.: 3
This endorsement, effective: October 01, 2017
(at 12:01 a.m. Standard Time at the address of the
Named Insured as shown in Item I of the Declarations)
Forms a part of Policy No.: 1000620507171
Issued to: ADIR International, LLC dba La Curacao
By: Starr Indemnity & Liability Company
100% ALLOCATION DEFENSE COSTS
I. It is understood and agreed that Clause 7.
ALLOCATION of the General Terms & Conditions
Section is deleted and replaced by the following:
7. ALLOCATION
(a) If both Loss covered under this policy and
loss not covered under this policy are incurred by
the Insureds on account of any Claim because
such Claim against the Insureds includes both
covered and non-covered matters and/or parties,
then coverage under this Coverage Section with
respect to such Claim shall apply as follows:
(i) Defense Costs: One hundred percent (100%)
of reasonable and necessary Defense Costs
incurred by the Insured on account of such
Claim will be considered covered Loss; and
(ii) Loss other than Defense Costs: All
remaining loss incurred by the Insured on
account of such Claim shall be allocated by the
Insurer between covered Loss and non-covered
loss based on the relative legal and financial
exposures of the parties to such matters and, in
the event of a settlement in such Claim, also
based on the relative benefits to the Insureds
from such settlement.

97a
(b) If an allocation of Loss cannot be agreed to
by the Insurer and the Insured:
(i) the Insurer shall pay those amounts which
it believes to be fair and equitable until an
amount shall be agreed upon or determined
pursuant to the provisions of this policy; and
(ii) there will be no presumption of allocation
of Loss in any arbitration, suit or other
proceeding.
ALL OTHER TERMS AND CONDITIONS REMAIN
UNCHANGED.
/s/ [Illegible]
Authorized Representative
CVS FL 10837 PPVNP (4/10)

98a
Endorsement No.: 4
This endorsement, effective: October 01, 2017
(at 12:01 a.m. Standard Time at the address of the
Named Insured as shown in Item I of the Declarations)
Forms a part of Policy No.: 1000620507171
Issued to: ADIR International, LLC dba La Curacao
By: Starr Indemnity & Liability Company
FULL NUCLEAR EXCLUSION
(D&O Coverage Section)
It is understood and agreed that Clause 3,
EXCLUSIONS, of the Directors & Officers Liability
Coverage Section is amended by adding the following
exclusion:
This policy shall not cover any Loss in connection
with any Claim alleging, arising out of, based upon
or attributable to nuclear fission, nuclear fusion,
radioactive contamination or the hazardous properties of any nuclear materials.
ALL OTHER TERMS AND CONDITIONS REMAIN
UNCHANGED.
/s/ [Illegible]
Authorized Representative
CVS FL 10175 PPV (07/08)

99a
Endorsement No.: 5
This endorsement, effective: October 01, 2017
(at 12:01 a.m. Standard Time at the address of the
Named Insured as shown in Item 1 of the
Declarations)
Forms a part of Policy No.: 1000620507171
Issued to: ADIR International, LLC dba La Curacao
By: Starr Indemnity & Liability Company
AMEND I V I FINANCIAL IMPAIRMENT
(Directors & Officers Liability Coverage Section)
It is understood and agreed that Clause 3.
EXCLUSIONS (i) of the Directors & Officers Liability
Coverage Section of the policy is amended by adding
the following:
(vii) Any Claim brought against an Insured Person
by the Company while the Parent Company is in
Financial Impairment; or
(viii) Any Claim brought against an Insured Person
by an Outside Entity while such Insured Person is
serving in his capacity as such for an Outside Entity
while such Outside Entity is in Financial Impairment.
ALL OTHER TERMS AND CONDITIONS REMAIN
UNCHANGED.
/s/ [Illegible]
Authorized Representative
CVS FL Manuscript PV (1/13)

100a
Endorsement No.: 6
This endorsement, effective: October 01, 2017
(at 12:01 a.m. Standard Time at the address of the
Named Insured as shown in Item 1 of the
Declarations)
Forms a part of Policy No.: 1000620507171
Issued to: ADIR International, LLC dba La Curacao
By: Starr Indemnity & Liability Company
EMPLOYED LAWYERS COVERAGE EXTENSION
(D&O Coverage Section)
It is understood and agreed that the Directors &
Officers Liability Coverage Section is amended by
adding the following:
1. This policy shall include coverage for Employed
Lawyers but solely with respect to Wrongful Acts (as
defined below) by an Employed Lawyer acting in the
capacity as such and subject to the terms and conditions of this endorsement.
2. The coverage provided by this endorsement is
specifically excess of any other valid and collectible
lawyers professional liability insurance, legal malpractice or errors and omissions insurance and shall
drop down and provide primary insurance only in the
event of the exhaustion of such other insurance due to
the payment of losses thereunder.
3. In determining whether the Retention amount
for the Directors & Officers Liability Coverage Section
as stated in Item 5 of the Declarations applies to a
Claim under this endorsement, it is presumed that the
Company shall indemnify the Employed Lawyer to the
fullest extent permitted by statutory or common law
or the charter, by-laws, operating agreement or
similar document of the Company.

101a
4. The Definition of “Insured Person(s)” is amended
to include any Employed Lawyer.
5. Solely with respect to the coverage provided by
this endorsement, this policy shall not cover any Loss
in connection with any Claim made against an
Employed Lawyer:
(a) alleging, arising out of, based upon or
attributable to any Wrongful Act which occurred at a
time when the Employed Lawyer was not employed as
a lawyer by the Company;
(b) alleging, arising out of, based upon or
attributable to any Wrongful Act if, as of the Pending
or Prior Date set forth below, an Employed Lawyer
knew or could have reasonably foreseen that such
Wrongful Act could lead to a Claim; or
(c) alleging, arising out of, based upon or
attributable to any activities or conduct of the
Employed Lawyer as an officer, director or governor of
any entity other than the Company.
6. Solely with respect to this endorsement, the
following defined terms apply:
“Employed Lawyer” means any employee of the
Company who is admitted to practice law and who is
employed, or was employed, at the time of the alleged
Wrongful Act as a full-time lawyer for, and salaried by,
the Company.
“Pending or Prior Date” means, for each Employed
Lawyer, the later of October 01, 2005 or the first date
that such person became an Employed Lawyer.
“Wrongful Act” means any act, error, or omission by
an Employed Lawyer in the rendering or failure to
render professional legal services for the Company,
but solely in his or her capacity as such. “Wrongful

102a
Act” shall not mean any act, error, or omission in
connection with such activities by such Employed
Lawyer: (i) which are not related to such Employed
Lawyer's employment with the Company; (ii) which
are not rendered on behalf of the Company at the
Company’s written request; or (iii) which are performed by the Employed Lawyer for others for a fee.
7. The Sublimit of Liability for the coverage
provided by this endorsement shall be $1,000,000.
This Sublimit of Liability shall be part of, and not in
addition to, the Limit of Liability applicable to the
Directors & Officers Liability Coverage Section as set
forth in Item 4 of the Declarations.
ALL OTHER TERMS AND CONDITIONS REMAIN
UNCHANGED.
/s/ [Illegible]
Authorized Representative
CVS FL 10172 PPV (07/08)

103a
Endorsement No.: 7
This endorsement, effective: October 01, 2017
(at 12:01 a.m. Standard Time at the address of the
Named Insured as shown in Item 1 of the
Declarations)
Forms a part of Policy No.: 1000620507171
Issued to: ADIR International, LLC dba La Curacao
By: Starr Indemnity & Liability Company
AMEND NON-RESCINDABLE CLAUSE &
REPRESENTATIONS AND SEVERABILITY
CLAUSE – INSURING AGREEMENTS A. AND B.
ARE NON-RESCINDABLE
It is understood and agreed that Clause 5, NONRESCINDABLE CLAUSE, of the Directors & Officers
Liability Coverage Section is deleted in its entirety
and replaced by the following:
5. NON-RESCINDABLE CLAUSE
The Insurer irrevocably waives any right it may
have to rescind coverage available under Insuring
Agreements A. and B. of this Coverage Section, in
whole or in part, on any grounds.
It is further understood and agreed that solely with
respect to the Directors & Officers Liability Coverage
Section, Clause 10, REPRESENTATIONS AND
SEVERABILITY, of the General Terms & Conditions
Section is deleted in its entirety and replaced by the
following:
10. REPRESENTATIONS AND SEVERABILITY
It is agreed that the Insurer has relied upon the
information contained in the Application in issuing
this policy. In regard to the statements, warranties,
representations and information contained in the
Application, no knowledge of any Insured shall be

104a
imputed to any other Insured for the purpose of
determining whether coverage is available under
this policy for any Claim made against such Insured.
However, in the event the statements, warranties,
representations or information is not accurately and
completely disclosed in the Application, no coverage
shall be afforded for any Claim alleging, arising out
of based upon, attributable to or in consequence of
any incomplete or inaccurate statements, warranties or representations under:
(i) Insuring Agreement A., with respect to any
Insured Person who knew of such inaccurate or
incomplete
statements,
warranties,
representations or information; and
(ii) Insuring Agreement B., with respect to any
Company to the extent it indemnifies any Insured
Person referenced in (i) above; whether or not
such person knew that such facts were not
accurately and completely disclosed in the
Application.
ALL OTHER TERMS AND CONDITIONS REMAIN
UNCHANGED.
/s/ [Illegible]
Authorized Representative
CVS FL 10820 PV (04/10)

105a
Endorsement No.: 8
This endorsement, effective: October 01, 2017
(at 12:01 a.m. Standard Time at the address of the
Named Insured as shown in Item 1 of the
Declarations)
Forms a part of Policy No.: 1000620507171
Issued to: ADIR International, LLC dba La Curacao
By: Starr Indemnity & Liability Company
Amend Claim — Extradition Proceeding
(D& O Coverage Section and GTC Section)
1. It is understood and agreed that the Directors &
Officers Liability Coverage Section of the policy is
amended as follows:
A. Section 2. DEFINITIONS (a) Claim is amended,
where permitted by law, by adding the following:
Claim shall also mean any official request for
Extradition of any Insured Person or the execution
of a warrant for the arrest of an Insured Person
where such execution is an element of Extradition.
B. For purposes of the coverage provided under
this endorsement only, Section 2. DEFINITIONS is
amended by adding the following:
“Extradition” means any formal process to determine if an Insured Person located in any country is
surrendered to any other country to stand trial for
any criminal offense arising from any Wrongful Act
the Insured Person is alleged to have committed.
2. It is further understood and agreed that the
General Terms and Conditions Coverage Section of the
policy is amended as follows:

106a
A. Section 2. DEFINITIONS (d) “Defense Costs”
is amended by adding the following:
Defense Costs shall also mean reasonable and
necessary fees, costs and expenses incurred through
legal counsel and consented to by the Insurer in
connection with an Extradition or similar proceeding brought against an Insured in connection with a
Claim, including but not limited to fees, costs and
expenses for:
(a) opposing, challenging, resisting or defending against any request for or any effort to obtain
the Extradition of that Insured Person; or
(b) appealing any order or other grant of
Extradition of that Insured Person.
ALL OTHER TERMS AND CONDITIONS REMAIN
UNCHANGED.
, /s/ [Illegible]
Authorized Representative
CVS FL 10838 PPV (5-10)

107a
Endorsement No.: 9
This endorsement, effective: October 01, 2017
(at 12:01 a.m. Standard Time at the address of the
Named Insured as shown in Item 1 of the
Declarations)
Forms a part of Policy No.: 1000620507171
Issued to: ADIR International, LLC dba La Curacao
By: Starr Indemnity & Liability Company
AMEND DEFINITION OF “OUTSIDE ENTITY” —
INCLUDES ANY NOT-FOR-PROFIT ENTITY
(Directors & Officers Liability Coverage Section)
It is understood and agreed that Definition (i)
“Outside Entity”, in Clause 2. DEFINITIONS of the
Directors & Officers Liability Coverage Section is
deleted in its entirety and replaced with the following:
(i) “Outside Entity” means: (1) any not-for-profit
entity; or (2) any other entity listed as such by
endorsement to this policy, for which an Executive
acts as a director, officer, trustee or governor (or the
equivalent thereof) at the written request of the
Company. Any such person shall be referred to
herein as an “Outside Entity Insured Person”, but
only while that person is acting in the capacity as a
director, officer, trustee or governor (or the
equivalent thereof) of an Outside Entity.
ALL OTHER TERMS AND CONDITIONS REMAIN
UNCHANGED.
/s/ [Illegible]
Authorized Representative
CVS FL 10862 PV (4-10)

108a
REDACTED

109a
Endorsement No.: 12
This endorsement, effective: October 01, 2017
(at 12:01 a.m. Standard Time at the address of the
Named Insured as shown in Item 1 of the
Declarations)
Forms a part of Policy No.: 1000620507171
Issued to: ADIR International, LLC dba La Curacao
By: Starr Indemnity & Liability Company
AMEND DEFINITION OF “SUBSIDIARY” –
CHANGE REVENUE THRESHOLD
(D&O Coverage Section)
It is understood and agreed that Definition (k),
“Subsidiary” of the Directors & Officers Liability
Coverage Section is amended by changing the
automatic subsidiary threshold in items (2) and (3) of
such Definition from 25% to 35%.
ALL OTHER TERMS AND CONDITIONS REMAIN
UNCHANGED.
/s/ [Illegible]
Authorized Representative
CVS FL 10088 PV (07/08)

110a
REDACTED

111a
Endorsement No.: 14
This endorsement, effective: October 01, 2017
(at 12:01 a.m. Standard Time at the address of the
Named Insured as shown in Item 1 of the
Declarations)
Forms a part of Policy No.: 1000620507171
Issued to: ADIR International, LLC dba La Curacao
By: Starr Indemnity & Liability Company
AMEND DEFINITION OF “COMPANY” TO
INCLUDE SPECIFIED ENTITIES WITH PENDING
OR PRIOR LITIGATION DATES
(General Terms & Conditions Section)
It is understood and agreed that General Definition
(c), “Company”, of the General Terms & Conditions
Section is amended to include any entity listed below;
however, such entity is a Company only with respect
to the entity’s corresponding Coverage Section(s) and
the entity’s corresponding Pending or Prior Date listed
below. The Pending or Prior Date(s) listed below apply
solely to Exclusion (d) of the Directors & Officers
Liability Coverage Section, Exclusion (c) of the
Employment Practices Liability Coverage Section and
Exclusion (e) of the Fiduciary Liability Coverage
Section.
ENTITY

COVERAGE
SECTION

PENDING OR
PRIOR DATE

Adir Services Corp. Directors & Officers October 01, 2014
Hold Co.
Liability

ALL OTHER TERMS AND CONDITIONS REMAIN
UNCHANGED.
/s/ [Illegible]
Authorized Representative
CVS FL 10676 PPV (02/10)

112a
Endorsement No.: 15
This endorsement, effective: October 01, 2017
(at 12:01 a.m. Standard Time at the address of the
Named Insured as shown in Item 1 of the
Declarations)
Forms a part of Policy No.: 1000620507171
Issued to: ADIR International, LLC dba La Curacao
By: Starr Indemnity & Liability Company
AMEND DEFINITION OF COMPANY
(General Terms & Conditions)
It is understood and agreed that Definition (c),
“Company”, of the General Terms & Conditions
Section is amended to include the following:
It is further understood and agreed that this
endorsement shall apply solely to the following
Coverage Section(s):
- Curacao Ltd
ALL OTHER TERMS AND CONDITIONS REMAIN
UNCHANGED.
/s/ [Illegible]
Authorized Representative
CVS FL 10187 PPV (07/08)

113a
Endorsement No.: 16
This endorsement, effective: October 1, 2017
(at 12:01 a.m. Standard Time at the address stated in
Item 1 of the Declarations)
Forms a part of Policy No.: 1000620507171
Issued to: Adir International, LLC dba La Curacao
By: Starr Indemnity & Liability Company
PROFESSIONAL SERVICES EXCLUSION
(D&O Coverage Section)
It is understood and agreed that Clause 3,
EXCLUSIONS, of the Directors & Officers Liability
Coverage Section is amended by adding the following
exclusion:
This policy shall not cover any Loss in connection
with any Claim alleging, arising out of, based upon or
attributable to the rendering or failure to render any
professional service to a customer or client of the
Insured.
ALL OTHER TERMS AND CONDITIONS REMAIN
UNCHANGED.
/s/ [Illegible]
Authorized Representative
CVS FL 10735 PPV (3/10)

114a
POLICYHOLDER DISCLOSURE NOTICE OF
TERRORISM INSURANCE COVERAGE
Coverage for acts of terrorism is included in your
policy. You are hereby notified that under the Terrorism Risk Insurance Act, as amended in 2015, the
definition of act of terrorism has changed. As defined
in Section 102(1) of the Act: The term “act of terrorism”
means any act or acts that are certified by the
Secretary of the Treasury—in consultation with the
Secretary of Homeland Security, and the Attorney
General of the United States—to be an act of terrorism; to be a violent act or an act that is dangerous to
human life, property, or infrastructure; to have resulted
in damage within the United States, or outside the
United States in the case of certain air carriers or
vessels or the premises of a United States mission;
and to have been committed by an individual or
individuals as part of an effort to coerce the civilian
population of the United States or to influence the
policy or affect the conduct of the United States
Government by coercion. Under your coverage, any
losses resulting from certified acts of terrorism may be
partially reimbursed by the United States Government under a formula established by the Terrorism
Risk Insurance Act, as amended. However, your policy
may contain other exclusions which might affect
your coverage, such as an exclusion for nuclear events.
Under the formula, the United States Government
generally reimburses 85% through 2015; 84% beginning on January 1, 2016; 83% beginning on January 1,
2017; 82% beginning on January 1, 2018; 81% beginning on January 1, 2019 and 80% beginning on
January 1, 2020, of covered terrorism losses exceeding
the statutorily established deductible paid by the insurance company providing the coverage. The Terrorism
Risk Insurance Act, as amended, contains a $100

115a
billion cap that limits U.S. Government reimbursement as well as insurers’ liability for losses resulting
from certified acts of terrorism when the amount of
such losses exceeds $100 billion in any one calendar
year. If the aggregate insured losses for all insurers
exceed $100 billion, your coverage may be reduced.
The portion of your annual premium that is attributable to coverage for acts of terrorism is $0, and does
not include any charges for the portion of losses covered by the United States government under the Act.
© Includes copyrighted material of the National
Association of Insurance Commissioners
CVS FL 11440 (1/17)

116a
APPENDIX G
SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
————
Case No. BC680425
————
THE PEOPLE OF THE STATE OF CALIFORNIA,
Plaintiff,
v.
ADIR INTERNATIONAL, LLC, a Delaware limited
liability company, also doing business as
CURACAO and LA CURACAO; LA CURACAO, a
California corporation; RON AZARKMAN,
an individual; and Does 1 through 100, inclusive,
Defendants.
————
COMPLAINT FOR PERMANENT INJUNCTION,
CIVIL PENALTIES, RESTITUTION, AND OTHER
EQUITABLE RELIEF
(BUS. & PROF. CODE, §§ 17200 et seq., 17500 et seq.)
[VERIFIED ANSWER REQUIRED PURSUANT
TO CALIFORNIA CODE OF CIVIL PROCEDURE
SECTION 446]
————
XAVIER BECERRA
Attorney General of California
NICKLAS A. AKERS
Senior Assistant Attorney General
MICHELE VAN GELDEREN
Supervising Deputy Attorney General
ALICIA K. HANCOCK (SBN 240566)
SHANAIRA U. BANERJEE (SBN 236187)
MICHIYO MICHELLE BURKART (SBN 234121)

117a
MARISOL LEON (SBN 298707)
TIMOTHY D. LUNDGREN (SBN 254596)
Deputy Attorneys General
300 South Spring Street, Suite 1702
Los Angeles, CA 90013
Telephone: (213) 269-6342
Fax: (213) 897-4951
E-mail: Alicia.Hancock@doj.ca.gov
Attorneys for Plaintiff, the People of the
State of California
[EXEMPT FROM FILING FEES PURSUANT TO
GOVERNMENT CODE SECTION 6103]
Plaintiff, the People of the State of California
(“Plaintiff’ or the “People”), by and through Xavier
Becerra, Attorney General of the State of California,
alleges the following on information and belief:
INTRODUCTION
1. For years, Defendant Adir International, LLC,
dba Curacao, a retail store chain, and its co-founder
Ron Azarkman, have preyed upon Curacao’s Latino
customer base. While Curacao touts its commitment
to the Latino community, the company actually takes
advantage of its customers, many of whom are lowincome, monolingual Spanish-speaking immigrants
who lack access to traditional credit to purchase basic
big-ticket household necessities from other retailers.
Curacao victimizes consumers through a variety of
unlawful, unfair, and fraudulent business practices,
including the following: misleading advertising; unwanted contract add-ons; illegal sale of warranties;
failure to honor warranties; failure to clearly post
return policies; refusal to honor returns; illegal debt
collection practices; and violating consumers’ rights
when suing them in small claims actions.

118a
2. Curacao’s unlawful business practices are pervasive. They begin even before a consumer walks into a
store—through misleading advertisements—and may
not end until months or years after the consumer’s
original purchase—often in a small-claims judgment
obtained by violating court rules. Targeting Latino
immigrants who lack credit, Curacao lures consumers
into its stores by advertising easy credit and low prices
on merchandise ranging from electronics to furniture
to appliances. Once in the store, however, consumers
discover that they can only purchase merchandise at
the advertised price if they agree to buy “add-ons” such
as warranties, installation services, and/or accessories. In some instances, Curacao adds these items
without consumers’ knowledge or consent, or tells
consumers that items are free when, in fact, consumers are charged for them. Curacao conceals these
contract add-ons by having consumers sign credit or
retail installment contracts electronically without first
showing them an itemized receipt, or by giving monolingual Spanish-speaking consumers English-language
contracts, which they cannot read or understand.
When consumers try to return items that were added
without their consent, they are often told that
Curacao’s return policy—which was not disclosed to
consumers—prevents Curacao from accepting the
return. When consumers try to use their warranties
(many of which are Curacao-backed warranties sold
illegally and without the proper financial backing),
Curacao often denies them service or forces them to
wait months to have their merchandise repaired or
replaced. All the while, Curacao expects consumers to
continue making regular payments on their purchases.
When consumers fall behind on their payments,
Curacao debt collectors not only harass the consumers
themselves, but also contact their family members

119a
and employers. Curacao debt collectors also threaten
consumers with arrest if they do not pay. Finally,
when Curacao sues consumers in small claims court
for outstanding debts, the company often fails to
properly serve the customers it is suing. As a result,
consumers sued by Curacao discover that they have
had default judgments entered against them without
any opportunity to defend themselves in court.
3. Such business practices are not the actions of
rogue employees; they are, in fact, the consequence
of Curacao’s established sales incentive structure
and corporate culture. Curacao instructs its employees
that the company’s future depends on selling highmargin warranties, services, and accessories. To
ensure that sales associates push these items on its
customers, Curacao imposes unrealistic sales goals on
its employees, constantly monitors them to ensure
goals are met, and threatens employees with demotion
or termination if they fail to meet those goals. Caught
between a rock and a hard place, Curacao employees,
many of whom lack other job options, are forced to
engage in unfair, unlawful, and fraudulent conduct in
order to keep their jobs. Curacao sales representatives
are encouraged to lie to customers about contract
terms, pricing, and returns, and to add items and
services to customers’ contracts without their knowledge or consent. This conduct is condoned and sanctioned
by Curacao supervisors. Curacao management and
executives have been well aware of these practices,
and the corresponding customer and employee
complaints, for years.
4. These business practices violate California’s Unfair
Competition Law (Business and Professions Code
section 17200), the False Advertising Law (Business

120a
and Professions Code section 17500), and a number of
other California consumer protection statutes.
PLAINTIFF
5. Plaintiff is the People of the State of California,
who brings this action by and through Attorney
General Xavier Becerra. The Attorney General is
authorized by Business and Professions Code sections
17203, 17204, and 17206 to bring actions to enforce the
Unfair Competition Law (UCL) and by Business and
Professions Code sections 17535 and 17536 to bring
actions to enforce the False Advertising Law (FAL).
DEFENDANTS
6. Defendant Adir International, LLC is a Delaware
limited liability company with its principal place of
business in Los Angeles, California. Adir International,
LLC owns and operates a retail store chain under the
fictitious business names of Curacao, Curacao Travel,
iCuracao, and Curacao Export. At all relevant times,
Adir International, LLC, itself and doing business as
Curacao, Curacao Travel, iCuracao, and Curacao
Export, has transacted business in the County of Los
Angeles and elsewhere within the State of California.
7. Defendant La Curacao is or was a California
corporation with its principal place of business in Los
Angeles, California. The retail store chain now known
as Curacao was formerly known as La Curacao, from
its inception in 1981 until the chain was rebranded as
Curacao on or around August 1, 2012. At all relevant
times, La Curacao transacted business in the County
of Los Angeles and elsewhere within the State of
California.
8. Defendant Ron Azarkman (“Azarkman”), an
individual, is a principal of Adir International, LLC

121a
and La Curacao. According to a Statement of Information filed with the Secretary of State on September
25, 2013, Azarkman is the Chief Executive Officer
of Adir International, LLC. According to a Statement
of Information filed with the Secretary of State on
January 26, 2006, Azarkman is or was the Chief
Executive Officer and Chief Financial Officer of La
Curacao, as well as a director of La Curacao. According
to an application for registration filed with the Bureau
of Electronic and Appliance Repair in November 1996,
Azarkman is one of the two officers listed as “in charge
of” Adir International LLC’s service contract program,
through which Curacao ostensibly sold its warranties.
Azarkman also signed this application for registration.
At all times relevant, Azarkman was in a position of
responsibility allowing him to create, direct, and influence corporate policies or activities with respect to
Defendants’ compliance with California consumer protection laws and regulations at their retail stores and
in the conduct of their business in the State of
California, and had, by reason of his position in the
company and corporation, responsibility and authority
either to prevent in the first instance, or promptly
correct, the violations complained of herein, but failed
to do so. In addition to any direct personal liability,
Azarkman is also personally liable as a responsible
corporate officer for violations of law committed by
Defendants as alleged herein. Azarkman is a resident
of Los Angeles County.
9. Plaintiff is not aware of the true names and
capacities of defendants sued herein as DOES 1
through 100, inclusive, and, therefore, sues these
defendants by such fictitious names. Each fictitiously
named defendant is responsible in some manner for
the violations of law alleged. Plaintiff will amend this
Complaint to add the true names of the fictitiously

122a
named defendants once they are discovered. Whenever
reference is made in this Complaint to “Defendants,”
such reference shall include DOES 1 through 100 as
well as the named defendants.
10. The defendants identified in Paragraphs 6
through 9 above are hereafter referred to collectively
in this Complaint as “Defendants” or “Curacao.”
11. At all relevant times, each Defendant acted
individually and jointly with every other named
Defendant in committing all acts alleged in this
Complaint.
12. At all relevant times, each Defendant acted: (a)
as a principal; (b) under express or implied agency;
and/or (c) with actual or ostensible authority to
perform the acts alleged in this Complaint on behalf of
every other named Defendant.
13. At all relevant times, some or all Defendants
acted as the agent of the others, and all Defendants
acted within the scope of their agency if acting as an
agent of another.
14. At all relevant times, each Defendant knew or
realized, or should have known or realized, that the
other Defendants were engaging in or planned to
engage in the violations of law alleged in this Complaint. Knowing or realizing that the other Defendants
were engaging in such unlawful conduct, each
Defendant nevertheless facilitated the commission of
those unlawful acts.
Each Defendant intended to and did encourage,
facilitate, or assist in the commission of the unlawful
acts, and thereby aided and abetted the other
Defendants in the unlawful conduct.

123a
15. Defendants have engaged in a conspiracy,
common enterprise, and common course of conduct,
the purpose of which is and was to engage in the
violations of law alleged in this Complaint. The
conspiracy, common enterprise, and common course of
conduct continue to the present.
JURISDICTION AND VENUE
16. This Court has original jurisdiction over this
action pursuant to California, Constitution article VI,
section 10.
17. This Court has jurisdiction over Defendants
because Defendants, by maintaining Curacao’s principal place of business in the state of California,
marketing its merchandise throughout California,
and operating stores and selling merchandise in
California, intentionally availed themselves of the
California market so as to render the exercise of
jurisdiction over Defendants by the California courts
consistent with traditional notions of fair play and
substantial justice.
18. The violations of law alleged in this Complaint
occurred in the County of Los Angeles and elsewhere
throughout California.
19. Venue is proper in this Court pursuant to Code
of Civil Procedure section 395.5 because Defendants’
marketing and sales activities included the Los
Angeles region and therefore Defendants’ liability
arises in the County of Los Angeles.
20. Venue is also proper in this Court pursuant to
Code of Civil Procedure section 393, subdivision (a)
because violations of law that occurred in the County
of Los Angeles are a “part of the cause” upon which the

124a
Plaintiff seeks the recovery of penalties imposed by
statute.
DEFENDANTS’ BUSINESS PRACTICES
21. Curacao operates nine retail stores in California,
two retail stores in Arizona, and one retail store in
Nevada, as well as an online shopping site at
http://www.icuracao.com/.
22. Curacao actively markets its products to the
Latino community, the most vulnerable members being
16w-income, monolingual Spanish-speaking immigrants.
These consumers often have minimal experience with
credit card and retail installment contracts because
they do not qualify for traditional credit or financing.
This lack of access to traditional credit makes it
difficult for these consumers to purchase necessary
big-ticket home staples such as refrigerators and beds
at other retailers.
23. While claiming to help the Latino community,
Curacao instead takes advantage of and exploits this
community. Curacao takes advantage of consumers
through a variety of unlawful, unfair, and fraudulent
business practices, including:
a. Bait-and-switch Advertising/Bundling. Curacao
lures consumers into its stores through advertisements disseminated via mailers, television, radio,
and the internet. These advertisements contain
false or misleading statements about the condition,
price, and availability of particular products. Curacao
sales associates are instructed not to sell available
merchandise at the advertised prices unless they
can sell the products bundled with high-margin
services, warranties, and accessories. As a result,
Curacao often tells consumers that merchandise
advertised by Curacao is either unavailable, or

125a
available only as part of a more expensive bundle
that was not disclosed in Curacao’s advertising.
Curacao fails to honor prices as they are advertised
and marked on its sales floor, and fails to supply
reasonably expected demand for the merchandise it
advertises. Curacao also markets and sells used
items to consumers without disclosing that they are
not new.
b. Store Credit. Curacao encourages consumers to
apply for store credit and pay for merchandise via
retail installment contracts. Curacao claims that
opening credit with the store will improve consumers’ credit scores and open up other avenues for
financing in the future. Curacao also promotes low
monthly payments on advertised items if purchased
with Curacao credit. Such promises of easy credit
and low monthly payments are attractive to many
consumers, especially those who lack a positive
credit history. But in reality, the advertised low
monthly payments are based on an APR of 19.99%,
a rate very few consumers actually get. Curacao
conducts most of its sales through retail installment
contracts, typically charging consumers a 34.99%
APR. Once a consumer is approved for credit,
Curacao sales associates encourage the consumer to
use all available credit in the first purchase, as
instructed by their supervisors. Sometimes, Curacao
opens new accounts or sub-accounts for consumers
without their knowledge or consent. Curacao sales
associates also mislead consumers by telling them
that Curacao can reactivate or increase a consumer’s credit line without running a hard inquiry
on the consumer’s credit report. In reality, Curacao
runs hard inquiries on consumer credit reports
without the consumer’s informed consent, and at

126a
times, in direct contravention of the consumer’s
explicit requests.
c. Contract Add-Ons. To meet the company’s
aggressive and strict sales goals, Curacao sales
associates add warranties and services to consumer
contracts by any means possible: sometimes by misleading the consumer about the terms, conditions, or
price of a warranty or service, and sometimes by
simply adding a warranty or service to a consumer’s
contract without the consumer’s knowledge or
consent. Accessories are often added to a consumer’s
purchase through deception. Sales representatives
lie about the price of accessories, and sometimes
falsely claim that accessories are essential to the
proper operation of certain merchandise. To hide
unauthorized contract add-ons, Curacao sales associates ask consumers to electronically sign their
contracts on a screen similar to a credit card
terminal before showing them an itemized receipt or
paper contract. Curacao does not provide consumers
with a paper copy of their retail installment contract
until they have already signed it. As a consequence,
consumers often leave the store with a contract that
binds them to pay Curacao hundreds of dollars more
than they expected or intended, for services or items
they did not want or did not know they purchased.
d. Contract Translations. In some instances,
Curacao negotiates with consumers in Spanish, but
provides those consumers with only an Englishlanguage contract. Even when Curacao sales
associates provide a Spanish-language translation
of the contract, important contract terms and
conditions remain in English. Curacao also fails to
post any signs or notices informing consumers of

127a
their right to receive a version of their contract that
is fully translated into Spanish.
e. Warranties. Curacao sales associates misrepresent the terms of the warranties (also known as
service contracts) that Curacao sells and they often
do not provide consumers with a copy of the warranty terms or contract. In some instances, sales
associates fail to provide the consumer with any
information about the warranty added to their
contract. For years, Curacao misled the Bureau of
Electronic and Appliance Repair, Home Furnishings,
and Thermal Insulation, the agency tasked with
regulating the sale of warranties. While applying
to sell only warranties administered by another
company, Curacao actually sold its own selfadministered warranties, without the necessary
financial backing or insurance policy required by
California law. Curacao also fails to respond in a
timely manner (or at all) to consumer requests for
repairs, and in many instances it cancels or voids
warranties without proper justification. Curacao
has refused to replace or repair defective items
covered by Curacao’s warranty, falsely claiming that
damage to a product was caused by the consumer.
Curacao has also, in several instances, charged
customers for third-party warranty coverage without actually enrolling the product or activating the
third-party warranty. In instances when consumers
return merchandise for which a warranty was also
purchased, Curacao continues to charge consumers
for the warranty or charges them an insurance
cancellation fee, even when consumers do not
attempt to use the merchandise or the warranty and
they cancel the warranty within thirty days.

128a
f. Returns. Curacao fails to post or otherwise alert
consumers to its return policies before customers
make a purchase. Curacao’s return policy is posted
only on retail installment contracts or product
receipts (both provided after purchase), and at some
of its merchandise pick-up windows. Yet, Curacao
often relies on its alleged return policies to refuse
consumers’ return attempts, claiming that merchandise is “final sale” or subject to a 10% or 15%
restocking fee. Curacao associates are incentivized
to reject valid returns because their strict sales
goals, their compensation, and ultimately their jobs
are at stake.
g. Debt Collection. When consumers fall behind
in their monthly payments, Curacao’s debt collection agents harass them by calling early in the
morning or late at night, berating them, and threatening them with litigation, arrest, losing their
home, and/or ruined credit reports. Curacao’s debt
collection agents also reveal details about debts to
consumers’ relatives, roommates, neighbors, coworkers,
and/or employers. Curacao follows up its debt collection calls by sending written debt collection notices
to consumers that threaten actions it does not
intend to—or cannot legally—take, including
seizure of consumers’ homes. In some instances,
Curacao continues debt collection efforts against
consumers, including negative reporting to the
credit reporting agencies, months and even years
after having received payment in full.
h. Small Claims. Curacao files 250 to 400 small
claims actions for allegedly delinquent debt against
its consumers each month. Until recently, Curacao
used an unregistered process server who failed to
personally serve consumers, and fabricated proofs of

129a
service. Improper or non-existent service prevented
numerous consumers from contesting their alleged
debt in court or seeking a stipulated judgment
with Curacao. Through subsequent orders and wage
garnishment, Curacao has collected on default judgments against consumers who never received proper
notice of the small claims lawsuits, and had no
opportunity to be heard in court. Curacao also hired
an independent contractor to represent the company
at small claims hearings by falsely claiming that he
was Curacao’s in-house “collector.” This independent contractor has, on many occasions, testified
against consumer defendants and provided information to the court about Curacao records and the
alleged consumer debt owed.
24. When consumers attempt to contact Curacao
about unauthorized contract add-ons, defective products, poor customer service, harassing debt collection,
or subpar warranty service, they are confronted with
long wait times. Their telephone calls are transferred
among several Curacao customer service representatives, and often get disconnected in the process.
Customer service representatives are rarely authorized to resolve issues themselves, so consumers are
often told that someone will call them back. Consumers
routinely wait weeks for a callback and, in many cases,
never receive one. Consumers who go directly to a
Curacao store to lodge a complaint are often confronted by hostile employees and managers who claim
that nothing can be done because the consumer signed
the contract and should have known what it entailed.
When a consumer persists in her complaint, Curacao
elevates the complaint to its Escalations Department,
where it is ultimately vetted by executives. Even if
Curacao resolves these elevated complaints, the resolution rarely involves making the consumer whole.

130a
25. The pervasiveness of Curacao’s unlawful, unfair,
and fraudulent conduct is perpetuated by the company’s
sales model and corporate culture. Curacao requires
its sales associates to meet daily, weekly, and monthly
sales goals for each of the following categories: merchandise, accessories, warranties, services (such as
delivery or installation), and approved credit applications. The monthly sales goals, however, are not
always clear and often increase unexpectedly in the
middle of the month. A sales associate who was on
target to meet her monthly goals may suddenly
discover, in the third week of the month, that Curacao
has raised her goals to a level that is unattainable.
Curacao sales associates often express confusion about
how their sales goals are calculated and adjusted.
Many are unable to meet their monthly goals without
resorting to unlawful, unfair, or fraudulent tactics
because there simply are not enough customers
coming through their department.
26. Curacao strictly enforces its sales goals through
constant monitoring of its employees. Curacao managers are required to meet their own departmental sales
goals for all categories. They are instructed to create a
sense of urgency in their sales associates by checking
in with them on an hourly basis to ensure they are
meeting goals for services, accessories, and warranties. Sales associates who are not meeting all of their
goals are often approached or called by their managers
and reprimanded or berated. At times, managers
will actually interrupt a sale and take over
communications with a particular consumer to ensure
that the consumer purchases services, accessories, and
a warranty along with merchandise.
27. Curacao also enforces its sales goals through its
employee review process. In periodic formal perfor-

131a
mance reviews, sales associates are rated on their
ability to exceed their sales goals in each category. A
sales associate cannot earn the highest performance
ranking unless she has actually achieved well over
100% of her goals. Sales associate hourly pay is
adjusted accordingly; if an associate exceeds her goals,
her hourly pay may increase, but if she fails to meet
her goals, her hourly pay often decreases, sometimes
by as much as $2.00 per hour. Managers are also
subject to periodic formal performance reviews, in
which they are rated and ranked based on their
department’s ability to sell beyond its goals in each
category. Sales associates and managers both receive
written performance warnings for failing to meet
their goals. These documents inform sales associates
and managers that their continued failure to meet
Curacao’s sales goals in each category will result in
demotion or termination. And, indeed, Curacao regularly demotes or terminates associates and managers
for failing to meet their sales goals. These performance
reviews, warnings, demotions, and terminations are
regularly reviewed and approved by Curacao management and executives.
28. This combination of unrealistic and opaque
sales goals, the constant monitoring of those sales
goals, and the severe repercussions of falling short
predictably and naturally drive Curacao’s associates
to engage in fraudulent behavior to meet their goals
and keep their jobs.
29. Since the store’s inception, Azarkman has been
involved in creating and revising this compensation
structure, as well as directing Curacao’s retail and
inventory strategy, communicating with executives
and store management, and cultivating Curacao’s
corporate culture and corporate image.

132a
FIRST CAUSE OF ACTION AGAINST ALL
DEFENDANTS
VIOLATIONS OF BUSINESS AND
PROFESSIONS CODE
SECTION 17500 ET SEQ.
(False or Misleading Statements)
30. The People reallege and incorporate by reference each of the paragraphs above as though fully set
forth herein.
31. Defendants have violated, and continue to
violate, Business and Professions Code section 17500
et seq. by making or disseminating; or causing to be
made or disseminated, false or misleading statements
with the intent to induce members of the public to
purchase Curacao products when Defendants knew, or
by the exercise of reasonable care should have known,
that the statements were false or misleading. The false
or misleading statements include, but are not limited
to, the following:
a. In print, online, and televised advertisements,
as well as in in-store displays, Defendants advertise
merchandise for sale at certain prices, but then
refuse to sell that merchandise at the advertised
price unless the consumer also agrees to purchase a
warranty, services, or accessories—a condition that
is not stated in the advertisements;
b. In print and online advertisements, as well as
in in-store displays, Defendants advertise merchandise
for sale at specified monthly payments based on an
APR of 19.99%, an interest rate that most consumers do not get;
c. Defendants fail to honor prices as stated in the
in-store displays; and

133a
d. Defendants misrepresent used or second-hand
merchandise as new.
SECOND CAUSE OF ACTION AGAINST ALL
DEFENDANTS
VIOLATIONS OF BUSINESS AND
PROFESSIONS CODE
SECTION 17200 ET SEQ.
(Unlawful, Unfair, and/or Fraudulent Business
Practices)
32. The People reallege. and incorporate by reference each of the paragraphs above as though fully set
forth herein.
33. Defendants have engaged, and continue to
engage, in unlawful, unfair, or fraudulent acts or
practices, which constitute unfair competition within
the meaning of Section 17200 of the Business and
Professions Code. Defendants’ acts or practices include,
but are not limited to, the following:
a. Defendants have violated Business and Professions Code section 17500 et seq., as alleged above in
the First Cause of Action.
b. Defendants have violated the Consumer Legal
Remedies Act, Civil Code section 1770 et seq., by:
i. Selling used and secondhand items as new, in
violation of Civil Code section 1770, subdivision
(a)(6);
ii. Advertising items for sale with an intent not
to sell them as advertised, in violation of Civil
Code section 1770, subdivision (a)(9);
iii. Advertising items for sale with an intent not
to supply reasonably expectable demand, in
violation of Civil Code section 1770, subdivision
(a)(10);

134a
iv. Adding items to consumer contracts without
consumers’ knowledge or consent, in violation of
Civil Code section 1770, subdivision (a)(13), (14),
(16), and (19);
v. Misleading consumers about the price of
items added to their contracts, in violation of Civil
Code section 1770, subdivision (a)(13), (14), and
(16); and
vi. Misleading consumers about the terms or
conditions of Curacao’s contracts, in violation of
Civil Code section 1770, subdivision (a)(14).
c. Defendants have violated the California Translations Act, Civil Code section 1632 et seq., by:
i. Failing to provide a full Spanish-language
translation of Curacao contracts to consumers
who negotiated their purchase in Spanish, in
violation of Civil Code section 1632, subdivision
(b); and
ii. Failing to conspicuously display a notice
stating that Curacao is required to provide a
contract in Spanish to consumers who negotiate
their purchase in Spanish, in violation of Civil
Code section 1632, subdivision (f).
d. Defendants have violated Business and Professions Code section 9855.2, subdivision (a) by issuing,
selling, or offering for sale Curacao service contracts
without filing with the director of the Bureau of
Electronic and Appliance Repair, Home Furnishings, and Thermal Insulation sufficient proof of
financial backing for those contracts.
e. Defendants have violated Business and Professions Code section 9855.3 by:

135a
i. Issuing and using a service contract without
first filing with the director of the Bureau of
Electronic and Appliance Repair, Home Furnishings, and Thermal Insulation the service contract
form; and
ii. Failing to file with their application for
registration and application for registration
renewal the requisite proof of financial backing.
f. Defendants have violated California Code of
Regulations section 2758 by failing to provide to the
Bureau of Electronic and Appliance Repair, Home
Furnishings, and Thermal Insulation the records
they are required to maintain.
g. Defendants have violated Civil Code section
1723, subdivision (a) by failing to conspicuously
display return policies for items on which they
refuse to give full cash or credit refunds or equal
exchanges.
h. Defendants have violated the Rosenthal Fair
Debt Collection Practices Act, Civil Code section
1788 et seq., by:
i. Threatening to arrest, garnish the wages of,
and/or seize the property or homes of, consumers
who owe debts to Curacao, even when such action
was not in fact contemplated or permitted by law,
in violation of Civil Code section 1788.10;
ii. Harassing consumers with frequent and
repeated telephone calls, often made at times
known to be inconvenient, in violation of Civil
Code sections 1788.11 and 1788.17;
iii. Communicating repeatedly with persons
other than the consumer for the purpose of acquiring location information about the consumer

136a
and/or discussing the details of consumers’ debts
with consumers’ employers or family members,
when such communication was not necessary to
the collection of debt, in violation of Civil Code
sections 1788.12 and 1788.17; and
iv. Collecting or attempting to collect debts
from consumers when Curacao knew that service
of process of the underlying small claims actions
had not been legally effected, in violation of Civil
Code section 1788.15.
i. Defendants have violated the Song-Beverly
Consumer Warranty Act, Civil Code section 1790 et
seq., by:
i. Failing to provide consumers at or before the
time of purchase a copy of the service contract sold
or a brochure which specifically describes the
terms, conditions, and exclusions of the service
contract sold, in violation of Civil Code section
1794.41, subdivision (a)(2); and
ii. Failing to provide consumers with a full
refund for service contracts on home electronic
products or home appliances returned within 30
days of purchase, and where no claim was filed, in
violation of Civil Code section 1794.41, subdivision (a)(4)(A).
j. Defendants have violated the Small Claims Act,
Code of Civil Procedure section 116.110 et seq., by:
i. Failing to timely serve consumers with
Curacao’s claim and the associated order to
appear, in violation of Code of Civil Procedure
section 116.340, subdivisions (b) and (c); and
ii. Authorizing an independent contractor to
appear on Curacao’s behalf and participate in

137a
small claims actions, in violation of Code of Civil
Procedure section 116.540, subdivision (c).
PRAYER FOR RELIEF
WHEREFORE, Plaintiff prays for judgment as
follows:
1. Pursuant to Business and Professions Code
section 17535, that Defendants, along with Defendants’
successors, agents, representatives, employees, and
all persons who act in concert with Defendants, be
permanently enjoined from making any false or
misleading statements in violation of Business and
Professions Code section 17500 as alleged in this
Complaint;
2. Pursuant to Business and Professions Code
section 17203, that the Court enter all orders necessary to prevent Defendants, as well as Defendants’
successors, agents, representatives, employees, and all
persons who act in concert with Defendants from
engaging in any act or practice that constitutes unfair
competition in violation of Business and Professions
Code section 17200;
3. Pursuant to Business and Professions Code
section 17203, that the Court enter all orders or judgments as may be necessary to restore to any person in
interest any money or other property that Defendants
may have acquired by violations of Business and
Professions Code section 17200, as proved at trial;
4. Pursuant to Business and Professions Code
section 17536, that the Court assess a civil penalty of
two thousand five hundred dollars ($2,500) against
Defendants for each violation of Business and Professions Code section 17500, as proved at trial;

138a
5. Pursuant to Business and Professions Code
section 17206, that the Court assess a civil penalty of
two thousand five hundred dollars ($2,500) against
Defendants for each violation of Business and Professions Code section 17200, as proved at trial;
6. Pursuant to Business and Professions Code
section 17206.1, subdivision (a), that the Court assess,
in addition to any penalties assessed under Business
and Professions Code sections 17206 and 17536, a civil
penalty of two thousand five hundred dollars ($2,500)
against Defendants for each violation of Business and
Professions Code section 17200 perpetrated against
senior citizens or disabled persons, as proved at trial;
7. That Plaintiff recover its costs of suit, including
costs of investigation; and
8. For such other and further relief that the Court
deems just and proper.
Dated: October 19, 2017
Respectfully Submitted,
XAVIER BECERRA
Attorney General of California
NICKLAS A. AKERS
Senior Assistant Attorney General
MICHELE VAN GELDEREN
Supervising Deputy Attorney General
/s/ Alicia K. Hancock
ALICIA K. HANCOCK
Deputy Attorney General
Attorneys for Plaintiff the People
of the State of California

139a
APPENDIX H
XAVIER BECERRA
Attorney General
State of California
DEPARTMENT OF JUSTICE
300 SOUTH SPRING STREET, SUITE 1702
LOS ANGELES, CA 90013
Public: (213) 269-6000
Telephone: (213) 269-6624
Facsimile: (213) 897-4951
E-Mail: Michael.Reynolds®doj.ca.gov
March 8, 2019
Via FedEx and E-Mail
Starr Indemnity & Liability Company
ATTN: Financial Lines Department
399 Park Ave., 8th Floor
New York, NY 10022
StarrFLPLClaims@starrcompanies.com
RE:

Policy Number: 1000620507171
Insured: ADIR International, LLC dba La Curacao
People of the State of California v. Adir
International, LLC, dba Curacao, et al.,
Case No. BC680425 (Cal. Super. Ct.) .

To whom it may concern:
I write on behalf of the California Attorney General’s
Office, which is representing the People of the State of
California (“the People”) in a civil law enforcement
action against your insured, ADIR International, LLC
dba La Curacao (“ADIR”), and its CEO, Ron Azarkman.
The People’s action, People of the State of California v.
Adir International, LLC, dba Curacao, et al., Case No.
BC680425 (Cal. Super. Ct.), pending in Los Angeles

140a
County Superior. Court, alleges that ADIR and Mr.
Azarkman have violated California’s Unfair Competition Law, Business & Professions Code section 17200
(“UCL”), and False Advertising Law, Business & Professions Code section 17500 (“FAL”). I have attached a
copy of the People’s complaint for your convenience.
It has come to our attention that Starr Indemnity &
Liability Co. may be providing defense coverage to
ADIR and/or Mr. Azarkman under a Starr Policy No.
1000620507171 for People vs. Adir International, LLC.
Please be advised that insurance coverage for such law
enforcement actions is prohibited under California law.
California Insurance Code section 533.5 mandates that:
“(a) No policy of insurance shall provide, or be
construed to provide, any coverage or indemnity for the payment of any fine, penalty, or
restitution in . . . any action or proceeding
brought pursuant to Chapter 5 (commencing
with Section 17200) of Part 2 of, or Chapter 1
(commencing with Section 17500) of Part 3 of,
Division 7 of the Business and Professions
Code by the Attorney General . . . .
(b) No policy of insurance shall provide, or be
construed to provide, any duty to defend . . .
any claim . . . in any action or proceeding
brought pursuant to Chapter 5 (commencing
with Section 17200) of Part 2 of, or Chapter 1
(commencing with Section 17500) of Part 3 of,
Division 7 of the Business and Professions
Code in which the recovery of a fine, penalty,
or restitution is sought by the Attorney
General
...

141a
(d) Any provision in a policy of insurance
which is in violation of subdivision (a) or (b) is
contrary to public policy and void.”
The California Legislature enacted this statute prohibiting such coverage because it is contrary to public
policy to have an insurer pay defense costs, restitution,
fines, or penalties on behalf of defendants in civil and
criminal prosecutions. (See Mt. Hawley Ins. Co. v.
Lopez (2013) 215 Cal.App.4th 1385, 1402-1404.)
The People’s action here against ADIR and Mr.
Azarkman appears to be the type of action for which
coverage is prohibited under Insurance Code section
533.5. The action alleges claims against the defendants only under the UCL and the FAL, and seeks only
restitution, civil penalties, and injunctive relief. There
appears to be no potential for coverage under Policy
No. 1000620507171 or any insurance policy under
California law.
Please let us know if Starr is currently providing
defense coverage to ADIR or Mr. Azarkman and the
legal authority to do so. You may contact me at the
phone number or email listed above.
Sincerely,
/s/ Michael Reynolds
MICHAEL REYNOLDS
Deputy Attorney General
For

XAVIER BECERRA
Attorney General

cc: Jeffrey Tsai, Esq. (Counsel for ADIR and Mr.
Azarkman)

142a
APPENDIX I
[LOGO]
Troutman Sanders LLP
5 Park Plaza, Suite 1400
Irvine, CA 92614
troutman.com
Kevin F. Kieffer
kevin.kieffer@troutman.com
949.622.2708 telephone
Michael L. Huggins
michael.huggins@troutman.com
415.477.5752 telephone
May 17, 2019
VIA EMAIL (AFinch@ReedSmith.com)
Amber Finch, Esq.
Reed Smith LLP
355 South Grand Avenue, Suite 2900
Los Angeles, CA 90071
Re: Insurer:

Starr Indemnity a Liability
Company
Insured:
Adir International, LLC dba La
Curacao (“Adir”)
Claimant:
The People of the State of
California
Policy:
Resolute Portfolio for Private
Companies
Policy No.:
100006200507171
Policy Period:
October 1, 2017 to October 1,
2018
Starr Claim No.: FLSIL0445472
Matters:
Coverage Action brought by
Adir against Starr

143a
Dear Ms. Finch:
We write in follow up to our letter to Adir dated April
23, 2019. As you know, Troutman Sanders LLP serves
as counsel for Starr Indemnity & Liability Company
(“Starr”) concerning Adir’s coverage under the abovereferenced policy (“Policy”). We have addressed this
letter to you based on our understanding that you
serve as Adir’s insurance representative in this matter.
Please let us know if that is incorrect.
This letter supplements, and fully incorporates herein,
all of Starr’s prior correspondence in this matter.
This letter is intended to provide you with additional
information regarding Adir’s coverage for the lawsuit,
People of the State of California v. Adir International,
LLC, dba Curacao, et al., No. BC680425 (Cal. Super.
Ct. Los Angeles Cty. Oct. 19, 2017) (“Underlying Action”),
in light of (1) communications that Starr has received
from the California Attorney General’s Office (“AGO”)
informing Starr that, under California Code of Insurance § 533.5 (“Section 533.5”), Starr may not provide
coverage to Adir in the Underlying Action, and (2) the
coverage action that Adir has filed against Starr,
Adir International, LLC, a Delaware Limited Liability
Company, dba Curacao (formerly known as La Curacao)
and Ron Azarkman, an individual, v. Starr Indemnity
& Liability Company and Does 1 through 100, inclusive, No. 19STCV13200 (Cal. Super. Ct. Los Angeles
Cty. Apr. 17, 2019) (“Coverage Action”).
We summarize below certain of the allegations against
Adir in the Underlying Complaint, and, in so doing,
we recognize that such allegations may be without
substance. Nothing in this letter is intended to suggest
that they have any legal or factual merit. Nor does
Starr reallege the complete allegations in the
Underlying Action in this letter. For a more complete

144a
understanding of the AGO’s allegations against Adir,
we would refer you to the pleadings in the Underlying
Action, which you may read with this letter.
Additionally, Starr continues to reserve all of its
rights, whether or not previously asserted, as it may
have under the terms of the Policy and applicable law,
including, without limitation, Starr’s rights to seek
reimbursement of all amounts paid to date in the
Underlying Action. Nothing in this letter shall be
construed as a waiver of Starr’s rights, which Starr
expressly reserves, including, without limitation, any
statement or position that Starr may assert in the
Coverage Action. Any position or statement in this
letter shall be superseded and replaced by any position
or statement that Starr asserts in any filing in the
Coverage Action.
I. FACTUAL BACKGROUND
A. The Policy
Starr Indemnity & Liability Company (“Starr”) issued
Resolute Portfolio for Private Companies Insurance
Policy, No. 1000620507171 (“Policy”) (renewal of No.
1000056959161), to Adir International, LLC dba La
Curacao (“Adir”) for the Policy Period of October 1,
2017 to October 1, 2018, with a Pending or Prior Date
of October 1, 2005 for the Directors & Officers Liability
Coverage Section (“D&O Coverage Section”). (Policy
Declarations, Items 1, 2, 6.A.)
The Policy has aggregate Limits of Liability of
$10,000,000 for the D&O/EPL/Fiduciary Coverage
Sections and is subject to a Retention of $100,000 for
D&O Coverage Section Insuring Agreements B. and C.
(Policy Declarations, Items 4.B.(i), C., D.; 5.A.)

145a
The applicable Insuring Agreements B. and C. in the
D&O Coverage Section of the Policy state as follows:
B. The Insurer shall pay on behalf of the
Company the Loss arising from a Claim
first made during the Policy Period (or
Discovery Period, if applicable) against
any Insured Person for any Wrongful Act,
and reported to the Insurer in accordance
with the terms of this policy, if the
Company has indemnified the Insured
Person for such Loss.
C. The Insurer shall pay on behalf of the
Company the Loss arising from a Claim
first made during the Policy Period (or
Discovery Period, if applicable) against
any Insured Person for any Wrongful Act,
and reported to the Insurer in accordance
with the terms of this policy.
(D&O Coverage Section, § 1.B., C.)
B. The Underlying Action against Adir
On October 19, 2017, the State of California brought a
civil action, People of the State of California v. Adir
International, LLC, dba Curacao, et al., No. BC680425
(Cal. Super. Ct. Los Angeles Cty. Oct. 19, 2017)
(“Underlying Action”) against Adir, Adir’s subsidiary
Curacao, and Ron Azarkman, who is alleged to be
the CEO of Adir and CEO/CFO/Director of Curacao
(collectively, “Defendants”).
The Underlying Action seeks a permanent injunction,
civil penalties, restitution, and other equitable relief
under Unfair Competition Law (“UCL”) (i.e., Section
17200, et seq.) and the False Advertising Law (“FAL”)
(i.e., Section 17500, et seq.) of the Business and

146a
Professions Code, based on allegations that the Defendants violated consumer protection laws through baitand-switch advertising and bundling, store credit practices, contract add-ons, contract translation deficiencies,
warranties, return practices, debt collection, and small
claims tactics.1
On October 26, 2017, Adir tendered the Underlying
Action to Starr under the Policy.
On December 15, 2017, Starr issued a response letter
stating that it was withdrawing its denial of coverage
and would agree to defend the Underlying Action
subject to the terms of the Policy.
C. The AGO Letter and Starr’s suspension of
defense payments
The California Attorney General’s Office (“AGO”), by
letter dated March 8, 2019 (the “AGO Letter”), brought
to Starr’s attention the provisions of Section 533.5 as
they may impact Adir’s coverage under the Policy for
the Underlying Action. The AGO advised Starr that
the Underlying Action is the type of action for which
coverage is prohibited under Section 533.5 because the
Underlying Action alleges claims only under the
provisions of California’s Uniform Competition Law
(BPC §§ 17200, et seq.) (“UCL”) and False Advertising

1

Starr is aware that, on May 2, 2019, the AGO filed a Motion
for Leave to File First Amended Complaint, which is pending in
the Underlying Action and will come on hearing before the court
on May 24, 2019. As discussed more fully below, the AGO’s
proposed amended complaint appears to allege additional predicate acts in support of Adir’s alleged violation of the UCL, and
therefore, would not appear to substantively impact any coverage
issues concerning the application of Section 533.5 regarding the
Underlying Action.

147a
Law (BPC §§ 17500, et seq.) (“FAL”) and seeks only
restitution, civil penalties, and injunctive relief.
On March 29, 2019, Starr issued a letter to Adir’s
defense counsel, DLA Piper, advising that Starr will
suspend payments of defense costs based on the AGO’s
letter dated March 8, 2019.
By letter dated April 5, 2019 Adir responded to Starr
and asserted, among other things, that Section 533.5
does not apply to the entire Underlying Action because
it also alleges violations of statutes other than the
UCL and the FAL and seeks injunctive relief in addition to any “a fine, penalty, or restitution.” Therefore,
Adir requested that Starr commit to continue
providing a defense by April 12, 2019.
On April 12, 2019, Starr responded by letter to Adir’s
letter dated April 5, 2019, stating that Starr will follow
up with the AGO regarding the points that Adir
raised.
Starr also sent a letter that same day to the AGO
seeking clarification regarding the points raised in
the AGO’s letter dated March 8, 2019. Starr asked
whether it is the AGO’s position that Section 533.5
applies in light of the circumstance that the Action
seeks injunctive relief in addition to any “fine, penalty
or restitution” because Adir contends that it does not
apply to actions seeking injunctive relief. Additionally,
Starr has asked whether it is the AGO’s position that
Section 533.5 applies even when predicate statutes are
alleged in the complaint.
On May 13, 2019, DAG Reynolds provided a letter to
Starr (the “AGO Response Letter”), which was copied
to Adir, responding to Starr’s April 12, 2019 letter.
Such letter confirmed the AGO’s position that Section
533.5 “clearly prohibits any defense or indemnity cov-

148a
erage for [the Underlying Action], even though
injunctive relief is sought and even though the complaint alleges other statutory violations as predicate
unlawful acts under the UCL cause of action.”
Attached to this letter is a true and correct copy of the
AGO Response Letter.
D. The Coverage Action filed by Adir against Starr
On April 17, 2019, Adir provided Starr with a letter
stating that “as a result of Starr’s decision to suspend
defense payments to Adir’s underlying defense counsel,
DLA Piper, Adir had no choice but to file an action
against Starr for declaratory relief and breach of
contract.” The letter attached a courtesy copy of the
complaint, without exhibits, in the Coverage Action.
On April 23, 2019, through its appointed process
server, Starr was served with a summons and complete copy of the complaint in the Coverage Action.
II. APPLICATION OF SECTION 533.5 TO THE
UNDERLYING ACTION
Starr has provided Adir with a defense in the
Underlying Action from the time that Starr accepted
Adir’s tender of the Underlying Action on December
15, 2017. Upon receiving the AGO Letter, Starr did not
withdraw its defense but merely suspended defense
payments and informed Adir that Starr would seek
clarification from the AGO regarding Starr’s potential
legal obligations under Section 533.5. Nevertheless, on
April 17, 2019, Adir filed the Coverage Action against
Starr.
Starr has thoroughly researched and sought clarification from the AGO regarding the application of Section
533.5 to the Underlying Action. Upon careful consideration of these issues, as discussed more fully

149a
below, Starr has determined that coverage does not
exist for the Underlying Action because Section 533.5
precludes, both, a defense and indemnity for this
matter.
The complete text of Section 533.5 is as follows:
(a) No policy of insurance shall provide, or be
construed to provide, any coverage or indemnity for the payment of any fine, penalty, or
restitution in any criminal action or proceeding or in any action or proceeding brought
pursuant to Chapter 5 (commencing with
Section 17200) of Part 2 of, or Chapter 1
(commencing with Section 17500) of Part 3 of,
Division 7 of the Business and Professions
Code by the Attorney General, any district
attorney, any city prosecutor, or any county
counsel, notwithstanding whether the exclusion or exception regarding this type of coverage
or indemnity is expressly stated in the policy.
(b) No policy of insurance shall provide, or be
construed to provide, any duty to defend, as
defined in subdivision (c), any claim in any
criminal action or proceeding or in any action
or proceeding brought pursuant to Chapter 5
(commencing with Section 17200) of Part 2
of, or Chapter 1 (commencing with Section
17500) of Part 3 of, Division 7 of the Business
and Professions Code in which the recovery of
a fine, penalty, or restitution is sought by the
Attorney General, any district attorney, any
city prosecutor, or any county counsel, notwithstanding whether the exclusion or
exception regarding the duty to defend this
type of claim is expressly stated in the policy.

150a
(c) For the purpose of this section, “duty to
defend” means the insurer’s right or obligation to investigate, contest, defend, control
the defense of, compromise, settle, negotiate
the compromise or settlement of, or indemnify
for the cost of any aspect of defending any
claim in any criminal action or proceeding or
in any action or proceeding brought pursuant
to Chapter 5 (commencing with Section 17200)
of Part 2 of, or Chapter 1 (commencing with
Section 17500) of Part 3 of, Division 7 of
the Business and Professions Code in which
the insured expects or contends that (1) the
insurer is liable or is potentially liable to
make any payment on behalf of the insured or
(2) the insurer will provide a defense for a
claim even though the insurer is precluded by
law from indemnifying that claim.
(d) Any provision in a policy of insurance
which is in violation of subdivision (a) or (b) is
contrary to public policy and void.
Cal. Ins. Code § 533.5 (emphasis added).
As such provisions show, Section 533.5 applies where
any California prosecutor has brought a criminal or
civil action or proceeding against an insured under the
UCL or the FAL. See also Bank of the W. v. Superior
Court, 2 Cal. 4th 1254, 1271 (1992).
Though the Policy states that Starr has the “right and
duty to defend any Claim against any Insured covered
under this policy” (General Terms and Conditions,
§ 6), the Starr Policy contains a Conformity to Statute
provision, which states as follows:
Any terms of this policy which are in conflict
with the terms of any applicable laws constru-

151a
ing this policy, including any endorsement to
this policy which is required by any state
Department of Insurance, or equivalent authority (“State Amendatory Endorsement”) are
hereby amended to conform to such laws.
Nothing herein shall be construed to restrict
the terms of any State Amendatory Endorsement.
In the event any portion of this policy shall be declared
or deemed invalid or unenforceable under applicable
law, such invalidity or unenforceability shall not affect
the validity or enforceability of any other portion of
this policy.
(General Terms and Conditions, § 21.) Therefore, the
Policy must be read to conform to Section 533.5 to the
extent any provision in the Policy conflicts.
Even if the Policy did not contain such provision, the
defense provisions of the Policy would be void under
the plain terms of Section 533.5, subsection (d), which
states that the statute applies regardless of whether
such exception is stated in any insurance policy. Cal.
Ins. Code § 533.5(d). Section 533.5 thus would
supersede any conflicting provision in the Policy.
Here, the Underlying Action brought by the AGO
alleges a First Cause of Action under the FAL based
on Defendants’ alleged false or misleading statements
and a Second Cause of Action for Defendants’ alleged
unlawful, unfair, and/or fraudulent business practices.
The AGO’s proposed First Amended Complaint, if
adopted, would add a Third Cause of Action, which
alleges additional violations of the UCL.
Adir’s position that Section 533.5 does not apply to
the portions of the Underlying Action that allege
violations of statutes outside of the UCL or FAL, or to

152a
the injunctive relief portion of the Underlying Action,
is based on a misreading of the statute.
While Subsection (a) applies to bar indemnity for the
payment of any “fine, penalty, or restitution,” the
following subsections are broader as concerns the duty
to defend.
Subsection (b) bars any duty to defend any claim in
any action or proceeding brought pursuant to the UCL
or FAL in which the recovery of a fine, penalty, or
restitution is sought by the Attorney General. Cal. Ins.
Code § 533.5(b). The term “in which” indicates that the
statute’s ban on the duty to defend in such actions is
not limited to the portion of the action that concerns
any fine, penalty, or restitution but, rather, applies to
the entire action “in which” such relief is sought. Also,
the AGO has stated that it would not make sense to
distinguish between restitution and injunctive relief
because “[e]very civil action brought under the UCL
and the FAL is an ‘Action[] for [an] Injunction[].’” (See
AGO Response Letter at 2 (citing Bus. & Prof. Code
§§ 17204, 17535).)
Subsection (b) of Section 533.5 must be read in light of
Subsection (c), which defines the “duty to defend” as
concerning any aspect of defending any claim in any
action or proceeding described in Subsection (b). The
term “any aspect” could not be more broadly stated,
and reasonably indicates that Subsection (b) applies to
the entire Underlying Action. See Los Angeles Cty.
MTA v. Alameda Produce Mkt., LLC, 52 Cal. 4th 1100,
1107 (2011) (In construing a statute, courts “construe
the words in question in context, keeping in mind the
statute’s nature and obvious purposes.”).
A plain reading of such broadly worded provisions
reasonably cannot be construed as barring a duty to

153a
defend only as to the portion of any such action that
concerns a “fine, penalty, or restitution.” Instead,
Section 533.5 applies to any predicated acts or request
for injunctive relief.
A California court has expressly determined that,
under Section 533.5, “no reasonable factfinder could
conclude” that a request for injunctive relief constitutes “damages” under an insurance policy because
Section 533.5 “expressly prohibits insurers from
providing coverage or a defense for any claims brought
pursuant to the UCL.” Allen v. Steadfast Ins. Co.,
No. CV 141218 JC, 2014 WL 12569527, at *17 (C.D.
Cal. Aug. 22, 2014). See also United Cmty. And Hous.
Dev. Corp. v. Ace Prop. And Cas. Ins. Co., 2004 WL
2633921, at *4 (Cal. Ct. App. Nov. 19, 2004) (“the
complaint was filed by public and private attorneys
general who sought only prospective equitable relief
from unfair, unlawful and fraudulent business practicesclaims that are uninsurable as a matter of law”);
Admiral Ins. Co. v. N. Am. Arms, Inc., 2003 WL
21588226, at *7 (Cal. Ct. App. July 11, 2003) (“The
policies require a claim for damages and do not provide
coverage for claims for declaratory and injunctive
relief because such coverage is not permitted by law.”).
Note that the UCL, itself, provides a right of action
to seek injunctive relief. See Cal. Bus. & Prof. Code
§ 17203 (“Any person who engages, has engaged, or
proposes to engage in unfair competition may be
enjoined in any court of competent jurisdiction.”).
Therefore, the prohibition under Section 533.5 of
providing any duty to defend an action under the UCL
includes any request for injunctive relief.
Common sense and legislative history also make clear
that a request for injunctive relief would not somehow
render Section 533.5 inapplicable. See Mt. Hawley Ins.

154a
Co. v. Lopez, 215 Cal.App.4th 1385, 1417 (2013)
(“Although it is not necessary to do so, we confirm our
interpretation of section 533.5, subdivision (b), by
applying ‘reason, practicality, and common sense to
the language’ of the statute.”). Section 533.5 was
intended broadly “to preclude insurers from providing
a defense in civil and criminal UCL and FAL actions
brought by the Attorney General . . . .” Id. at 1410.
There is no indication that the legislature intended to
remove from Section 533.5 any action under the UCL
or FAL that otherwise would not qualify for a defense
but for its request for injunctive relief.
As the AGO has highlighted on this point, “[c]onsistent
with the statutory text and legislative history, every
court that has considered the issue has unanimously
agreed that Insurance Code section 533.5 applies to
bar coverage for FAL or UCL actions that seek injunctive relief.” See AGO Response Letter at 3 (citing cases).
Nor would the Underlying Action’s allegations of predicate unlawful acts remove, in any part, the Underlying
Action from Section 533.5. As the AGO has stated,
“[a]ny contrary interpretation would frustrate the
purposes of the statute because, as a practical matter,
most UCL claims brought by the Attorney General or
other public prosecutors include predicate violations of
other statutes.” AGO Response Letter at 4.
ADIR’s position that Section 533.5 does not apply is
based on a misreading of the pleadings in the Underlying Action. The alleged violations of statutes outside
of the UCL and FAL are alleged in support of the AGO’s
causes of action for violations of the UCL and FAL.
The First Cause of Action alleges only violations of the
FAL.

155a
The Second Cause of Action, and the proposed Third
Cause of Action, allege multiple provisions of California
law following the statement:
Defendants have engaged, and continue to
engage, in unlawful, unfair, or fraudulent
acts or practices, which constitute unfair
competition within the meaning of Section
17200 of the Business and Professions Code.
Defendants’ acts or practices include, but are
not limited to, the following: . . . .
See Underlying Action, Complaint, ¶ 33.
The Underlying Action does not allege causes of action
for such other statutory violations but merely alleges
them as proof of Defendants’ alleged violations of the
UCL. Therefore, even assuming that an action could
theoretically make allegations that fall outside of
Section 533.5, such would not appear to be the
circumstance in the Underlying Action.
III. CONCLUSION
For the reasons discussed above, Section 533.5 precludes Starr from providing Adir with any defense or
indemnity for the Underlying Action. Therefore, Starr
will not pay the pending defense payments to Adir and
its defense counsel in the Underlying Action.
Starr intends to seek a judicial determination on these
issues in the Coverage Action. In that regard, please
be advised that Starr will oppose any action that Adir
might take to stay the Coverage Action. However,
Starr is happy to work with Adir to quickly resolve the
Coverage Action by facilitating, to the extent possible,
an early judicial determination.
Starr continues to reserve all of its rights in this
matter under the terms and conditions of the Policy

156a
and applicable law. If you believe all or part of this
claim has been wrongfully denied or rejected, you
may have the matter reviewed by the California
Department of Insurance by contacting the following
address:
State of California Department of Insurance
Claims Service Bureau, 11th Floor
300 South Spring Street, South Tower
Los Angeles, California 90013
1-800-927-4357
Sincerely,
/s/ Kevin F. Kieffer
Kevin F. Kieffer
Michael L. Huggins
cc: Olivia Nelson (Olivia. Nelson@starrcompanies.com)
Bill Lutz (William. Lutz@starrcompanies.com)
Jennifer A. Ratner (jenr@icuracao.com)

157a
APPENDIX J
XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF
JUSTICE [SEAL]
300 SOUTH SPRING STREET, SUITE 1702
LOS ANGELES, CA 90013
Public: (213) 269-6000
Telephone: (213) 269-6624
Facsimile: (213) 897-4951
E-Mail: Michael.Reynolds@doj.ca.gov
May 13, 2019

Via U.S. Mail and E-Mail
Kevin F. Kieffer
Michael L. Huggins
Troutman Sanders
580 California Street, Suite 1100
San Francisco, CA 94104
Kevin.Kieffer@troutman.com
Michael.Huggins@troutman.com
RE: Starr Indemnity & Liability Company
Insured: ADIR International, LLC dba La Curacao
Policy Number: 1000620507171
Claim Number: FLSIL0445472
People of the State of California v. Adir
International, LLC, dba Curacao, et al., Case
No. BC680425 (Cal. Super. Ct.)
Counsel:
I write on behalf of the California Attorney General’s Office in response to an April 12, 2019 letter
from Jana I. Lubert of Lewis Brisbois, counsel for
Starr Indemnity & Liability Company (“Starr”) at
the time. I understand that you now represent
Starr in this matter and have asked that further

158a
correspondence regarding this matter be directed to
you.
As you know, the Attorney General’s Office is
representing the People of the State of California (“the
People”) in People of the State of California v. Adir
International, LLC, dba Curacao, et al., Case No.
BC680425 (Cal. Super. Ct.), a civil law enforcement
action with two causes of action: (1) violation of the
False Advertising Law, Business & Professions Code
section 17500 (“FAL”); and (2) violation of the Unfair
Competition Law, Business & Professions Code
section 17200 (“UCL”). As I noted in my May 8, 2019
letter to Starr, it is our office’s position that insurance
coverage for such law enforcement actions is prohibited under California Insurance Code section 533.5.
Ms. Lubert’s April 12, 2019 letter asked for our
office’s position on two questions regarding the applicability of Insurance Code section 533.5: (1) whether
section 533.5 applies to actions in which injunctive
relief is sought; and (2) whether section 533.5 applies
to People v. Adir International, LLC, in light of the
inclusion of alleged violations of statutes other than
the UCL and FAL. It is our office’s position that Insurance Code section 533.5 clearly prohibits any defense
or indemnity coverage for People v. Adir International,
LLC, even though injunctive relief is sought and even
though the complaint alleges other statutory violations as predicate unlawful acts under the UCL cause
of action, as discussed below.
Section 533.5 Prohibits Any Duty to Defend UCL or
FAL Cases Where Any Equitable Relief Is Sought by
the Attorney General
Insurance Code section 533.5 bars any duty to
defend against any claims brought by the Attorney

159a
General under the UCL or the FAL regardless of the
specific remedies sought. This is evident from the
language of section 533.5, the UCL, and the FAL, the
Legislature’s purpose in enacting section 533.5, and
the relevant case law.
As an initial matter, defense coverage for People v.
Adir International, LLC, is barred under the plain
language of section 533.5, which states that “[n]o
policy of insurance shall provide, or be construed to
provide, any duty to defend . . . any claim . . . in any
action or proceeding brought pursuant to Chapter 5
(commencing with Section 17200) of Part 2 of, or
Chapter 1 (commencing with Section 17500) of Part
3 of, Division 7 of the Business and Professions Code
in which the recovery of a fine, penalty, or restitution
is sought by the Attorney General.” People v. Adir
International, LLC, is an action brought pursuant to
the UCL (section 17200 of the Business and Professions Code) and the FAL (section 17500 of the Business and Professions Code) in which the recovery of
civil penalties and restitution is sought by the Attorney General. The fact that the Attorney General is
also seeking an injunction under the same two statutes does not, as a textual matter, remove this action
from the scope of section 533.5.
It also does not make sense to distinguish between
“restitution” and “injunctive relief,” as “restitution” is
simply a form of injunctive relief under the UCL and
the FAL. Every civil action brought under the UCL
and the FAL is an “Action[] for [an] Injunction[].” (See
Bus. & Prof. Code, § 17204; Bus. & Prof. Code, § 17535
[“Actions for injunction under this section may be
prosecuted by the Attorney General . . .”].) Both
statutes allow for only two types of remedies in these
civil actions: (1) injunctive relief (Bus. & Prof. Code,

160a
§ 17203 [“Injunctive Relief—Court Orders”]; Bus. &
Prof. Code, § 17535 [“Obtaining Injunctive Relief”]);
and (2) civil penalties [Bus. & Prof. Code, § 17206
(“Civil Penalty”); Bus & Prof. Code, § 17536 [“Penalty
for Violation of Chapter”].) The code sections permitting injunctive relief state that any person or entity
that violates the UCL or FAL “may be enjoined by any
court of competent jurisdiction.” (Bus. & Prof. Code,
§§ 17203, 17535.) As part of that general injunctive
power, a court “may make such orders or judgments”
necessary to prevent unfair competition “or as may be
necessary to restore to any person in interest any
money or property, real or personal, which may have
been acquired by means of such unfair competition.”
(Bus. & Prof. Code, §§ 17203, 17535.) The term “restitution” never appears in the statute; it is merely informal shorthand for the type of injunctive relief a court
may issue under the UCL and the FAL to restore
money or property to victims. (See People v. Superior
Court (Jayhill) (1973) 9 Cal.3d 283, 286 [holding that
restitution was permitted under prior version of
FAL that only expressly allowed injunctive relief, as
restitution was part of a court’s broad equitable power
to issue injunctions].)
Thus, every FAL or UCL action seeking restitution
is an action for injunctive relief. To exclude FAL or
UCL actions from the scope of Insurance Code section
533.5 on the ground that the action seeks “injunctive
relief” would render the statute a nullity; under such
an interpretation, no FAL or UCL cases for restitution
would fall within section 533.5. The only reasonable
interpretation of section 533.5 is that the statute
applies to every FAL or UCL case brought by the
Attorney General, such as People v. Adir International, LLC, regardless of the specific remedies sought.

161a
It is also clear from the legislative history of Insurance Code section 533.5 that the statute was intended
to preclude insurance coverage (both for indemnity
and defense) for any cases brought by the Attorney
General under the FAL or UCL, regardless of the
specific remedies sought. The legislation was sponsored by the Attorney General’s Office to address the
problems caused when insurance companies provided
coverage for actions brought by the Attorney General
under the FAL or the UCL. (Cal. Dept. of Consumer
Affairs, Enrolled Bill Rep. on Assem. Bill No. 3920
(1987-1988 Reg. Sess.) prepared for Governor
Deukmejian (Aug. 12, 1988), pp. 1-2.) As noted in the
Senate’s Floor Analysis of the legislation, coverage for
these actions is contrary to public policy because
having an insurance company fund defense and
indemnity costs would fail to hold defendants personally accountable for acts of unfair competition or false
advertising. “Instead of individual accountability, the
litigation becomes a contest between the public entity
and the insurance company in which the involvement
of the person whose conduct is at issue is almost
negligible.” (Sen. Rules Com., Off. of Sen. Floor Analyses, analysis of Assem. Bill No. 3920 (1987-1988 Reg.
Sess.) as amended May 9, 1988, pp. 1-2.) It “makes no
public policy sense” to permit insurance companies to
provide coverage “when the Attorney General or a
district attorney seeks to enforce laws prohibiting
unfair business practices [under the UCL] and false or
misleading advertising [under the FAL].” (Assem.
Comm. on Finance and Insurance, Committee Statement on Assem. Bill No. 3920 (1987-1988 Reg. Sess.).)
Nothing in the legislative history suggests that the
Legislature intended to allow insurers to provide
defense or indemnity coverage for FAL or UCL actions
when injunctive relief was sought; that would be

162a
contrary to the Legislature’s stated purpose. As noted
above, every FAL or UCL action is an action for injunctive relief.
Consistent with the statutory text and legislative
history, every court that has considered the issue
has unanimously agreed that Insurance Code section
533.5 applies to bar coverage for FAL or UCL actions
that seek injunctive relief. (See Allen v. Steadfast Ins.
Co. (C.D. Cal., Aug. 22, 2014, No. CV 14-1218 JC) 2014
WL 12569527, at *17 [applying section 533.5 to prohibit defense and indemnity coverage for claim that
“seeks injunctive relief pursuant to the UCL”]; United
Community And Housing Development Corp. v. Ace
Property And Cas. Ins. Co. (Cal. Ct. App., Nov. 19,
2004, No. B166360) 2004 WL 2633921, at *4 [finding
that UCL claims which sought injunctive relief were
“uninsurable as a matter of law,” in part based on
Insurance Code section 533.5]; Admiral Ins. Co. v.
North American Arms, Inc. (Cal. Ct. App., July 11,
2003, No. E032304) 2003 WL 21588226, at *3 [holding
there was no duty to defend UCL action seeking
injunctive relief based on Insurance Code section
533.5]; American States Ins. Co. v. Canyon Creek (N.D.
Cal. 1991) 786 F.Supp. 821, 829 [“[B]ecause the action
seeks injunctive relief and restitution [under the UCL]
on behalf of all those who were defrauded by [the
defendant’s] allegedly unfair practices, coverage is
expressly proscribed by Section 533.5 of the California
Insurance Code.”].)
Section 533.5 Bars Any Duty to Defend UCL Claims
Which Allege Violations of Other Statutes As
Predicate “Unlawful” Acts
Insurance Code section 533.5 also prohibits coverage where the Attorney General alleges violations of
other statutes as predicate violations under the UCL.

163a
The UCL prohibits unlawful, unfair, and fraudulent
business acts or practices. (Bus. & Prof. Code section
17200.) An “unlawful” business act or practice
includes any activity that is forbidden by any law.
Thus, the UCL “borrows” violations of other laws and
makes them actionable as unlawful business practices. (Farmers Ins. Exchange v. Superior Court (1992)
2 Cal.4th 377, 383.) But a UCL claim is separate from
the predicate violations. UCL claims “seek[ ] relief
from alleged unfair competition” and do not seek to
enforce “the statutes underlying [a] claim of unlawful
business practice.” (Rose v. Bank of America, N.A.
(2013) 57 Cal.4th 390, 397 [citing Stop Youth Addiction, Inc. v. Lucky Stores, Inc. (1998) 17 Cal.4th 553,
570].) The UCL “provides its own distinct and limited
equitable remedies for unlawful business practices,
using other laws only to define what is ‘unlawful.’”
(Rose v. Bank of America, N.A., supra, 57 Cal.4th at
397.)
The plain language of Insurance Code section 533.5
bars any duty to defend claims brought by the
Attorney General under the UCL. Alleged predicate
violations under a UCL claim are not claims or causes
of action brought under those predicate statues, as
noted above. Thus, they have no relevance to the
operation of Insurance Code section 533.5. Any contrary interpretation would frustrate the purposes of
the statute because, as a practical matter, most UCL
claims brought by the Attorney General or other public
prosecutors include predicate violations of other
statutes.
* * *
As you noted in your May 7, 2019 email, the People
have filed a motion to amend the operative complaint
in People v. Adir International, LLC. The hearing on

164a
that motion is currently scheduled for May 24, 2019.
The proposed amended complaint adds a third cause
of action, also brought under the UCL, which alleges
additional predicate violations. Nothing in the proposed amended complaint would change the Attorney
General’s Office’s position that coverage for People v.
Adir International, LLC is barred by Insurance Code
section 533.5. If the Court allows the amended complaint to be filed, coverage (defense or indemnity)
would still be prohibited under section 533.5.
If you have any further questions regarding this
matter, please feel free to contact me.
Sincerely,
/s/ Michael Reynolds
MICHAEL REYNOLDS
Deputy Attorney General
For

XAVIER BECERRA
Attorney General

cc: Jennifer Ratner
(via email only at JenR@icuracao.com)

